No. ______
IN THE

Supreme Court of the United States
_________
BILLY DANIEL RAULERSON, JR.,
Petitioner,
v.
WARDEN,
Respondent.
________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eleventh Circuit
________
PETITION FOR A WRIT OF CERTIORARI
________
DAVID W. DEBRUIN
Counsel of Record
ADRIENNE LEE BENSON*
FAARIS AKREMI*
BRADLEY D. POUGH*
JENNER & BLOCK LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001
(202) 639-6015
ddebruin@jenner.com
*Admitted only in New York, California,
and Florida respectively. Not admitted
in the District of Columbia. Practicing
under the supervision of the partnership
of Jenner & Block LLP.

i
CAPITAL CASE
QUESTIONS PRESENTED
Georgia is the only state in the Union that requires a
capital defendant to prove intellectual disability
(formerly called mental retardation) by a “beyond a
reasonable doubt” standard. Discovery in the instant
federal habeas proceeding established that in the thirty
years during which Georgia has maintained this unique
burden of proof, not a single capital defendant has been
able to establish intellectual disability in a contested
case. This case presents the following question:
Whether this Court’s unanimous holding in Cooper v.
Oklahoma, 517 U.S. 348 (1996), clearly established that
Georgia could not impose the burden of requiring proof
of intellectual disability beyond a reasonable doubt,
particularly when state supreme courts in Indiana,
Tennessee, and other states recognized that Cooper
would not allow their states to require a defendant to
prove intellectual disability even by a lower standard of
clear and convincing evidence.

ii
STATEMENT OF RELATED CASES
Georgia Criminal Proceedings
State v. Raulerson, No. CR94-2599-C (Ga. Super. Ct.)
(state trial court proceeding)
Raulerson v. State, Nos. S95P1166, S97P1207 (Ga. Oct.
6, 1997) (Georgia Supreme Court decision on direct
appeal)
Raulerson v. Georgia, No. 97-8385 (U.S. May 18, 1998)
(order denying a petition for a writ of certiorari)
Georgia Post-Conviction Proceedings
Raulerson v. Head, No. 98-V-706 (Ga. Super. Ct. Mar.
22, 2004) (order in state post-conviction proceeding))
Raulerson v. Head, No. S04E1707 (Ga. Jan. 11, 2005)
(order denying appeal from state post-conviction
proceeding)
Federal Habeas Proceedings
Raulerson v. Warden, No. 5:05-cv-00057-JRH (S.D. Ga.
June 9, 2008) (order denying federal habeas relief)
Raulerson v. Warden, No. 14-14038 (June 28, 11th Cir.
2019) (order affirming denial of habeas relief)

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED ............................................i
STATEMENT OF RELATED CASES ........................ ii
TABLE OF AUTHORITIES .......................................... v
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW .......................................................... 1
JURISDICTION ................................................................. 1
CONSTITUTIONAL
AND
STATUTORY
PROVISIONS INVOLVED ................................. 1
INTRODUCTION .............................................................. 2
STATEMENT OF THE CASE ........................................ 6
A.

Trial Proceedings and Direct
Appeal ........................................................... 6

B.

State Habeas Proceedings ......................... 8

C.

Federal Habeas Proceedings ..................... 9

REASONS FOR GRANTING THE PETITION........ 12
I.

GEORGIA’S OUTLIER POSITION IS
CONTRARY TO COOPER’S CLEARLY
ESTABLISHED LAW. ...................................... 12
A.

Georgia’s Position Is Contrary to
Cooper and That of Every Other
State. .......................................................... 12

B.

By Ignoring This Court’s Precedent
in Cooper, Georgia Has Abrogated
the Clearly Established Right Set
Forth in Atkins. ........................................ 19

C.

D.

iv
This Court Should Review the
Important Issue in This Case,
Particularly
Given
Record
Evidence
That
No
Capital
Defendant Has Ever Prevailed
Under Georgia’s Burden of Proof
for Intellectual Disability in a
Contested Case. ........................................ 26
AEDPA Is Not an Impediment to
Review. ...................................................... 30

CONCLUSION ................................................................. 33
Appendix A
Raulerson v. Warden, 928 F.3d 987 (11th Cir.
2019).............................................................................. 1a
Appendix B
Raulerson v. Head, Civil Action No. 98-V-706
(Ga. Super. Ct. Mar. 22, 2004) ................................. 63a
Appendix C
Raulerson v. Head, Case No. S04E1707 (Ga.
Jan. 11, 2005) ........................................................... 142a
Appendix D
Denial of Rehearing, Raulerson v. Warden,
No. 14-14038-P (11th Cir. Aug. 27, 2019) ............ 143a

v
TABLE OF AUTHORITIES
CASES
Addington v. Texas, 441 U.S. 418 (1979) ............. 28, 29
Atkins v. Virginia, 536 U.S. 304 (2002) ........... 3, 18, 19
Bailey v. Alabama, 219 U.S. 219 (1911) .............. 19, 26
Ex parte Briseno, 135 S.W.3d 1 (Tex. Crim.
App. 2004), overruled on other grounds by
Moore v. Texas, 137 S. Ct. 1039 (2017)........... 16, 22
Brumfield v. Cain, 135 S. Ct. 2269 (2015) ................. 31
Chase v. State, 873 So. 2d 1013 (Miss. 2004).............. 17
Commonwealth v. Sanchez, 36 A.3d 24 (Pa.
2011) .....................................................................16-17
Cooper v. Oklahoma, 517 U.S. 348 (1996) ........ passim
Gregg v. Georgia, 428 U.S. 153 (1976) .......................... 5
Hall
v.
Florida,
572
U.S.
701
(2014) .......................................... 12, 19, 20, 21, 22, 25
Head v. Hill, 587 S.E.2d 613 (Ga.
2003) ................................................ 5, 8, 17, 20, 25, 27
Howell v. State, 151 S.W.3d 450 (Tenn. 2004) . 3, 15, 16
Jackson v. Virginia, 443 U.S. 307 (1979) ................... 20
James v. City of Boise, 136 S. Ct. 685 (2016) ...... 17, 18
Kansas v. Marsh, 548 U.S. 163 (2006) ....................... 18
Lafler v. Cooper, 566 U.S. 156 (2012) ......................... 31
Leland v. Oregon, 343 U.S. 790 (1952) ................. 10, 31
Moore v. Texas, 137 S. Ct. 1039 (2017)..... 20, 22, 23, 24

vi
Moore v. Texas, 139 S. Ct. 666 (2019)......... 5, 20, 22, 23
Murphy v. State, 54 P.3d 556 (Okla. Crim. App.
2002), overruled on other grounds by
Blonner v. State, 127 P.3d 1135 (Okla. Crim.
App. 2006) ................................................................ 17
Pannetti v. Quarterman, 551 U.S. 930 (2007) .......... 32
Pruitt v. State, 834 N.E.2d 90 (Ind. 2005) ....... 3, 14, 15
Raulerson v. State, 491 S.E.2d 791 (Ga. 1997) ............ 8
Sessions v. Dimaya, 138 S. Ct. 1204 (2018)............... 30
State v. Lott, 779 N.E.2d 1011 (Ohio 2002),
overruled on other grounds by State v.
Ford, No. 2015-1309, __ N.E.3d __, 2019
WL 5792203 (Ohio Nov. 7, 2019) ........................... 17
State v. Williams, 831 So. 2d 835 (La. 2002) ............. 17
Stripling v. State, 711 S.E.2d 665 (Ga. 2011) ...... 20, 27
Wiggins v. Smith, 539 U.S. 510 (2003) ....................... 31
Williams v. Taylor, 529 U.S. 362 (2000) .................... 30
Yarborough v. Alvarado, 541 U.S. 652 (2004) .......... 32
STATUTES
Ga. Code Ann. § 17-7-131(c)(3) ................................ 2, 28
2017 Ga. Laws Act 189 §§ 2-3 ...................................... 28
OTHER AUTHORITIES
John H. Blume et al., A Tale of Two (and
Possibly Three) Atkins, 23 Wm. & Mary
Bill Rts. J. 393 (2014) .............................................. 27

vii
Lauren S. Lucas, An Empirical Assessment of
Georgia’s Beyond a Reasonable Doubt
Standard to Determine Intellectual
Disability in Capital Cases, 33 Ga. St. U.
L. Rev. 553 (2017) ................................................... 27
Veronica M. O’Grady, Beyond a Reasonable
Doubt, 48 Ga. L. Rev. 1189 (2014) ........................ 28

1
PETITION FOR A WRIT OF CERTIORARI
Billy Daniel Raulerson, Jr. petitions for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Eleventh Circuit.
OPINIONS BELOW
The June 28, 2019 split decision of the Eleventh
Circuit (Pet. App. 1a) is reported at 928 F.3d 987. The
decision of the Georgia Superior Court (Pet. App. 63a) is
unreported. The decision of the Georgia Supreme Court
denying review (Pet. App. 142a) is also unreported.
JURISDICTION
The Eleventh Circuit entered its judgment on June
28, 2019, and denied a timely petition for rehearing and
rehearing en banc on August 27, 2019. On November 14,
2019, this Court granted an application to extend the
time to file a petition for a writ of certiorari to January
24, 2020. This Court has jurisdiction pursuant to 28
U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This case involves the Due Process Clause of the
Fourteenth Amendment to the Constitution, which
states that “[n]o [s]tate shall . . . deprive any person of
life, liberty, or property, without due process of law[.]”
This case also involves the Eighth Amendment to the
Constitution, which prohibits, in relevant part, the
infliction of “cruel and unusual punishment[].”
Finally, this case also concerns Georgia’s statutory
requirement that capital defendants prove the
affirmative defense of intellectual disability “beyond a

2
reasonable doubt.” That requirement is set forth in Ga.
Code Ann. § 17-7-131(c)(3), which provides: “The
defendant may be found ‘guilty but with intellectual
disability’ if the jury, or court acting as trier of facts,
finds beyond a reasonable doubt that the defendant is
guilty of the crime charged and is mentally retarded. If
the court or jury should make such finding, it shall so
specify in its verdict.”
INTRODUCTION
In Cooper v. Oklahoma, 517 U.S. 348 (1996), this
Court held unanimously that an Oklahoma statute
requiring a defendant to prove incompetence to stand
trial by clear and convincing evidence violated the Due
Process Clause. The Court explained that “both
traditional and modern practice and the importance of
the constitutional interest at stake” required rejection of
the State’s heightened burden of clear and convincing
evidence. Id. at 356. It emphasized that “there is no
indication that the rule Oklahoma seeks to defend has
any roots in prior practice,” id., and that
“[c]ontemporary practice demonstrates that the vast
majority of jurisdictions remain persuaded that the
heightened standard of proof imposed on the accused in
Oklahoma is not necessary to vindicate the State’s
interest in prompt and orderly disposition of criminal
cases,” id. at 360. The Court underscored that “[n]o one
questions the existence of the fundamental right that
petitioner invokes,” id. at 354, and it expressly compared
the consequence of an erroneous determination for the
defendant and for the State, finding that an erroneous
decision was far more harmful to the defendant. Id. at
364-65. Based on this analysis, the Court concluded that

3
“[b]ecause Oklahoma’s procedural rule allows the State
to put to trial a defendant who is more likely than not
incompetent, the rule is incompatible with the dictates
of due process.” Id. at 369.
Several state supreme courts have recognized the
rule that ineluctably follows from Cooper, holding that
the Due Process Clause prohibits a state from requiring
a defendant to prove intellectual disability,1 which would
preclude execution under Atkins v. Virginia, 536 U.S.
304 (2002), by clear and convincing evidence. See, e.g.,
Pruitt v. State, 834 N.E.2d 90, 103 (Ind. 2005) (“We do
not deny that the state has an important interest in
seeking justice, but we think the implication of Atkins
and Cooper is that the defendant’s right not to be
executed if mentally retarded outweighs the state’s
interest as a matter of federal constitutional law. We
therefore hold that the state may not require proof of
mental retardation by clear and convincing evidence.”);
Howell v. State, 151 S.W.3d 450, 464-65 (Tenn. 2004)
(“Just as the Supreme Court held in Cooper regarding
incompetency, we conclude that it would violate due
process to execute a defendant who is more likely than
not mentally retarded.”).
No state—except one—requires a capital defendant
to prove intellectual disability beyond a reasonable
doubt. But Georgia is the exception. In a split decision
with Judge Jordan dissenting, the Eleventh Circuit
ruled in this case that decisions of the Georgia Supreme
Court upholding that standard under the Due Process
1

At the time of trial, “intellectual disability” was referred to as
“mental retardation,” and the trial terminology is also used at times
here.

4
Clause are not contrary to the clearly established law set
forth in Cooper and expressly recognized in Pruitt,
Howell, and other cases. As a result, defendants in
Georgia—and only Georgia—must prove intellectual
disability beyond a reasonable doubt. What the Due
Process Clause requires in Georgia is simply different
from what it requires in every other state that retains
the death penalty.
This important issue warrants this Court’s review.
The impact of Georgia’s unique burden is real.
Discovery from the State in Petitioner’s habeas
proceeding revealed that “in the last 30 years not a
single capital defendant in Georgia has been able to
establish intellectual disability when the matter has
been disputed.” Pet. App. 41a (Jordan, J., dissenting).
Experience rates in every other state are radically
different.
Intellectual disability is simply not susceptible to
Georgia’s requirement of proof beyond a reasonable
doubt. Intelligence testing is complex, and an individual
may suffer from certain deficits in adaptive functioning
but not others. All of this is consistent with the accepted
medical definition of the disability, but it provides ample
fodder for a prosecutor to urge, and a jury to find,
“reasons to doubt.” The end result, just as in Cooper, is
that use of this burden of proof means that persons who
are more likely than not intellectually disabled—indeed
who even may be clearly and convincingly intellectually
disabled—will still be executed in Georgia. There is no
historical precedent for Georgia’s burden of proof; it is
not contemporaneously employed by any other state;
and the consequences of a mistaken determination are

5
immeasurably higher for the defendant than for the
state. There is no reasonable way to distinguish this
case from Cooper.
An expert explained in the proceedings below that
there likely are persons who are intellectually disabled
“beyond a reasonable doubt,” but it is only those persons
so profoundly disabled—with an IQ of 30 or 40—that the
diagnosis could not be questioned. Other persons too are
intellectually disabled, however, including the “mildly”
retarded petitioner in Atkins himself. Georgia simply
has redefined the Atkins right to include only the former
category of persons—those profoundly disabled—and to
exclude the rest. The Georgia Supreme Court in fact
acknowledged that Georgia’s “higher standard of proof
serves to enforce the General Assembly’s chosen
definition of what degree of impairment qualifies as
mentally retarded under Georgia law” and “limits the
exemption to those whose mental deficiencies are
significant enough to be provable beyond a reasonable
doubt.” Head v. Hill, 587 S.E.2d 613, 622 (Ga. 2003)
(emphasis added). But just last Term in Moore v. Texas
(Moore II), 139 S. Ct. 666 (2019), this Court reiterated
(for the fourth time) that a state is not free to redefine
the substantive Atkins right. That is precisely what
Georgia has done here.
The death penalty is a lawful punishment, and
neither the legality nor the wisdom of that penalty is at
issue here. But since Gregg v. Georgia, 428 U.S. 153
(1976), this Court has upheld the use of capital
punishment only in circumstances where it is not
arbitrary, where mechanisms exist that reliably
differentiate between those persons for whom execution

6
is appropriate and those for whom it is not. Georgia
stands alone in allowing imposition of the death penalty
on persons who could prove by a preponderance of the
evidence, or even by clear and convincing evidence, that
they are intellectually disabled.
This creates an
intolerable risk—even more significant than that
presented in Cooper—that someone constitutionally
ineligible for capital punishment will be executed.
Regardless of one’s view of capital punishment, or
even of this Court’s decision in Atkins, it is
fundamentally unfair that a constitutional defense
guaranteed across the United States is entirely denied
in Georgia because of a burden of proof that is, in reality,
impossible to meet. The constitutional right of an
intellectually disabled person not to be subject to a
penalty of death cannot vary based on the geographic
location of the defendant’s crime.
This Court should grant the petition.
STATEMENT OF THE CASE
A. Trial Proceedings and Direct Appeal
Petitioner was convicted of shooting and killing three
persons he did not know in 1996, when he was twentyfour years old. From the outset, the most critical issue
in the case was whether Petitioner was intellectually
disabled.
At the guilt phase of the trial, defense counsel
contended Petitioner was “guilty but mentally
retarded”—a defense that then under Georgia law, and
now under federal constitutional law, bars imposition of
a death sentence. A defense expert testified Petitioner
had an IQ of 69 and was functioning at a 12-year old level.

7
Pet. App. 5a-6a. A state expert agreed Petitioner had
an IQ of 69, and concluded that Petitioner “is an
individual of very low intellectual capacity” and that
“there are strong indications of organic CNS [central
nervous system] impairment.” 11th Cir. App. 491.
Evidence showed Petitioner had been severely beaten
by his alcoholic father as a child and had sustained
several head injuries. He failed first, second, and
seventh grade.
The State relied heavily on the significant defense
burden of proving retardation beyond a reasonable
doubt.
The prosecutor argued in closing that
“psychologists cannot be sure, cannot be certain of IQ”
because “[t]hey’re discussing the mind, and there is no
way to be certain that certain things exist or do not
exist.” ECF 31-128 at 25.2 After suggesting that
experts’ opinions were inherently too uncertain to
satisfy the burden of proof, the prosecutor urged the
jury to instead rely on lay stereotypes associated with
intellectual disability. Among other factors, he argued
that Petitioner’s ability to have a child and hold a job
raised reasonable doubt regarding his deficits in
adaptive functioning. Id. at 29-31. In the prosecutor’s
view, even Petitioner’s ability to keep his crime secret
was enough to raise a reasonable doubt regarding his
disability. Id. at 29. The prosecutor also asserted that
the results of Petitioner’s intelligence testing may have
been affected by his depression and sleep problems, id.
at 26, and that alcohol and drug use could have

2

Citations to ECF are to filings in case No. 05-cv-0057 of the
Southern District of Georgia.

8
diminished Petitioner’s intellectual capacity after he
turned eighteen, id. at 32.
The jury declined to find Petitioner mentally
retarded beyond a reasonable doubt.
The case
proceeded to a sentencing hearing at which no
mitigating evidence was offered, and the jury sentenced
Petitioner to death.
On direct appeal, Petitioner contended that requiring
him to prove mental retardation beyond a reasonable
doubt violated the Due Process Clause, relying on this
Court’s decision in Cooper. ECF 31-155, at 32-35. But
the Georgia Supreme Court had held that the State
could require Petitioner to prove what was, at that time,
solely a state-created defense of mental retardation,
beyond a reasonable doubt. Raulerson v. State, 491
S.E.2d 791, 801 (Ga. 1997).
B. State Habeas Proceedings
In 2002, this Court decided Atkins. Therefore, in
state habeas proceedings, Petitioner argued that the
Due Process Clause prohibited a state from requiring a
defendant to prove the constitutional defense of
intellectual disability beyond a reasonable doubt. The
state habeas court ruled that this claim was barred by
res judicata, quoting the decision of the Georgia
Supreme Court on direct appeal. Pet. App. 70a-71a. But
the court also cited the Georgia Supreme Court’s postAtkins decision in Head v. Hill, 587 S.E.2d 613 (Ga.
2003), where the court held, by a 4-3 vote, that Georgia’s
beyond-a-reasonable-doubt standard did not violate the
Due Process Clause as established by this Court in
Cooper. The state court denied habeas relief, and the

9
Georgia Supreme Court denied review. Pet. App. 140a,
142a.
C. Federal Habeas Proceedings
Petitioner then sought federal habeas relief. After
the District Court denied relief, the Eleventh Circuit
granted a certificate of appealability on three issues,
including whether Georgia’s reasonable doubt standard
for intellectual disability violated procedural due
process.
On the merits of that issue, the Eleventh Circuit
ruled that the Georgia courts’ rejection of Petitioner’s
due process claim was not an unreasonable application of
clearly established federal law. The court held that
Cooper did not clearly establish that Georgia’s beyonda-reasonable-doubt standard violated due process
because “[u]nlike the right at issue in Cooper, which has
deep roots in our common-law heritage, there is no
historical right of an intellectually disabled person not to
be executed.” Pet. App. 25a-26a (emphasis added). In
other words, whereas this Court in Cooper asked
whether the State’s burden of proof had roots in
historical practice, the Eleventh Circuit looked to
whether the constitutional right at issue had
longstanding historical roots. In essence, the court ruled
that the Atkins right is entitled to less protection under
the Due Process Clause than the right not be tried if
incompetent at issue in Cooper. In addition, the
Eleventh Circuit did not even consider the other factors
identified in Cooper: contemporary practice, and the
relative harmfulness of an error to the defendant and the
state. See Cooper, 517 U.S. at 362-67. The Eleventh
Circuit also found that the Georgia courts reasonably

10
relied on Leland v. Oregon, 343 U.S. 790 (1952), which
rejected a due process challenge to a state law that
required a defendant to prove insanity beyond a
reasonable doubt—even though Leland pre-dated
Cooper and involved only a state defense not mandated
by the Constitution to be provided at all. Pet. App. 27a.
Judge Jordan dissented. Pet. App. 41a-62a. He
noted that where a criminal proceeding does not
implicate an underlying constitutional right, the Due
Process Clause generally allows a state to decide the
appropriate allocation and burden of proof. Pet. App.
48a. This was true in Leland, where this Court
emphasized that the defendant did not “s[eek] to enforce
against the states a right which we have held to be
secured to defendants in federal courts by the Bill of
Rights.” Leland, 343 U.S. at 798; Pet. App. 45a-46a. But
Judge Jordan explained that “[w]here a fundamental
constitutional right is involved—and the Eighth
Amendment right of an intellectually-disabled
defendant not to be executed is such a right—Cooper
provides the governing precedent under the Due
Process Clause.” Pet. App. 46a. He emphasized that
numerous states have followed Cooper to analyze their
own state’s procedures for determining intellectual
disability, Pet. App. 46a-47a, and he concluded that
“[b]ecause the Georgia Supreme Court in Head did not
conduct the due process analysis required by Cooper, its
decision in that case (followed by the superior court
here) is not entitled to AEDPA deference.” Pet. App.
47a.
Applying Cooper, Judge Jordan readily found that
Georgia’s unique burden of proof for Atkins claims

11
violates constitutional due process. He explained that
“[h]ere the stakes are just as high [as in Cooper], and the
burden Georgia places on capital defendants to prove
intellectual disability is even higher than the clear-andconvincing standard found unconstitutional in Cooper.”
Pet. App. 50a. And he underscored that Cooper based
its decision on “traditional and modern practice and the
importance of the constitutional interest at stake.”
Cooper, 517 U.S. at 356 (emphasis added); Pet. App. 42a.
Finally, Judge Jordan reflected that “[s]ometimes ‘a
page of history is worth a volume of logic.’” Pet. App.
57a (quoting N.Y. Tr. Co. v. Eisner, 256 U.S. 345, 349
(1921) (Holmes, J.)). He explained, based on discovery
produced by the State in this case:
Should any proof be needed that Georgia’s
beyond-a-reasonable-doubt
standard
imposes
an
insurmountable
and
unconstitutional demand on capital
defendants, we need look no further than
how that burden has operated in practice.
In the 30 years since § 17-7-131(c)(3) was
enacted, not a single capital defendant has
succeeded in proving to a factfinder that he
or she is intellectually disabled beyond a
reasonable doubt.
Pet. App. 57a; see also Pet. App. at 57a-61a. Judge
Jordan also relied upon expert testimony in the record
that, with regard to Georgia’s standard, “it would be
very rare for a clinician, especially in the so-called mild
mental retardation range, to testify to that high level, to
be able to testify to that high level.” Pet. App. 60a-61a
(quoting ECF 51 at 71-72).

12
Thus, Judge Jordan found that Georgia’s standard “is
one more manifestation” of the same problem this Court
addressed in Moore and Hall v. Florida, 572 U.S. 701
(2014), which teach that “states violate their discretion
under Atkins by establishing procedures that create an
unacceptable risk that intellectually disabled prisoners
will be executed.” Pet. App. 57a.
REASONS FOR GRANTING THE PETITION
The Court should grant certiorari to review
Georgia’s unique outlier position requiring proof beyond
a reasonable doubt for intellectual disability, which is
contrary to this Court’s decision in Cooper; to review the
demonstrated factual reality that the Atkins right
simply does not exist in Georgia, alone among the states;
and to uphold the definition of intellectual impairment as
it did in Moore and Hall.
I. GEORGIA’S
OUTLIER
POSITION
IS
CONTRARY
TO
COOPER’S
CLEARLY
ESTABLISHED LAW.
A. Georgia’s Position Is Contrary to Cooper and
That of Every Other State.
Georgia is a lone outlier in requiring the Atkins right
to be established beyond a reasonable doubt and in
refusing to apply the clear rule set down by this Court in
Cooper.
In Cooper, Oklahoma argued that its
requirement that a defendant prove competence by clear
and convincing evidence “provides a reasonable
accommodation of the opposing interests of the State
and the defendant.” 517 U.S. at 355-56. This Court
unanimously disagreed, concluding: “We are persuaded,
by both traditional and modern practice and the

13
importance of the constitutional interest at stake, that
the State’s argument must be rejected.” Id. at 356.
This Court unanimously concluded that Oklahoma’s
position plainly failed under these factors.
It
emphasized that “there is no indication that the rule
Oklahoma seeks to defend has any roots in prior
practice.” Id. (emphasis added). Next, it underscored
that “[c]ontemporary practice demonstrates that the
vast majority of jurisdictions remain persuaded that the
heightened standard of proof imposed on the accused in
Oklahoma is not necessary to vindicate the State’s
interest in prompt and orderly disposition of criminal
cases.” Id. at 360. With regard to the importance of the
interest at stake, the Court noted that “[n]o one
questions the existence of the fundamental right that
petitioner invokes. . . . Nor is the significance of this
right open to dispute.” Id. at 354. And the Court
expressly compared the consequence of an erroneous
determination for the defendant, with the injury to the
State of the opposite error, finding that an erroneous
decision was far more harmful to the defendant than to
the State. Id. at 364-65.
There is only one way of applying Cooper to the
question presented here. Georgia cannot contend that
its beyond-a-reasonable-doubt standard for intellectual
disability has “deep roots” in “prior practice” for the
simple reason that various states, and then this Court in
Atkins, only recently held that it is impermissible to
execute an individual who is intellectually disabled. As
a result, there simply is no history suggesting that the
unique burden of proof Georgia seeks to impose in this
context has long qualified as “a procedural rule [that] can

14
be characterized as fundamental.” Id. at 356 (quoting
Medina v. California, 505 U.S. 437, 446 (1992)).
Contemporary practice is even clearer: not a single
other state has deemed it appropriate to impose such a
high burden on a capital defendant. See Pet. App. 50a51a & n.2. Finally, although the constitutional right
recognized in Atkins may be new, there is nothing to
suggest it lacks importance: it is of constitutional
dimension, and it literally determines whether an
individual may live or die. An erroneous decision for the
defendant means a person who is constitutionally
entitled to be spared from execution because of an
intellectual disability will die. In contrast, an erroneous
decision for the state leaves it still able to impose a harsh
punishment: imprisonment for life.
Following this same analysis, several courts of last
resort in other states have applied Cooper to conclude
that even a lower clear and convincing standard is
unconstitutional for claims of intellectual disability
under Atkins. And the reasoning of these courts makes
clear that they have not viewed this question as a
difficult application of Cooper to a novel factual situation;
rather, their holdings followed inexorably from Cooper’s
materially indistinguishable reasoning.
For example, in Pruitt v. State, 834 N.E.2d 90 (Ind.
2005), the Indiana Supreme Court struck down Indiana’s
clear and convincing evidence standard for proving
intellectual disability in light of Cooper and Atkins. Id.
at 103. It observed that, just like the right at issue in
Cooper, the right recognized in Atkins is “fundamental”
irrespective of its age. Id. at 101 (“In the course of
recognizing the right in the Eighth Amendment of

15
mentally retarded defendants not to be executed, the
Supreme Court has identified that right as grounded in
a fundamental principle of justice.” (citing Atkins, 536
U.S. at 306)). Guided by Cooper, the court further
explained that “contemporaneous practice” supported
its conclusion, as “only a relatively small number of
jurisdictions” placed such a high burden of proof on
defendants. Id. at 102. Then, critically, the Indiana
Supreme Court engaged in the same “fundamental
fairness” inquiry set forth in Cooper. Id. It concluded
that while the state’s interest in avoiding an erroneous
determination was quite low—since intellectually
disabled defendants “remain subject to punishment for
their crimes”—the defendant’s interest in avoiding a
wrongful execution could not be higher. Id. at 103
(recognizing also that intellectually disabled defendants,
like the incompetent defendants at issue in Cooper,
already face a high risk of wrongful execution due to
their condition (citing Atkins, 536 U.S. at 320-21)). The
Indiana Supreme Court thus held that the state’s clear
and convincing standard was incompatible with this
Court’s decision in Cooper.
The Tennessee Supreme Court reached a similar
conclusion in Howell v. State, 151 S.W.3d 450 (Tenn.
2004). There, the petitioner challenged the state’s law
requiring defendants to prove intellectual disability by
clear and convincing evidence in post-conviction
proceedings.
Id. at 463.
The court began by
acknowledging that Cooper controlled its burden of
proof inquiry, and that Cooper required that the “burden
of proof . . . reflect the degree of confidence our society
thinks most appropriate in making [an Atkins]
determination.” Id. at 464. Just as in Pruitt, the court

16
emphasized that under both the United States and the
Tennessee
constitutions,
intellectually
disabled
defendants are ineligible for execution. Id. It reasoned
that the constitutional nature of the right, coupled with
the “parallel concerns . . . regarding incompetency to
stand trial and mental retardation,” indicated that
society had no interest in placing such a heavy burden on
individuals raising Atkins defenses. Id. Following
Cooper, the court ended its analysis by weighing the
defendant’s interest in avoiding an erroneous
determination against that of the state. Id. at 465. It
observed—as did the Indiana Supreme Court in
Pruitt—that “the risk to the petitioner of an erroneous
outcome is dire, as he would face the death penalty, while
the risk to the State is comparatively modest.” Id. The
court concluded that “just as the Supreme Court held in
Cooper regarding incompetency . . . it would violate due
process to execute a defendant who is more likely than
not mentally retarded.” Id. at 464-65.
Even the Texas Court of Criminal Appeals’ ruling
that implemented Atkins—overruled by this Court in
2017 for insufficiently protecting intellectually disabled
defendants’
constitutional
rights—applied
a
preponderance standard because “[t]he issue of mental
retardation is similar to other affirmative defenses”
including “incompetency to be executed.” See Ex parte
Briseno, 135 S.W.3d 1, 12 (Tex. Crim. App. 2004),
overruled on other grounds by Moore v. Texas (Moore I),
137 S. Ct. 1039 (2017). Indeed, every other court that has
addressed the issue—either reviewing a state statute or
establishing a standard in the absence of legislative
action—has only approved of standards less demanding
than reasonable doubt. See, e.g., Commonwealth v.

17
Sanchez, 36 A.3d 24, 69-70 (Pa. 2011) (adopting a
preponderance standard for intellectual disability under
Atkins and Cooper); Chase v. State, 873 So. 2d 1013, 1029
(Miss. 2004) (adopting a preponderance standard); State
v. Lott, 779 N.E.2d 1011, 1015 (Ohio 2002) (same),
overruled on other grounds by State v. Ford, No. 20151309, __ N.E.3d __, 2019 WL 5792203 (Ohio Nov. 7, 2019);
State v. Williams, 831 So. 2d 835, 860 (La. 2002)
(concluding that a higher burden “would significantly
increase the risk of an erroneous determination” that a
defendant was not disabled, violating Cooper and
Atkins); Murphy v. State, 54 P.3d 556, 568 & n.20 (Okla.
Ct. Crim. App. 2002) (rejecting a statute mandating
clear and convincing evidence in favor of a
preponderance standard), overruled on other grounds by
Blonner v. State, 127 P.3d 1135 (Okla. Crim. App. 2006).
In contrast, Georgia alone requires a defendant to
prove intellectual disability beyond a reasonable doubt,
and its Supreme Court has upheld that even higher
burden notwithstanding Cooper. See Head, 587 S.E.2d
at 620-22. Georgia has thus repeatedly defied clearly
established federal law.
Undoubtedly, states possess discretion to develop
procedural rules, and AEDPA ensures that procedural
rules that reflect a reasonable application of clearly
established precedent must be upheld on habeas review.
But AEDPA’s standard is not toothless. When, as here,
a state defies clearly established federal law to
effectively nullify a binding decision of this Court, “[i]t is
this Court’s responsibility to say what a federal” law
means. James v. City of Boise, 136 S. Ct. 685, 686 (2016)
(quoting Nitro-Lift Techs., L.L.C. v. Howard, 568 U.S.

18
17, 20 (2012)) (alterations omitted). And “once the Court
has spoken, it is the duty of other courts to respect that
understanding of the governing rule of law.” Id. at 686.
Thus, this Court’s “solemn responsibility is not merely
to determine whether a State Supreme Court has
adequately protected a defendant’s rights under the
Federal Constitution. It is to ensure that when courts
speak in the name of the Federal Constitution, they
disregard none of its guarantees.” Kansas v. Marsh, 548
U.S. 163, 185 (2006) (Scalia, J., concurring) (internal
quotation marks and alterations omitted).
As it has long recognized, this Court’s role of
providing uniform guidance is particularly important
regarding the proper scope of constitutional due process
for capital defendants. Atkins, 536 U.S. at 312 (“[T]he
Constitution contemplates that in the end our own
judgment will be brought to bear on the question of the
acceptability of the death penalty under the Eighth
Amendment.” (quoting Coker v. Georgia, 433 U.S. 584
(1977)). This case thus lies at the core of this Court’s
responsibility to interpret the line between a state’s
discretion and the requirements of the Eighth and
Fourteenth Amendments. Today, the Constitution
means one thing in Georgia and another thing just over
the state line. Allowing such extreme constitutional
discrepancies and arbitrariness to persist “would change
the uniform ‘law of the land’ into a crazy quilt” in an area
of fundamental rights. Marsh, 548 U.S. at 185 (Scalia, J.,
concurring).

19
B. By Ignoring This Court’s Precedent in Cooper,
Georgia
Has
Abrogated
the
Clearly
Established Right Set Forth in Atkins.
This Court has stressed that “a constitutional
prohibition cannot be transgressed indirectly by the
creation of a statutory presumption any more than it can
be violated by direct enactment.” Bailey v. Alabama,
219 U.S. 219, 239 (1911). But Georgia has done just that.
By ignoring Cooper’s clearly established precedent,
Georgia has effectively nullified the clearly established
right recognized in Atkins, thus defying this Court’s
case law on the procedure and substance of rights due to
intellectually disabled capital defendants.
Although Atkins left “to the State[s] the task of
developing appropriate ways to enforce the
constitutional restriction,” Atkins, 536 U.S. at 317
(quoting Ford, 477 U.S. at 416-17), it “did not give [them]
unfettered discretion to define the full scope of the
constitutional protection.” Hall v. Florida, 572 U.S. 701,
719 (2014); see also Cooper, 517 U.S. at 367 (noting that
“Oklahoma correctly reminds us that it is normally
within the power of the State to establish the procedures
through which its laws are given effect,” but concluding
that norm could not save its procedural rule that
undermined a fundamental constitutional right).
Indeed, this Court has observed, Atkins “provide[s]
substantial guidance on the definition of intellectual
disability.” Hall, 572 U.S. at 721. On basis of this
“substantial guidance,” the Court has scrutinized—and
repeatedly rejected—actions by states to redefine or
limit the substantive right set forth in Atkins. See, e.g.,

20
Moore II, 139 S. Ct. at 672; Moore v. Texas (Moore I),
137 S. Ct. 1039, 1052-53 (2017); Hall, 572 U.S. at 724.
Georgia has done precisely what this Court has
repeatedly rejected, but through a procedural side door.
As the Georgia Supreme Court acknowledged,
“Georgia’s
beyond
a
reasonable
doubt
standard . . . serve[s] to define the category of mental
retardation within Georgia law.” Stripling v. State, 711
S.E.2d 665, 668-69 (describing the holding of Head, 587
S.E.2d at 613) (emphasis in original). As its decision in
Head made clear, Georgia’s “higher standard of proof
serves to enforce the General Assembly’s chosen
definition of what degree of impairment qualifies as
mentally retarded under Georgia law,” and it “limits the
exemption to those whose mental deficiencies are
significant enough to be provable beyond a reasonable
doubt.” Head, 587 S.E.2d at 622 (emphasis added).
Under this controlling interpretation of the state’s
highest court, the standard of proof bridges the gap
between procedure and substance. Cf. Hall, 572 U.S. at
718 (describing the importance of the Florida Supreme
Court’s construction of the statute at issue). As a result,
defendants with mild-to-moderate disabilities are
procedurally excluded from the definition of intellectual
disability, redefining the Atkins right more narrowly to
only those whose disabilities are deemed “significant
enough,” Head, 587 S.E.2d at 622, to be proven to “a
subjective state of near certitude,” Jackson v. Virginia,
443 U.S. 307, 315 (1979).
This Court’s decisions in Hall and Moore
emphatically reject such narrowing of the Atkins right.
In Hall, the Court held that Florida’s Atkins statute

21
violated the Eighth Amendment. 572 U.S. at 724. The
statute had been construed to cut off the disability
inquiry where a defendant had an IQ score above 70.
Recognizing that clinical definitions were a
“fundamental premise” of Atkins, id. at 720, this Court
rejected the statute on the basis that it “disregard[ed]
established medical practice in two interrelated ways.”
Id. at 712. First, the statute ignored the clinical
consensus that intellectual disability diagnosis requires
a “conjunctive assessment,” id. at 722-23, that weighs
not only intellectual deficits as measured by IQ testing
but also adaptive functioning—i.e., “the inability to learn
basic skills and adjust behavior to changing
circumstances”—as well as the age these deficits
manifested, id. at 710. Florida’s failure to account for
any other factor when a defendant presented with an IQ
score above 70 impermissibly ignored that consensus,
the Court explained, by relying solely on IQ testing
instead of treating it as only one factor. Id. at 723
(“Florida’s statute . . . bars consideration of evidence
that must be considered in determining whether a
defendant in a capital case has intellectual disability.”).
Second, Florida’s standard failed to account for the
uncertainty intrinsic to measures of intellectual
disability. This Court acknowledged that diagnostic
tools are the products of “subjective judgments” by
clinicians and are subject to other confounding factors,
id. at 713, before holding that, in order to comply with
Atkins, decisionmakers “must recognize, as does the
medical community,” that testing tools like IQ scoring
are intrinsically imprecise, id. at 724. “The death
penalty is the gravest sentence our society may impose,”
and defendants “facing that most severe sanction must

22
have a fair opportunity to show that the Constitution
prohibits their execution.” Id. at 724. In order to satisfy
that command in light of diagnostic uncertainty, Florida
was required to permit defendants with IQs slightly
above seventy a chance to present evidence of deficits in
adaptive functioning and age of onset. Id. at 720. It
could not, based on an IQ score, deem a person not to be
intellectually disabled as a matter of law. Id. Such a
definition would too often exclude individuals who were
mildly mentally retarded—a group clearly entitled to
protection under Atkins—creating an “unacceptable
risk that persons with intellectual disability will be
executed.” See id. at 704, 719-20.
Similarly, this Court’s recent decisions in Moore I,
137 S. Ct. at 1039, and Moore II, 139 S. Ct. at 672,
underscore that states cannot narrowly redefine the
Atkins right. In Moore I, the Court reviewed a ruling
by the Texas Court of Criminal Appeals that employed
not only the trio of widely accepted diagnostic
considerations for intellectual disability identified in
Atkins and Hall, but also additional factors articulated
by that court’s earlier decision in Ex parte Briseno, 135
S.W.3d 1. One of the Briseno factors, for instance, asked
whether people who knew the defendant during his
development thought he was intellectually disabled. See
Moore I, 137 S. Ct. at 1046 n.6. Another asked if the
defendant could “hide facts or lie effectively in his own
or others’ interests.” Id.
This Court unanimously rejected the Briseno factors
on the basis that they introduced impermissible lay
stereotypes into the intellectual disability analysis. See
id. at 1050-53; id. at 1060 (Roberts, C.J. dissenting)

23
(agreeing with the majority that the Briseno factors
violated the Eighth Amendment). And the majority
identified several additional ways that the Texas court
had violated the Eighth Amendment. For instance, the
Texas court abridged the defendant’s rights when it had
“overemphasized [his] perceived adaptive strengths”
rather than focusing on his deficits as required by the
prevailing medical standard, and by treating the
defendant’s childhood abuse and academic failure as
factors that detracted from a finding that his intellectual
and adaptive deficits were related, when in fact such
circumstances are considered risk factors for intellectual
disability in the medical community. Moore I, 137 S. Ct.
at 1050-51. The majority also condemned the Texas
court’s insistence that the defendant prove that his
deficits were related to his intellectual disability rather
than a personality disorder, acknowledging that such
conditions are often co-diagnosed. Id.
And just last term in Moore II, this Court was forced
to reiterate that it had meant what it said: a defendant’s
“adaptive strengths rather than his deficits” did not
“pass muster under this Court’s analysis” in Moore I.
See 139 S. Ct. at 672 (Roberts, C.J., concurring).
By ignoring this Court’s lessons in Cooper, Georgia
has achieved procedurally what this Court has held on
multiple occasions it cannot do substantively—narrow
the Atkins right. Through its unachievably high burden
of proof, Georgia’s “reasonable doubt” standard invites
the same inappropriate considerations this Court
rejected in Hall and Moore. Thus, the prosecutor in the
instant case urged the jury to find a reasonable doubt
because “psychologists cannot be sure, cannot be certain

24
of IQ,” and because “[t]hey’re discussing the mind, and
there is no way to be certain that certain things exist or
do not exist.” ECF 31-128 at 25. Indeed, the state’s
closing arguments present a litany of the very
considerations this Court has found to be improper. The
prosecutor asserted that the jury should consider one of
the stereotype-laden factors unanimously rejected by
this Court in Moore I: whether the defendant was
capable of keeping secrets. Id. at 29 (emphasizing, as a
basis for doubt about Petitioner’s disability, that he was
able to keep his crime secret for months). Further,
demonstrating how the Georgia standard invites
emphasis of adaptive strengths to the exclusion of
weaknesses, the government argued that the
Petitioner’s ability to have a child and hold a job raised
reasonable doubt regarding his deficits in adaptive
functioning. Id. at 29-31. The prosecutor also appealed
to misguided lay opinions that Petitioner’s other health
problems—namely depression and substance abuse—
were alternative explanations for his intellectual deficits
rather than, as this Court found in Moore I, co-existing
diagnoses or even “risk factors” for intellectual
disability. See ECF 31-128 at 26, 32; Moore I, 137 S. Ct.
at 1051.
By requiring a defendant to prove his disability to a
near certainty, the reasonable doubt standard invites a
prosecutor to invoke exactly the sorts of considerations
forbidden by this Court. By emphasizing a defendant’s
adaptive strengths—be it his ability to have a child or
hold a job—and appealing to laypeople’s stereotypes
about intellectual disability, or even raising the
possibility that his deficits may have been the result of a
related but distinct condition, the government can

25
generate the meager doubt necessary to defeat a
defendant’s claim.
At bottom, Georgia’s intellectual disability standard
enables the state to execute a defendant who is almost
certainly intellectually disabled, based on a procedural
burden
that
elevates
stereotypes
and
lay
understandings above clinical realities. The standard
thus facilitates precisely the sorts of error-prone
reasoning repeatedly condemned by this Court, and
creates an “unacceptable risk that persons with
intellectual disability will be executed.” Hall, 572 U.S.
at 704. It is little wonder not a single defendant whose
intellectual disability has been disputed before a
factfinder has prevailed under this statute. If the Court
meant what it said in Atkins, Hall, and Moore I, and was
forced to repeat in Moore II, it should grant review.
Significantly, as developed in the record below,
Petitioner’s expert witness explained that “I think there
are a few cases, a very few cases, where somebody could
say beyond a reasonable doubt that the person has
mental retardation. The bulk of those cases where you
could do that would be down in the IQs of 30 or 40.” ECF
51 at 54. Thus, just as the Georgia Supreme Court
admitted the Legislature sought to do, the State through
its procedure “limits the exemption to those whose
mental deficiencies are significant enough to be provable
beyond a reasonable doubt.” Head, 587 S.E.2d at 622
(emphasis added). This type of limitation, however, is
precisely what this Court held in Moore and Hall a state
cannot do. That the limitation is dressed in the language
of procedure makes it no less a violation of this Court’s

26
clearly established precedent. See Cooper, 517 U.S. at
363-65; Bailey, 219 U.S. at 239.
C. This Court Should Review the Important
Issue in This Case, Particularly Given Record
Evidence That No Capital Defendant Has
Ever Prevailed Under Georgia’s Burden of
Proof for Intellectual Disability in a Contested
Case.
Critically, the question presented here has severe
practical consequences and is not one of mere
intellectual consistency. As Judge Jordan emphasized in
his dissent, and as this Court recognized in Cooper,
burdens of proof are significant and often can be
outcome-determinative. Pet. App. 57a; Cooper, 517 U.S.
at 362-63. That is exactly what has occurred in Georgia.
In this habeas proceeding, the District Court allowed
discovery and required Georgia to respond to
interrogatories concerning whether, since 1988, any
capital defendants had established intellectual disability
beyond a reasonable doubt. Pet. App. 58a. As Judge
Jordan observed based on the record evidence in this
case, “Georgia, tellingly, did not provide any cases
where a defendant met that standard.” Id. Thus, “in the
last 30 years not a single capital defendant in Georgia
has been able to establish intellectual disability when the
matter has been disputed.” Pet. App. 41a (emphasis
added). Recent scholarship confirms what the discovery
in this case revealed. Based on an exhaustive study of
records from 379 capital cases in Georgia, “[f]rom an
empirical perspective, we can now say with confidence
that not one defendant in Georgia has proven
successfully to a jury post-Atkins that he is exempt from

27
the death penalty due to intellectual disability.” Lauren
S. Lucas, An Empirical Assessment of Georgia’s
Beyond a Reasonable Doubt Standard to Determine
Intellectual Disability in Capital Cases, 33 Ga. St. U. L.
Rev. 553, 605 (2017).
By contrast, the nationwide rate at which intellectual
disability is found on Atkins claims is far higher. See
John H. Blume et al., A Tale of Two (and Possibly Three)
Atkins, 23 Wm. & Mary Bill Rts. J. 393, 397-98 & n.23
(2014) (finding an overall success rate of 26% for Atkins
claims addressed in all published merits opinions but
noting that number likely underrepresents the true
success rate). Georgia has never claimed that the
incidence of intellectual disability within the state is
drastically lower than the national average. Rather, the
only reason why no Georgia defendant has ever been
able to prove intellectual disability, but defendants in all
other states have, is Georgia’s extraordinary and unique
standard of proof.
There is no reason to believe that Georgia will
reverse or repeal its outlier status absent intervention
from this Court. The Georgia Supreme Court has
repeatedly reaffirmed its original, pre-Atkins holding
that requiring capital defendants to prove intellectual
disability beyond a reasonable doubt does not violate
due process or this Court’s decision in Cooper. See, e.g.,
Head, 587 S.E.2d at 621-22 (reaffirming holding of
Mosher v. State, 491 S.E.2d 348 (Ga. 1997)); Stripling,
711 S.E.2d at 668. Nor has the Georgia legislature
shown any willingness to conform to the position of other
States, which all employ a less stringent burden of proof.
Although a legislative committee held a hearing on the

28
issue in 2013, the presiding chairman emphasized that it
was merely for “educational purposes,” and it
predictably resulted in no significant legislation. See
Veronica M. O’Grady, Beyond a Reasonable Doubt, 48
Ga. L. Rev. 1189, 1193 (2014) (quoting statement of Rep.
Rich Golick, Chairman, Comm. On the Judiciary (NonCivil)). When the Legislature recently revised the
relevant section of the Georgia code, it provided only
cosmetic changes—for instance, replacing the outdated
“mentally retarded” terminology with the more modern
usage of “intellectual disability.” See 2017 Ga. Laws Act
189 §§ 2-3. Thus the burden of proof employed in
Georgia remains unchanged since 1988. See Ga. Code
Ann. § 17-7-131(c)(3).
Review by this Court is imperative. Atkins remains
binding federal constitutional law. But experience has
proved that the Atkins right simply does not exist in
Georgia, because Georgia alone among the states has
imposed and upheld an insurmountable burden of proof.
As this Court has recognized, the complexity of
psychiatric and psychological diagnoses often renders it
impossible to achieve the same kind of certainty that
may be possible for factual matters. In Addington v.
Texas, 441 U.S. 418 (1979), the Court rejected a “beyond
a reasonable doubt” standard for civil commitment
proceedings, explaining:
The subtleties and nuances of psychiatric
diagnosis render certainties virtually
beyond reach in most situations. The
reasonable-doubt standard of criminal law
functions in its realm because there the
standard is addressed to specific,

29
knowable facts. Psychiatric diagnosis, in
contrast, is to a large extent based on
medical “impressions” drawn from
subjective analysis and filtered through
the experience of the diagnostician. This
process often makes it very difficult for the
expert physician to offer definite
conclusions about any particular patient.
Within the medical discipline, the
traditional standard for “factfinding” is a
“reasonable medical certainty.”
If a
trained psychiatrist has difficulty with the
categorical “beyond a reasonable doubt”
standard, the untrained lay juror—or
indeed even a trained judge—who is
required to rely upon expert opinion could
be forced by the criminal law standard of
proof to reject commitment for many
patients
desperately
in
need
of
institutionalized psychiatric care.
Id. at 430.
The District Court allowed Petitioner to present
expert testimony on this issue below. An expert in
intellectual disability diagnosis testified that Georgia’s
standard requires a level of certainty that experts
simply cannot provide. The expert explained that “it
would be very rare for a clinician” to be able to testify
with a high enough level of confidence to satisfy the
standard, “especially [for defendants] in the so-called
mild mental retardation range.” ECF 51 at 71-72; see
Pet. App. 60a-61a.

30
This testimony illustrates how the reasonable double
burden of proof effectively negates the substantive
standard for intellectual disability defined by the
Legislature. Any diagnosis of intellectual disability is
readily susceptible to a “doubt” under the broad
definition of reasonable doubt applied in Georgia courts,
see Pet. App. 55a (“[A] reasonable doubt can arise from
‘consideration of the evidence, a lack of evidence, or a
conflict in the evidence.’” (quoting Georgia Suggested
Pattern Jury Instruction—Criminal 1.20.10 (2019))).
When a burden of proof nullifies a legislature’s statute,
that raises serious separation-of-powers concerns and
further warrants this Court’s review. See Sessions v.
Dimaya, 138 S. Ct. 1204, 1228 (2018) (Gorsuch, J.,
concurring in the judgment) (“Allowing the legislature
to hand off the job of lawmaking risks substituting [the
deliberative process] for one where legislation is made
easy, with a mere handful of . . . prosecutors free to
condemn all that they personally disapprove and for no
better reason than they disapprove it.” (internal
quotation marks and alterations omitted)).
Unless this Court intervenes, Georgia will have
successfully eviscerated a constitutional right
established by this Court on procedural grounds.
Intellectually disabled persons will be denied even a fair
opportunity to prove that they should not be executed.
D. AEDPA Is Not an Impediment to Review.
AEDPA’s demanding standard of review is not an
impediment to granting certiorari in this case. This
Court has repeatedly granted review even when a
petitioner was required to overcome AEDPA standards.
See, e.g., Williams v. Taylor, 529 U.S. 362 (2000);

31
Wiggins v. Smith, 539 U.S. 510 (2003), Brumfield v.
Cain, 135 S. Ct. 2269 (2015).
Where a state court correctly identifies and applies
the governing Supreme Court precedents, AEDPA
precludes habeas relief. Pet. App. 45a (citing Bell v.
Cone, 535 U.S. 685, 694 (2002)). However, when the
state court misidentifies the governing precedent,
AEDPA instructs that the state court’s decision be set
aside and habeas relief granted. See, e.g., Lafler v.
Cooper, 566 U.S. 156, 173 (2012) (concluding that
AEDPA did not bar relief where the state court failed to
apply the correct governing precedent to an ineffective
assistance of counsel claim).
That is precisely what occurred here. Both the
Georgia Supreme Court and the Eleventh Circuit
grounded their opinions on the mistaken conclusion that
this Court’s 1952 decision in Leland controlled. Pet.
App. 45a-46a. But there is no room for reasonable
debate on whether that approach can be reconciled with
clearly established precedent. Leland was a case in
which the defendant did not “s[eek] to enforce against
the states a right which we have held to be secured to
defendants in federal courts by the Bill of Rights.”
Leland, 343 U.S. at 798. Rather, Leland involved only a
statutory right that the state could have eliminated
entirely, and the state thus also could encumber that
right with whatever burden of proof it deemed
appropriate.
But this case, like Cooper, involves a federal
constitutional right. And for that, Cooper provides the
relevant rule. See Cooper, 517 U.S. at 367 (rejecting
Oklahoma’s reliance on Patterson v. New York, 423 U.S.

32
197 (1977) because that case that concerned only
“procedures for proving a statutory defense” rather
than “a fundamental constitutional right”). Thus, as
Judge Jordan explained, “[w]here a fundamental
constitutional right is involved—and the Eighth
Amendment right of an intellectually-disabled
defendant not to be executed is such a right—Cooper
provides the governing precedent under the Due
Process Clause.” Pet. App. 46a. And to answer that due
process question, “Cooper requires a court to examine
the relevant common-law traditions of England and the
United States, contemporary practices, and the risks
inherent in Georgia’s practice of requiring capital
defendants to prove intellectual disability beyond a
reasonable doubt.” Id. Here, however, the Georgia
Supreme Court never conducted that analysis. Thus,
“[b]ecause the Georgia Supreme Court in Head did not
conduct the due process analysis required by Cooper, its
decision in that case (followed by the superior court
here) is not entitled to AEDPA deference.” Pet. App.
47a.
That this Court has not specifically analyzed the
issue of a beyond-a-reasonable-doubt burden of proof in
the Atkins context is of no moment. As recognized in
Pannetti v. Quarterman, “AEDPA does not ‘require
state and federal courts to wait for some nearly identical
factual pattern before a legal rule must be applied.’” 551
U.S. 930, 953 (2007) (quoting Carey v. Musladin, 549
U.S. 70, 81 (2006) (Kennedy, J., concurring in the
judgment)); cf. Yarborough v. Alvarado, 541 U.S. 652,
666 (2004) (concluding that, in the AEDPA context,
“[c]ertain principles are fundamental enough that when

33
new factual permutations arise, the necessity to apply
the earlier rule will be beyond doubt.”).
The fact that this case arises in a federal habeas
context also presents advantages that make it an
excellent vehicle for the questions presented. As
explained above, Petitioner was able to obtain discovery
regarding the experience rate on Atkins claims in
Georgia; the State had the opportunity to address that
experience rate (and could not demonstrate that any
defendant had ever prevailed on an Atkins claim in a
contested case); in addition, Petitioner was able to
present
expert
testimony
concerning
the
inappropriateness of the standard from a diagnostic
perspective (which again, the State had the opportunity
to rebut, but did not).
This Court should grant the petition to ensure that
Georgia (alone among the states) cannot defy this court’s
clearly established teachings in Cooper as they apply to
claims of intellectual disability, and to address the
fundamental unfairness of the fact that, under Georgia’s
outlier standard requiring proof beyond a reasonable
doubt, defendants do not have a meaningful opportunity
to prove, and have never once proved, intellectual
disability in a contested case.
CONCLUSION
The petition for a writ of certiorari should be
granted.

34
Respectfully submitted,
DAVID W. DEBRUIN
Counsel of Record
ADRIENNE LEE BENSON*
FAARIS AKREMI*
BRADLEY D. POUGH*
JENNER & BLOCK LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001
(202) 639-6015
ddebruin@jenner.com
*Admitted only in New York, California,
and Florida respectively. Not admitted
in the District of Columbia. Practicing
under the supervision of the partnership
of Jenner & Block LLP.

APPENDIX

1a
Appendix A
United States Court of Appeals, Eleventh Circuit.
Billy Daniel RAULERSON, Jr., PetitionerAppellant,
v.
WARDEN, Respondent-Appellee.
No. 14-14038
(June 28, 2019)
Appeal from the United States District Court for the
Southern District of Georgia, D.C. Docket No. 5:05-cv00057-JRH
Before WILLIAM PRYOR, JORDAN, and HULL,
Circuit Judges.
Opinion
WILLIAM PRYOR, Circuit Judge:
Billy Raulerson Jr., a Georgia prisoner under three
death sentences for murdering two teenagers, one of
whom he sodomized after killing her, and for murdering
a woman he robbed the next day, appeals the denial of
his petition for a writ of habeas corpus, 28 U.S.C. § 2254.
At trial, Raulerson’s counsel argued that he was “guilty
but mentally retarded” beyond a reasonable doubt and
so ineligible for the death penalty. The jury disagreed
and sentenced Raulerson to death. After unsuccessfully

2a
pursuing postconviction relief in Georgia courts,
Raulerson filed a federal petition, which the district
court denied. Raulerson contends that his counsel were
ineffective by failing to investigate mitigating evidence
and present it during the penalty phase; that the Georgia
requirement that a criminal defendant prove his
intellectual disability beyond a reasonable doubt violates
the Due Process Clause of the Fourteenth Amendment;
and that he is actually innocent of the death penalty
because he is intellectually disabled. Because the
Georgia superior court reasonably determined that the
first two claims fail and because Raulerson fails to
establish his intellectual disability, we affirm.
I. BACKGROUND
We divide the background of this appeal in three
parts. First, we discuss the facts of Raulerson’s crime.
Next, we describe Raulerson’s trial and sentencing.
Then, we provide an overview of his state and federal
habeas proceedings.
A. The Crime
In a two-day span, Billy Raulerson, Jr. killed three
people in Ware County, Georgia. On May 30, 1993,
Raulerson parked his car by a pickup truck occupied by
two teenagers, Jason Hampton and Charlye Dixon, on a
lakeside lovers’ lane. Raulerson v. State, 268 Ga. 623, 491
S.E.2d 791, 795–96 (1997). Raulerson stood on the bed of
the truck and shot Hampton several times. Id. at 796. As
Dixon tried to flee, he shot her. Id. He then “dragged
Hampton’s body from the truck and shot him several
more times.” Id. Raulerson went on to take two fishing
rods from the truck and put the rods and Dixon in his

3a
car. Id. He drove to a wooded area several miles away
where he shot Dixon again and sodomized her. Id.
When he tried to return to Dixon’s body the next day,
people were at the site, so he “drove to a rural section of
the county looking for a house to burglarize.” Id. He
stopped at a home that had no vehicle in the carport.
After no one responded to his knock at the door,
Raulerson broke into a shed and stole meat from the
freezer. Id. When he was loading the meat into his car,
he heard someone in the house. Id. Raulerson went
inside and encountered Gail Taylor, who was armed with
a knife. Id. A struggle ensued, and Raulerson shot
Taylor multiple times. Id. He then stole her purse and
left. Id. Later that day, the bodies of Hampton, Dixon,
and Taylor were discovered in separate locations. Id. at
795.
Several months later, the police arrested Raulerson
on unrelated charges. He gave the police a blood sample,
which matched the semen recovered from Dixon’s body.
Id. When the police questioned Raulerson about the
murders, he confessed to killing all three people. Id. The
police searched Raulerson’s home and found the fishing
rods taken from Hampton’s truck and a gun that
matched the shell casings recovered from the crime
scenes. Id. A grand jury charged Raulerson with the
murders of Dixon, Hampton, and Taylor; burglary;
kidnapping; aggravated sodomy; necrophilia; two counts
of possession of a firearm during the commission of a
felony; and possession of a firearm by a convicted felon.
Id. at 795 n.1.

4a
B. The Trial and Sentencing
Leon Wilson and Mark Hatfield represented
Raulerson. Wilson, who served as lead counsel, had tried
several capital cases in his 46 years as an attorney,
although he had not done so in 20 years when he
represented Raulerson. Hatfield, a new attorney,
assisted Wilson with the case.
Before trial, Raulerson’s counsel conducted an
investigation of Raulerson’s background. They hired
five experts, including a licensed clinical social worker,
Audrey Sumner; a psychologist, Dr. Daniel Grant; a
psychiatrist, Dr. John Savino; a neurologist, Dr. Michael
Baker; and a neuropsychologist, Dr. Manual Chaknis.
The experts interviewed Raulerson and his family and
reviewed Raulerson’s medical, school, and criminal
records. Among other things, Raulerson’s counsel
learned that Raulerson had a tumultuous childhood,
abusive parents, substance-abuse issues, and several
emotional and intellectual problems.
During the guilt phase of trial, Raulerson’s counsel
presented the defense that Raulerson was “guilty but
mentally retarded.” In Georgia, a criminal defendant
who proves beyond a reasonable doubt that he is
intellectually disabled is ineligible for the death penalty.
See O.C.G.A. § 17-7-131(c)(3). In July 2017, Georgia
amended section 17-7-131 to substitute the term
“mentally retarded” for “intellectual disability.” See id.
§ 17-7-131; see also 2017 Ga. Laws 189 § 1. We will use
the term “intellectual disability” unless we are quoting
directly from the record. See Brumfield v. Cain, ––– U.S.
––––, 135 S. Ct. 2269, 2274 n.1, 192 L. Ed.2d 356 (2015)
(“While this Court formerly employed the phrase

5a
‘mentally retarded,’ we now use the term ‘intellectual
disability’ to describe the identical phenomenon.”
(alteration adopted) (citation and internal quotation
marks omitted)). To prove intellectual disability,
Raulerson needed the jury to determine, beyond a
reasonable doubt, that he had “significantly subaverage
general intellectual functioning resulting in or
associated with impairments in adaptive behavior which
manifested during the developmental period.” O.C.G.A.
§ 17-7-131.
To support his claim of intellectual disability,
Raulerson’s counsel presented the expert testimony of
their psychologist, Dr. Grant. He testified that he had
spent about 15 hours with Raulerson, administered
about 25 different tests, interviewed his parents, and
reviewed extensive records. Although Raulerson had
received IQ scores of 78 and 83 as a child, which are
above the range of intellectual disability, Grant testified
that his tests determined Raulerson had an IQ around 69
and was “functioning at about a 12-year level.” And he
testified that Raulerson’s deficits onset before age 18
because Raulerson had abused drugs and alcohol at a
young age, suffered head injuries, and had memory and
attention problems. Grant concluded that Raulerson was
intellectually disabled.
Dr. Grant also testified about Raulerson’s
background. He testified that Raulerson always had
trouble in school and never had any friends. He
explained that Raulerson had suffered multiple head
injuries, including being hit by a car at age three. And
Grant described Raulerson’s home life. He testified that
Raulerson’s father was abusive; by age ten, “he and his

6a
father would actually get in the yard and fist-fight like
two adults.” Grant explained that Raulerson’s
environment made him “predisposed” for substance
abuse. After Raulerson began using drugs and alcohol
around age ten, Grant testified that Raulerson spent “his
leisure time ... drinking or using drugs” and sitting
outside his parents’ house “just staring out.” Grant also
discussed Raulerson’s failed marriage and his child. He
explained that Raulerson had been married at age 18 and
had a tumultuous relationship with his then-wife. When
she was five months pregnant, Raulerson shot himself in
the chest.
The state presented its own expert, Dr. Gerald
Lower, who disagreed with some of Dr. Grant’s
conclusions that led to his diagnosis that Raulerson had
an intellectual disability. Dr. Lower’s test also
determined that Raulerson had an IQ of 69, but he
testified that he found signs of malingering. Lower
testified that he did not have enough information to
make a diagnosis about Raulerson’s adaptive
functioning. When asked whether there was “any
convincing demonstration” that Raulerson had an
intellectual disability onset before age 18, he testified,
“Absolutely none whatever.”
The jury rejected that Raulerson was “guilty but
mentally retarded” beyond a reasonable doubt. It
convicted him on three counts of capital murder, in
addition to burglary, kidnapping, necrophilia, and two
counts of possession of a firearm during the commission
of a felony.
The penalty phase began the next morning. The state
called six witnesses and presented several victim-impact

7a
statements. Raulerson’s counsel presented no additional
witnesses in mitigation and instead relied on the
testimony presented during the guilt phase. During
Wilson’s closing argument, he maintained that although
the jury had found that Raulerson was “not ... legally
retarded,” Raulerson’s actions were of a “sick mind” and
“not entirely his fault.” Wilson urged the jury to
consider Raulerson’s background and not to impose the
death penalty. The court instructed the jury that it could
rely on all testimony received in both stages of the
proceedings. The jury returned a verdict of death for all
three counts of capital murder for which Raulerson was
convicted and found the existence of seven statutory
aggravating circumstances beyond a reasonable doubt.
Raulerson appealed his convictions and sentences to
the Supreme Court of Georgia. He argued, among other
things, that section 17-7-131(c)(3), which requires the
accused to prove his intellectual disability beyond a
reasonable doubt, violated his state right not to be
executed if intellectually disabled. In support, Raulerson
cited Cooper v. Oklahoma, 517 U.S. 348, 116 S. Ct. 1373,
134 L. Ed. 2d 498 (1996), which held that an Oklahoma
requirement that the accused prove his incompetence to
be tried by clear and convincing evidence violated the
Due Process Clause. The Supreme Court of Georgia
rejected his challenge to section 17-7-131(c)(3), and it
affirmed Raulerson’s convictions and sentences. See
Raulerson, 491 S.E.2d at 801 (citing Burgess v. State, 264
Ga. 777, 450 S.E.2d 680 (1994)). The Supreme Court of
the United States denied Raulerson’s petition for a writ
of certiorari. See Raulerson v. Georgia, 523 U.S. 1127,
118 S. Ct. 1815, 140 L. Ed. 2d 953 (1998).

8a
C. The State and Federal Habeas Proceedings
After his direct appeal, Raulerson filed a petition for
a writ of habeas corpus in a Georgia superior court. He
alleged that his counsel rendered ineffective assistance
at the penalty phase of his trial by failing to investigate
and present mitigating evidence about his mental health.
In the light of Atkins v. Virginia, 536 U.S. 304, 122 S. Ct.
2242, 153 L. Ed. 2d 335 (2002), he also argued that
Georgia’s burden of proof to establish intellectual
disability violated his federal right not to be executed if
intellectually disabled. That is, he argued that section
17-7-131(c)(3) violates the Due Process Clause of the
Fourteenth Amendment by failing to protect his right
under the Eighth Amendment not to be executed if
intellectually disabled. And Raulerson asserted that he
is intellectually disabled and cannot be executed under
the Eighth Amendment.
The superior court held an evidentiary hearing on
these issues. Raulerson presented over 30 affidavits
from family, friends, teachers, and mental-health
professionals stating that they would have provided
testimony on Raulerson’s behalf if they had been asked.
The affidavits provided details about Raulerson’s
substance abuse, physical abuse, troubled childhood, and
his relationship with his daughter. Raulerson also
presented an affidavit and testimony from Dr. Lower,
the state’s expert at his trial. Lower explained that,
after reviewing additional records and testimony, he
“would have testified that Mr. Raulerson’s I.Q. ... and his
deficits in adaptive functioning apparent prior to age 18
support[ ] a diagnosis of Mental Retardation.” But Dr.
Lower still questioned whether Raulerson’s intellectual

9a
disability onset before age 18. So even with the
additional information, he could not diagnose Raulerson
as intellectually disabled.
The superior court denied Raulerson’s petition. It
denied Raulerson’s claim of ineffective assistance of
counsel on the merits. It ruled that his due-process claim
was barred by res judicata. And relying on precedent
from the Supreme Court of Georgia, it also explained
that Raulerson’s due-process claim failed because
Georgia’s burden of proof to establish intellectual
disability was not unconstitutional under Atkins. The
superior court also determined that Raulerson’s claim
that he is intellectually disabled and so ineligible for the
death penalty was barred by res judicata because the
jury had rejected that claim. And it determined that
Raulerson “failed to present evidence to satisfy the
extremely stringent miscarriage of justice standard”
because the evidence presented at trial and in habeas
proceedings did not “warrant eradication [of] the jury’s
verdict.”
The Supreme Court of Georgia summarily denied
Raulerson’s application for a certificate of probable
cause to appeal. Raulerson then filed a federal petition
for a writ of habeas corpus in the district court.
Following an evidentiary hearing, the district court
denied Raulerson’s petition.
II. STANDARDS OF REVIEW
We review de novo the denial of a petition for a writ
of habeas corpus. Morrow v. Warden, 886 F.3d 1138, 1146
(11th Cir. 2018). The Antiterrorism and Effective Death
Penalty Act, which governs Raulerson’s petition,

10a
provides “[a] general framework of substantial
deference [for] our review of every issue that the state
courts have decided.” Diaz v. Sec’y for the Dep’t of Corr.,
402 F.3d 1136, 1141 (11th Cir. 2005). Under that Act, a
federal court shall not grant habeas relief on any claim
“adjudicated on the merits” in state court unless, as
relevant here, the state court’s decision denying relief
was either “contrary to, or involved an unreasonable
application of, clearly established [f]ederal law, as
determined by the Supreme Court of the United States.”
28 U.S.C. § 2254(d)(1). The phrase “clearly established
federal law” refers only “to the holdings, as opposed to
the dicta, of [the Supreme] Court’s decisions as of the
time of the relevant state-court decision.” Yarborough v.
Alvarado, 541 U.S. 652, 660–61, 124 S. Ct. 2140, 158 L.
Ed. 2d 938 (2004) (quoting Terry Williams v. Taylor, 529
U.S. 362, 412, 120 S. Ct. 1495, 146 L. Ed. 2d 389 (2000)).
The decision of a state court is “contrary to” clearly
established federal law when the state court “applied a
rule in contradiction to governing Supreme Court case
law” or “arrived at a result divergent from Supreme
Court precedent despite materially indistinguishable
facts.” Dill v. Allen, 488 F.3d 1344, 1353 (11th Cir. 2007).
And a state court’s application of federal law is
unreasonable “only if no ‘fairminded jurist’ could agree
with the state court’s determination or conclusion.”
Holsey v. Warden, Ga. Diagnostic Prison, 694 F.3d 1230,
1257 (11th Cir. 2012) (quoting Harrington v. Richter, 562
U.S. 86, 101, 131 S. Ct. 770, 178 L. Ed. 2d 624 (2011)); see
also Harrington, 562 U.S. at 101, 131 S. Ct. 770 (“[A]n
unreasonable application of federal law is different from
an incorrect application of federal law.”). Section
2254(d)(1) sets “a difficult to meet and highly deferential

11a
standard for evaluating state-court rulings, which
demands that state-court decisions be given the benefit
of the doubt.” Cullen v. Pinholster, 563 U.S. 170, 181, 131
S. Ct. 1388, 179 L. Ed. 2d 557 (2011) (citation and internal
quotation marks omitted).
III. DISCUSSION
Raulerson raises three issues for our review. First,
he argues that the superior court unreasonably
determined that his attorneys were not deficient for
failing to investigate mitigating evidence and to present
it during the penalty phase and that he suffered no
prejudice. Second, he argues that the superior court
unreasonably applied clearly established law when it
ruled that the Georgia requirement that he prove his
intellectual disability beyond a reasonable doubt did not
violate the Due Process Clause of the Fourteenth
Amendment. Third, he argues that he is intellectually
disabled and so actually innocent of the death penalty.
As an initial matter, our discussion focuses on the
reasonableness of the superior court’s decision even
though it is not the last state-court “adjudicat[ion] on the
merits,” 28 U.S.C. § 2254(d). The Supreme Court of
Georgia’s summary denial of Raulerson’s application for
a certificate of probable cause to appeal was the last
state-court adjudication on the merits. Hittson v. GDCP
Warden, 759 F.3d 1210, 1231–32 (11th Cir. 2014). But we
“presume” that the summary denial adopted the
superior court’s reasoning unless the state “rebut[s] the
presumption by showing that the [summary denial]
relied or most likely did rely on different grounds,”
which the state has not tried to do in this appeal. Wilson
v. Sellers, ––– U.S. ––––, 138 S. Ct. 1188, 1192, 200 L. Ed.

12a
2d 530 (2018). So we “‘look through’ the unexplained
decision” of the Supreme Court of Georgia to review the
superior court’s decision as if it were the last state-court
adjudication on the merits. See id.
A. The Superior Court Reasonably Determined that
Trial Counsel Were Not Ineffective for Failing to
Investigate Mitigating Evidence and to Present It
During the Penalty Phase.
To obtain relief on his claim of ineffective assistance
of counsel, Raulerson must establish two elements.
Strickland v. Washington, 466 U.S. 668, 687, 104 S. Ct.
2052, 80 L. Ed. 2d 674 (1984). First, he must prove that
“his counsel’s performance was deficient, which means
that it ‘fell below an objective standard of
reasonableness’ and was ‘outside the wide range of
professionally competent assistance.’” Johnson v. Sec’y,
Dep’t of Corr., 643 F.3d 907, 928 (11th Cir. 2011) (quoting
Strickland, 466 U.S. at 688, 690, 104 S. Ct. 2052). When
considering whether counsel’s performance was
deficient, we “review counsel’s actions in a ‘highly
deferential’ manner” and apply “a strong presumption ...
of reasonable professional assistance.” Id. (quoting
Strickland, 466 U.S. at 689, 104 S. Ct. 2052). Second,
Raulerson must establish prejudice, which means that
“but for his counsel’s deficient performance, there is a
reasonable probability that the result of the proceeding
would have been different.” Id. (quoting Strickland, 466
U.S. at 694, 104 S. Ct. 2052). Because Strickland provides
a “most deferential” standard for assessing the
performance of counsel, “[w]hen [we] combine[ ] [it] with
the extra layer of deference that § 2254 provides, the
result is double deference.” Id. at 910–11. So “the

13a
question becomes whether there is any reasonable
argument that counsel satisfied Strickland’s deferential
standard.” Id. (citation and internal quotation marks
omitted).
Raulerson first argues that his trial counsel were
ineffective by failing to investigate mitigating evidence
about his troubled childhood, his love for his child, and
his mental illness. During the state habeas proceedings,
Raulerson presented affidavits from over 30 family
members, teachers, acquaintances, and mental-health
professionals that he contends his counsel should have
interviewed. Raulerson argues that these witnesses
could have presented a more sympathetic portrait of
him.
Counsel representing a capital defendant must
conduct an adequate background investigation, but it
need not be exhaustive. See Berryman v. Morton, 100
F.3d 1089, 1101 (3d Cir. 1996) (“The right to counsel does
not require that a criminal defense attorney leave no
stone unturned and no witness unpursued.”). When our
review is governed by section 2254, “the question is not
just if counsel’s investigative decisions were reasonable,
but whether fairminded jurists could [reasonably]
disagree.” Johnson, 643 F.3d at 932.
To determine whether “trial counsel should have
done something more” in their investigation, “we first
look at what the lawyer[s] did in fact.” Grayson v.
Thompson, 257 F.3d 1194, 1219 (11th Cir. 2001) (citation
and internal quotation marks omitted omitted).
Raulerson’s counsel hired five experts to assist in their
investigation: a licensed clinical social worker, a
psychologist, a psychiatrist, a neurologist, and a

14a
neuropsychologist. The social worker, Audrey Sumner,
interviewed Raulerson, his mother, his father, and two
uncles. Her report crafted an extensive social history of
Raulerson’s life that described the physical and verbal
abuse he suffered at the hands of both of his parents, his
struggles with depression and substance abuse, his
suicide attempt, and various incidents displaying his
rage. The psychologist, Dr. Grant, also met with
Raulerson, for at least fifteen hours, and interviewed his
parents. And Dr. Grant examined extensive medical,
school, and criminal records. Dr. Grant’s report included
background information about Raulerson and diagnoses
of intellectual disability and several mental illnesses.
The psychiatrist, Dr. Savino, met with Raulerson on at
least eight separate occasions and reviewed Raulerson’s
records. Dr. Savino diagnosed Raulerson as mentally ill
and intellectually disabled, and he suggested that
Raulerson might have organic brain damage. To
investigate potential brain damage, Raulerson’s counsel
hired Drs. Baker and Chaknis, a neurologist and
neuropsychologist respectively. Several of the experts
also reviewed Raulerson’s case together. In addition to
the work of these five experts, Raulerson’s counsel
performed their own interviews of Raulerson’s mother,
father, brother, and an uncle. Counsel also had
Raulerson write out his life history.
The superior court reasonably concluded that trial
counsel conducted an adequate investigation.
Raulerson’s counsel gleaned a portrait of his life from the
expert reports, family interviews, and medical, school,
and criminal records. Although Raulerson has presented
additional affidavits from extended family members,

15a
teachers, and acquaintances that counsel could have
interviewed, that more investigation could have been
performed does not mean his counsel’s investigation was
inadequate. Grayson, 257 F.3d at 1225 (“[C]ounsel is not
required to investigate and present all mitigating
evidence in order to be reasonable.” (emphasis added)).
From their investigation, counsel learned much of the
information contained in the affidavits, including details
on Raulerson’s troubled childhood, abusive parents,
difficulties in school, and intellectual deficiencies. And
because Raulerson has pointed to no “known evidence
[that] would lead a reasonable attorney to investigate
further,” Wiggins v. Smith, 539 U.S. 510, 527, 123 S. Ct.
2527, 156 L. Ed. 2d 471 (2003), he has provided no
argument that his counsel acted unreasonably when
they decided to end the investigation when they did.
Because the superior court reasonably determined that
Raulerson’s
counsel
conducted
an
adequate
investigation, we need not consider whether Raulerson
suffered prejudice.
Raulerson next argues that his counsel were
ineffective because they decided not to present
additional mitigating evidence during his penalty phase,
but again, the superior court reasonably rejected this
claim. “No absolute duty exists to introduce mitigating
or character evidence.” Chandler v. United States, 218
F.3d 1305, 1319 (11th Cir. 2000) (en banc) (collecting
cases). And we have held, in a capital case, that counsel’s
performance was not deficient when he chose to rely on
the mitigating evidence presented in the guilt phase
instead of presenting additional evidence during the
penalty phase. Waters v. Thomas, 46 F.3d 1506, 1512

16a
(11th Cir. 1995) (en banc). We explained that “[w]hich
witnesses, if any, to call, and when to call them, is the
epitome of a strategic decision, and it is one that we will
seldom, if ever, second guess.” Id.
The superior court reasonably determined that
Raulerson’s counsel were not deficient when they
presented no additional mitigating evidence during the
penalty phase. As counsel in Waters had done,
Raulerson’s counsel chose to rely on the mitigating
evidence presented in the guilt phase instead of
presenting it again in the penalty phase. See id. at 1512–
13. During the guilt phase, his counsel presented
mitigating evidence that included descriptions of
Raulerson’s intellectual deficiencies and life history. Dr.
Grant testified about Raulerson’s trouble in school, his
emotional and intellectual problems, his marriage, his
relationship with his child, and his tumultuous home life,
including his abusive father.
After the jury returned a guilty verdict, Raulerson’s
counsel chose to rely on this evidence for the penalty
phase. Raulerson’s counsel presented a closing
argument urging the jury to consider Raulerson’s
background and spare him. Counsel reminded the jury
to “[g]o back and look at the circumstances of Billy
Raulerson’s life, the way he was raised, this
dysfunctional family, parents that fought like animals
with each other; an alcoholic father who taught him to
mind with blows of his fists to his head .... What chance
did he have? Isn’t he a victim, too?” And the court
instructed the jury that it could rely on all testimony
received in both stages of the proceedings. The superior
court reasonably chose not to second guess counsel’s

17a
strategic decision to rely on the mitigating evidence
presented in the guilt phase, so neither can we.
Raulerson presents a plethora of additional character
evidence that he contends his counsel should have
presented, but “[c]onsidering the realities of the
courtroom, more is not always better.” Chandler, 218
F.3d at 1319; see also Waters, 46 F.3d at 1512 (“There is
much wisdom for trial lawyers in the adage about
leaving well enough alone.”). “The type of ‘moreevidence-is-better’ approach advocated by [Raulerson]
might seem appealing—after all, what is there to lose?”
Wong v. Belmontes, 558 U.S. 15, 25, 130 S. Ct. 383, 175
L. Ed. 2d 328 (2009). But there can be a lot to lose. Id. By
presenting a “heavyhanded case” of mitigation evidence,
counsel “would have invited the strongest possible
evidence in rebuttal.” Id. A lawyer can reasonably “fear
that character evidence might, in fact, be
counterproductive.” Chandler, 218 F.3d at 1321.
Particularly right before the jury decides a defendant’s
penalty, counsel can reasonably limit the mitigating
evidence he presents to avoid exposure “to a new string
of [g]overnment witnesses who could testify to
Petitioner’s bad acts.” Id. at 1323.
As the superior court highlighted, a reasonable
lawyer could fear that additional evidence of Raulerson’s
character during the penalty phase would be
counterproductive, which is exactly what Raulerson’s
counsel explained had motivated their decision to not
present additional mitigating evidence. Hatfield
testified that they decided not to call Grant or Savino
back to the stand for fear of “opening the flood gates” for
“bad stuff.” And they decided not to call Raulerson’s

18a
family members to testify out of concern that “they
would be able to offer other negative information that
might have hurt” Raulerson’s case. Hatfield was
concerned about testimony that Raulerson was an
aggressor because “those sorts of things don’t play well
in front of a jury.” Counsel knew from their investigation
that Raulerson had frequently picked fights, bullied
other children, and had abused his younger brother,
mother, and ex-wife. And Raulerson, “who bears the
burden in this case, never presented evidence that the
fears of trial counsel about hurtful ... witnesses were
imaginary and baseless.” Chandler, 218 F.3d at 1323
n.36.
We also disagree with Raulerson that, because the
jury had already heard harmful information about him,
presenting mitigating evidence would not be
counterproductive. We cannot overlook that Raulerson’s
counsel faced an uphill battle in the light of the brutality
of the three murders Raulerson confessed he had
committed. And his counsel reasonably feared that
presenting additional mitigating evidence would have
invited testimony about Raulerson’s violent behavior
and bad acts—aggravating evidence that far outweighed
any mitigation value of the additional evidence
Raulerson contends should have been presented. For
example, had counsel called Raulerson’s mother, she
might have also testified about how her son beat her and
how she had called the police on him. Because Raulerson
has failed to prove that “no competent counsel would
have taken the action that his counsel did take,” id. at
1315, the superior court reasonably determined that
counsel’s performance was not deficient.

19a
Even if counsel’s performance in the penalty phase
were deficient, the superior court also reasonably
determined that Raulerson was not prejudiced by the
failure to introduce the additional mitigating evidence.
A petitioner cannot establish that the outcome of the
proceeding would have been different when “[t]he ‘new’
evidence largely duplicated the mitigation evidence at
trial.” Cullen, 563 U.S. at 200, 131 S. Ct. 1388; see also
Holsey, 694 F.3d at 1260–61. And “[t]o the extent the
state habeas record includes new ... evidence,” that
evidence cannot prove prejudice when it is of
“questionable mitigating value.” Cullen, 563 U.S. at 201,
131 S. Ct. 1388.
The superior court reasonably determined that
Raulerson’s additional evidence would not have changed
the jury’s verdict. The superior court reasonably
determined that much of the “new” evidence in the
affidavits that Raulerson presented was cumulative.
That is, the evidence Raulerson presented “tells a more
detailed version of the same story told at trial,” which
covered Raulerson’s limited intelligence and troubled
childhood. Holsey, 694 F.3d at 1260. And the evidence
was of questionable mitigating value because it could
have led to a damaging rebuttal. See Cullen, 563 U.S. at
201, 131 S. Ct. 1388. If counsel had introduced additional
testimony about Raulerson’s relationship with his
daughter to make him seem more sympathetic, such
testimony could have opened the door to testimony
about how Raulerson abused his ex-wife. And additional
evidence about Raulerson’s family and his own
substance abuse might have led the jury to conclude that
he “was simply beyond rehabilitation,” so that evidence

20a
is “by no means clearly mitigating.” Id. The superior
court reasonably discounted this evidence as cumulative
and of questionable value.
B. The Superior Court’s Determination that the
Georgia Burden of Proof for Intellectual Disability
Does Not Violate the Due Process Clause Was Not an
Unreasonable Application of Clearly Established
Federal Law.
We divide in two parts our discussion of Raulerson’s
argument that the Georgia requirement that he prove
his intellectual disability beyond a reasonable doubt
violates the Due Process Clause of the Fourteenth
Amendment. First, we explain that the superior court
adjudicated his due-process claim on the merits, so we
apply the deferential framework imposed by section
2254(d)(1). Second, we explain that the superior court’s
rejection of his due-process claim was not an
unreasonable application of clearly established federal
law.
1. The Superior Court Rejected Raulerson’s DueProcess Claim on the Merits, so We Apply the
Deferential Framework of Section 2254(d)(1).
Raulerson argues that we should review de novo his
due-process claim because the superior court never
adjudicated it on the merits. According to Raulerson, the
superior court concluded that the Supreme Court of
Georgia had rejected the claim on direct appeal and so
dismissed his due-process claim based only on res
judicata. Raulerson argues that the court erred in
applying res judicata because the due-process claim he
now brings on collateral review is based on federal law

21a
but his claim on direct appeal—which the Supreme
Court of Georgia rejected—was based on Georgia law.
Based on that asserted error, Raulerson argues that no
state court adjudicated his federal due-process claim on
the merits, which would, if correct, subject his claim to
de novo review. See Cone v. Bell, 556 U.S. 449, 466, 472,
129 S. Ct. 1769, 173 L. Ed. 2d 701 (2009).
When we consider the superior court’s order denying
Raulerson’s petition in full, we have no trouble
concluding that it rejected his federal due-process claim
on the merits. “[A] decision that does not rest on
procedural grounds alone is an adjudication on the
merits regardless of the form in which it is expressed.”
Wright v. Sec’y for Dep’t of Corr., 278 F.3d 1245, 1255–56
(11th Cir. 2002). To be sure, the court addressed
Raulerson’s due-process claim within a section of its
opinion titled “Claims that are Res Judicata.” And it
referenced the Supreme Court of Georgia’s denial of that
claim on direct appeal. So we agree with Raulerson that
the superior court dismissed his claim in part because of
res judicata. But it did not dismiss the claim only
because of res judicata.
The court alternatively decided the merits of
Raulerson’s claim. It rejected Raulerson’s argument
that the Supreme Court’s decision in Atkins v. Virginia,
536 U.S. 304, 122 S. Ct. 2242, 153 L. Ed. 2d 335 (2002),
established that Georgia’s burden of proof for
intellectual disability was unconstitutional. And it found
Head v. Hill, 277 Ga. 255, 587 S.E.2d 613, 621 (2003)—in
which the Supreme Court of Georgia held that its burden
of proof did not violate “federal constitutional law”—
“controlling.” Both of these decisions postdate the

22a
rejection of Raulerson’s due-process claim on direct
appeal, so the superior court’s reference to them
establishes that it alternatively rejected Raulerson’s
federal due-process claim on the merits. Under Georgia
law, this alternative holding is binding. See World
Harvest Church, Inc. v. GuideOne Mut. Ins. Co., 586
F.3d 950, 958 (11th Cir. 2009) (explaining that Georgia
courts consider alternative holdings binding); QOS
Networks Ltd. v. Warburg, Pincus & Co., 294 Ga. App.
528, 669 S.E.2d 536, 541 (2008) (“Where a case presents
two or more points, any one of which is sufficient to
determine the ultimate issue, but the court actually
decides all such points, the case is an authoritative
precedent as to every point decided, and none of such
points can be regarded as having merely the status of a
dictum.” (citation omitted)).
We join our sister circuits in holding that a state
court’s alternative holding is an adjudication on the
merits. See Rolan v. Coleman, 680 F.3d 311, 319–21 (3d
Cir. 2012) (“[W]here a state court has considered the
merits of the claim, and its consideration provides an
alternative and sufficient basis for the decision, such
consideration warrants deference.”); Sharpe v. Bell, 593
F.3d 372, 382 (4th Cir. 2010) (“[A] state court’s
alternative holding on the merits of a constitutional
claim qualifies for deference under Section 2254(d).”);
Brooks v. Bagley, 513 F.3d 618, 624 (6th Cir. 2008)
(same). Because the superior court adjudicated the
merits of Raulerson’s due-process claim, we must review
the denial of that claim under the deferential framework
set forth in section 2254(d)(1).

23a
2. The Superior Court’s Rejection of Raulerson’s DueProcess Claim Was Not an Unreasonable Application of
Clearly Established Federal Law.
Raulerson argues that, even under the deferential
framework of section 2254(d)(1), the superior court’s
rejection of his due-process claim was an unreasonable
application of clearly established federal law. According
to Raulerson, the Supreme Court’s holdings in Atkins
and Cooper clearly establish that the application of
Georgia’s beyond-a-reasonable-doubt standard to his
claim of intellectual disability violated his right to due
process under the Fourteenth Amendment by failing to
protect his Eighth Amendment right not to be executed
if intellectually disabled. Because neither Atkins nor
Cooper so held, this argument fails.
Raulerson first relies on Atkins, but that decision did
not address the burden of proof to prove intellectual
disability, much less clearly establish that a state may
not require a defendant to prove his intellectual
disability beyond a reasonable doubt. In Atkins, the
Supreme Court held that the execution of the
intellectually disabled violates the Eighth Amendment.
See 536 U.S. at 321, 122 S. Ct. 2242. But as we have
explained, “the Supreme Court in Atkins made no
reference to, much less reached a holding on, the burden
of proof.” See Hill v. Humphrey, 662 F.3d 1335, 1347
(11th Cir. 2011) (en banc). To the contrary, the Supreme
Court expressly “le[ft] to the States the task of
developing appropriate ways” to identify intellectual
disability. Atkins, 536 U.S. at 317, 122 S. Ct. 2242
(alterations adopted) (quoting Ford v. Wainwright, 477
U.S. 399, 405, 416–17, 106 S. Ct. 2595, 91 L. Ed. 2d 335

24a
(1986)). So “Atkins established only a substantive
Eighth Amendment right for the mentally retarded” and
established no “minimum procedural due process
requirements for bringing that Eighth Amendment
claim.” Hill v. Humphrey, 662 F.3d at 1360; see also
Bobby v. Bies, 556 U.S. 825, 831, 129 S. Ct. 2145, 173 L.
Ed. 2d 1173 (2009) (explaining that Atkins “did not
provide definitive procedural or substantive guides for
determining when a person” is intellectually disabled).
And we cannot “import a procedural burden of proof
requirement” that the Supreme Court declined to adopt
in our review of a habeas petition. Hill v. Humphrey, 662
F.3d at 1360.
Raulerson contends that the Court clearly
established a procedural limitation on the burden of
proof “by invoking Ford,” see Atkins, 536 U.S. at 317,
122 S. Ct. 2242, but that argument reads too much into a
lone citation to Ford. In Ford, the Supreme Court, in
Justice Powell’s controlling concurrence, held that
prisoners who made a substantial threshold showing of
incompetence to be executed were entitled to a hearing
on that claim. 477 U.S. at 426, 106 S. Ct. 2595 (Powell, J.,
concurring in part and in the judgment). “The citation in
Atkins, however, not only was not to that portion of
Ford, it was not even to Justice Powell’s opinion in
Ford.” Brumfield, 135 S. Ct. at 2294 (Thomas, J.,
dissenting). And neither the plurality opinion in Ford
nor Justice Powell’s concurring opinion even mentioned
the burden of proof for claims of incompetence. So
Atkins’s citation to Ford cannot clearly establish a
procedural limitation on the burden of proof for
intellectual disabilities.

25a
Acknowledging that Atkins expressly left
procedural rules to the states, Raulerson next argues
that considering Atkins in conjunction with Cooper
yields clearly established minimum procedural
requirements to prove intellectual disability, but even
the combination of these decisions does not suffice. In
Cooper, the Supreme Court addressed whether an
Oklahoma law that required a defendant to prove his
incompetence to stand trial by clear and convincing
evidence violated the Due Process Clause. To resolve
that issue, the Court applied the general due-process
standard first articulated in Patterson v. New York, 432
U.S. 197, 202, 97 S. Ct. 2319, 53 L. Ed. 2d 281 (1977)—
whether the criminal procedural rule “offends a principle
of justice that is [so] deeply rooted in the traditions and
conscience of our people” as to be considered
fundamental. Cooper, 517 U.S. at 362, 116 S. Ct. 1373
(citation and internal quotation marks omitted). The
Court had already held that requiring a defendant to
prove his incompetence by a preponderance of the
evidence did not violate this standard. See Medina v.
California, 505 U.S. 437, 453, 112 S. Ct. 2572, 120 L. Ed.
2d 353 (1992). But contrasting the longstanding right not
to be tried if incompetent with the lack of historical
support for Oklahoma’s clear-and-convincing standard,
the Court concluded that the heightened standard
offended a principle of justice deeply rooted in the
traditions and conscience of our people. Cooper, 517 U.S.
at 359–60, 362, 116 S. Ct. 1373.
Raulerson’s comparison between the right not to be
tried if incompetent and the right not to be executed if
intellectually disabled is misplaced. Unlike the right at

26a
issue in Cooper, which has deep roots in our common-law
heritage, there is no historical right of an intellectually
disabled person not to be executed. See Hill v.
Humphrey, 662 F.3d at 1350. Indeed, as recently as 1989,
the Supreme Court refused to bar the execution of the
intellectually disabled. See Penry v. Lynaugh, 492 U.S.
302, 109 S. Ct. 2934, 106 L. Ed. 2d 256 (1989). Georgia’s
reasonable-doubt standard, enacted 30 years ago, was
“the first state statute prohibiting such executions.”
Atkins, 536 U.S. at 313–14, 122 S. Ct. 2242; see also Hill
v. Humphrey, 662 F.3d at 1350–51. “And since the
constitutional right itself is new, there is no historical
tradition regarding the burden of proof as to that right.”
Hill v. Humphrey, 662 F.3d at 1350.
In the light of these fundamental differences, Cooper
did not clearly establish that the application of Georgia’s
beyond-a-reasonable-doubt standard to Raulerson’s
claim of intellectual disability violated his right to due
process under the Fourteenth Amendment. To conclude
otherwise would require us to extend the Court’s
rationale from incompetence to intellectual disability.
That we cannot do. See White v. Woodall, 572 U.S. 415,
426, 134 S. Ct. 1697, 188 L. Ed. 2d 698 (2014) (“‘[I]f a
habeas court must extend a rationale before it can apply
to the facts at hand,’ then by definition the rationale was
not ‘clearly established at the time of the state-court
decision.’” (quoting Yarborough, 541 U.S. at 666, 124 S.
Ct. 2140)).
In the “controlling” decision the superior court
applied to reject Raulerson’s due-process claim on the
merits, the Supreme Court of Georgia reasoned that the
burden of proof required to prove the defense of insanity

27a
is “more closely analogous to the burden of proof
standard in Georgia’s mental retardation statute than is
the mental incompetency” burden. Hill v. Humphrey,
662 F.3d at 1350 (glossing Head v. Hill, 587 S.E.2d at
621–22). And the Supreme Court has rejected a dueprocess challenge to a state law that required a
defendant to prove his insanity beyond a reasonable
doubt. See Leland v. Oregon, 343 U.S. 790, 798–99, 72 S.
Ct. 1002, 96 L. Ed. 1302 (1952). We held in Hill v.
Humphrey that it was reasonable for the Supreme
Court of Georgia to conclude that the burden of proof for
intellectual disability is analogous to insanity, which
permits a beyond-a-reasonable-doubt standard. See 662
F.3d at 1350. Nothing the Supreme Court has said since
then changes that conclusion.
Our dissenting colleague’s contrary conclusion
disregards the nature of our inquiry. This Court cannot
“answer the due process question presented here” based
on how we would apply federal law. Dissenting Op. at
1011–12. We review only whether the superior court’s
decision was “contrary to, or involved an unreasonable
application of, clearly established [f]ederal law,” 28
U.S.C. § 2254(d)(1), which refers only to the holdings of
the Supreme Court’s decisions, see Yarborough, 541 U.S.
at 660–61, 124 S. Ct. 2140. Our dissenting colleague
infers that Cooper and Leland establish different
procedural
standards
for
constitutional
and
nonconstitutional rights respectively, see Dissenting Op.
at 1011–12, but neither decision so holds. And the
dissent’s inference of an unstated rationale underlying
their divergent outcomes does not amount to clearly
established federal law. See Yarborough, 541 U.S. at

28a
660–61, 124 S. Ct. 2140. Indeed, Leland did not even hold
that the right to present an insanity defense was not
constitutionally based, so this key premise of the
dissent’s argument that Head v. Hill transgressed
clearly established federal law is itself not clearly
established. In any event, although Cooper established a
procedural standard for one constitutional right—the
right not to be tried if incompetent—it does not follow
that Cooper clearly established a procedural standard
applicable to all constitutional rights. See Morrissey v.
Brewer, 408 U.S. 471, 481, 92 S. Ct. 2593, 33 L. Ed. 2d 484
(1972) (explaining that “due process is flexible and calls
for such procedural protections as the particular
situation demands”). Our dissenting colleague’s
extension of Cooper from the context of incompetency to
stand trial to the distinct context of ineligibility for the
death penalty because of intellectual disability is just
that—an extension—and section 2254(d)(1) neither
“require[s] state courts to extend [Supreme Court]
precedent [n]or license[s] federal courts to treat the
failure to do so as error.” Woodall, 572 U.S. at 426, 134
S. Ct. 1697.
No decision of the Supreme Court clearly establishes
that Georgia’s burden of proof for intellectual disability
violates the Due Process Clause. “If the standard of
proof Georgia has adopted for claims of [intellectual
disability] is to be declared unconstitutional, it must be
done by the Supreme Court in a direct appeal, in an
appeal from the decision of a state habeas court, or in an
original habeas proceeding filed in the Supreme Court.”
Hill v. Humphrey, 662 F.3d at 1361. Because the Court
has not done so, the superior court’s decision was not an

29a
unreasonable application of clearly established federal
law.
C. Raulerson Fails to Establish His Intellectual
Disability by Clear and Convincing Evidence.
Raulerson argues that he is “actually innocent” of the
death penalty because he is intellectually disabled, and
under Atkins, the execution of an intellectually disabled
person would violate the Eighth Amendment. This
argument needlessly blends the distinct concepts of
actual innocence and intellectual disability, but even
when we sift through each, Raulerson’s claim fails.
Considered as a freestanding claim of actual
innocence of the death penalty, Raulerson’s claim is a
nonstarter. To begin with, our precedent forecloses
habeas relief based on a prisoner’s assertion that he is
actually innocent of the crime of conviction “absent an
independent constitutional violation occurring in the
underlying state criminal proceeding.” See Brownlee v.
Haley, 306 F.3d 1043, 1065 (11th Cir. 2002) (citation and
internal quotation marks omitted); see also Cunningham
v. Dist. Att’y’s Office, 592 F.3d 1237, 1273 (11th Cir.
2010) (“[An] assertion of actual innocence, by itself, is not
enough.”); Jordan v. Sec’y, Dep’t of Corr., 485 F.3d 1351,
1356 (11th Cir. 2007). As we have explained, “[i]t is not
our role to make an independent determination of a
petitioner’s guilt or innocence based on evidence that
has emerged since the trial.” Brownlee, 306 F.3d at 1065.
And the Supreme Court has never held that a prisoner
is “entitled to habeas relief based on a freestanding claim
of actual innocence.” McQuiggin v. Perkins, 569 U.S. 383,
392, 133 S. Ct. 1924, 185 L. Ed.2d 1019 (2013).

30a
The prohibition on freestanding claims of actual
innocence in a habeas petition respects the nature of our
federal system: “Federal courts are not forums in which
to relitigate state trials.” Herrera v. Collins, 506 U.S.
390, 401, 113 S. Ct. 853, 122 L. Ed. 2d 203 (1993) (quoting
Barefoot v. Estelle, 463 U.S. 880, 887, 103 S. Ct. 3383, 77
L. Ed. 2d 1090 (1983)). When reviewing a habeas
petition, we “sit to ensure that individuals are not
imprisoned in violation of the Constitution—not to
correct errors of fact.” Id. at 400, 113 S. Ct. 853. And
“[f]ew rulings would be more disruptive of our federal
system than to provide for federal habeas review of
freestanding claims of actual innocence.” Id. at 401, 113
S. Ct. 853.
To be sure, a prisoner may assert actual innocence to
overcome a procedural bar that would otherwise
prevent a federal court from hearing his claim on the
merits. See Sawyer v. Whitley, 505 U.S. 333, 338–39, 112
S. Ct. 2514, 120 L. Ed. 2d 269 (1992); see also Herrera,
506 U.S. at 404, 113 S. Ct. 853. But that way of escaping
a procedural bar concerns “factual innocence, not mere
legal insufficiency.” McKay v. United States, 657 F.3d
1190, 1197 (11th Cir. 2011). And even when the Supreme
Court has “assume[d] for the sake of argument”—but
without
deciding—that
“a
truly
persuasive
demonstration of ‘actual innocence’ [as a freestanding
claim] ... would render the execution of a defendant
unconstitutional,” it meant actual innocence of the crime.
Herrera, 506 U.S. at 417, 113 S. Ct. 853. Raulerson
neither raises actual innocence to overcome a procedural
bar nor argues that he is actually innocent of the
murders for which he was convicted.

31a
Although Raulerson frames his claim as one of actual
innocence, it rests on the notion that he is “actually
innocent” of the death penalty because he is
intellectually disabled and so his execution would violate
the Eighth Amendment—that is, in essence, an Atkins
claim. See Atkins, 536 U.S. at 321, 122 S. Ct. 2242. A
claim of a federal constitutional violation, in contrast
with a freestanding claim of actual innocence, is a ground
for federal habeas relief. See Herrera, 506 U.S. at 400,
113 S. Ct. 853 (“Claims of actual innocence based on
newly discovered evidence have never been held to state
a ground for federal habeas relief absent an independent
constitutional violation occurring in the underlying state
criminal proceeding.” (emphasis added)). So Raulerson
may pursue his claim not because of actual innocence but
because he argues that his execution would violate the
Constitution. We put aside Raulerson’s misplaced
“actual innocence” rhetoric and consider his argument as
an Atkins claim. But even when we give Raulerson’s
Atkins claim the benefit of every doubt, it fails.
We begin by making two assumptions that favor
Raulerson. First, although the parties dispute whether
Raulerson exhausted this Atkins claim, we will assume
that he did. Second, we will assume that Raulerson’s
Atkins claim has not been “adjudicated on the merits” by
any Georgia court, so we will not apply the deferential
standard of section 2254(d), which would require us to
deny relief unless the rejection of Raulerson’s Atkins
claim was unreasonable “in the light of the evidence
presented in the State court proceeding.” 28 U.S.C.
§ 2254(d)(2); see also Cullen, 563 U.S. at 181, 131 S. Ct.
1388 (“[R]eview under § 2254(d)(1) [also] is limited to the

32a
record that was before the state court that adjudicated
the claim on the merits.”).
The superior court rejected Raulerson’s Atkins claim
on the ground of res judicata, which is not an
adjudication on the merits for our purposes. See Cone,
556 U.S. at 466, 472, 129 S. Ct. 1769. And the Supreme
Court of Georgia’s denial of a certificate of probable
cause presumably rested on the same ground. See
Wilson, 138 S. Ct. at 1192. So, if Raulerson’s Atkins claim
was ever adjudicated on the merits, it must have been
when the jury rejected his defense of intellectual
disability or when the Supreme Court of Georgia
affirmed the jury verdict. That Raulerson’s Atkins claim
was adjudicated by the jury and on direct appeal is a
plausible interpretation but is in some tension with the
longstanding principle that a “claim” in habeas consists
of a “particular legal basis” wedded to a “specific factual
foundation.” McNair v. Campbell, 416 F.3d 1291, 1302
(11th Cir. 2005) (emphases added) (quoting Kelley v.
Sec’y for Dep’t of Corr., 377 F.3d 1317, 1344–45 (11th Cir.
2004)). In the context of exhaustion, “it is not at all clear
that a petitioner can exhaust a federal claim by raising
an analogous state claim,” even if the federal and state
rights are identical in content. Preston v. Sec’y, Fla.
Dep’t of Corr., 785 F.3d 449, 460 (11th Cir. 2015).
By the same token, it is not immediately obvious that
Raulerson’s jury or the Supreme Court of Georgia
decided Raulerson’s Atkins claim—which is based on his
right not to be executed if intellectually disabled under
the federal Constitution—when they rejected his statelaw defense of intellectual disability. When Raulerson
was tried, he had a right not to be executed if

33a
intellectually disabled under Georgia law, but the
Supreme Court had not yet decided Atkins, which
acknowledged a corresponding federal right. So we will
give Raulerson the benefit of this doubt and assume
without deciding that his Atkins claim has never been
adjudicated on the merits.
Even if Raulerson escapes the gauntlet of section
2254(d) because no state court adjudicated his claim
based on Atkins, there was a determination of the
factual issue of his intellectual disability, and we must
presume correct “a determination of a factual issue made
by a State court.” 28 U.S.C. § 2254(e)(1). Whether a
person is intellectually disabled is a factual issue. Fults
v. GDCP Warden, 764 F.3d 1311, 1319 (11th Cir. 2014).
The jury determined that issue against Raulerson when
it rejected his defense of intellectual disability. See
Restatement (Second) of Judgments § 27 cmt. d (Am.
Law Inst. 1982) (“A determination may be based on a
failure of ... proof as well as on the sustaining of the
burden of proof.”). And the Supreme Court of Georgia
held that the jury verdict was rational. Raulerson, 491
S.E.2d at 796. Because the state courts determined that
Raulerson is not intellectually disabled and that
determination is entitled to be presumed correct, he
bears “the burden of rebutting the presumption of
correctness by clear and convincing evidence.” 28 U.S.C.
§ 2254(e)(1).
The precise scope of the “determination of [the]
factual issue” which Raulerson must rebut is not
immediately obvious. The most generous interpretation
of section 2254(e)(1) is that it provides the primary
standard of proof whenever a state prisoner desires to

34a
prove a factual issue that was determined against him in
state court. If so, then a state prisoner may establish
that a state court’s factual determination was incorrect
by proving the contrary proposition—in Raulerson’s
case, that he is intellectually disabled—by clear and
convincing evidence as if in the first instance.
But section 2254(e)(1) could also be understood to
establish, not a primary standard of proof, but a
secondary standard of persuasion that operates in
tandem with the original standard of proof applied by
the state court. If so, then a state prisoner must prove
by clear and convincing evidence that a state court’s
factual determination was incorrect in the light of the
standard of proof that state law applies to that issue. See
Maldonado v. Thaler, 625 F.3d 229, 236, 241 (5th Cir.
2010) (applying section 2254(e)(1) to a claim of
intellectual disability, explaining that the petitioner
“bears the burden of establishing by a preponderance of
the evidence that he is mentally retarded”—the Texas
burden of proof for intellectual disability—and finding
that the petitioner “did not rebut the [section 2254(e)(1)]
presumption of correctness that attaches to the state
habeas court’s conclusion that [he] did not meet his
[state-law] burden”); cf. Tharpe v. Warden, 834 F.3d
1323, 1344–47 (11th Cir. 2016). In other words, it may be
that the state’s burden of proof is incorporated into the
determination that the prisoner must rebut by clear and
convincing evidence. On this interpretation, Raulerson
must rebut—by clear and convincing evidence—the
determination that it is not beyond a reasonable doubt
that he is intellectually disabled.

35a
Such compound standards are far from unusual in
federal habeas review of state-court proceedings. See,
e.g., 28 U.S.C. § 2254(e)(2)(B) (To obtain an evidentiary
hearing in federal court, the petitioner must show that
“the facts underlying the claim would be sufficient to
establish by clear and convincing evidence that but for
constitutional error, no reasonable factfinder would have
found the applicant guilty of the underlying offense.”);
Sawyer, 505 U.S. at 336, 112 S. Ct. 2514 (“[T]o show
‘actual innocence’ one must show by clear and convincing
evidence that, but for a constitutional error, no
reasonable juror would have found the petitioner eligible
for the death penalty under the applicable state law.”);
Tharpe, 834 F.3d at 1345 (When section 2254(d) applies
to a Georgia court’s rejection of an Atkins claim, “the
heart of the matter” is “whether [the state court]
unreasonably concluded that [the petitioner] had failed
to prove beyond a reasonable doubt that” he is
intellectually disabled. (emphases added)). By contrast,
the more lenient interpretation would be unusual; even
with a demanding standard of proof, permission for state
prisoners to relitigate already-decided factual issues as
if in the first instance would be a surprising departure
from the structure and objectives of the Antiterrorism
and Effective Death Penalty Act. But, because the
outcome of this appeal does not depend on the answer,
we assume without deciding that the more lenient
interpretation is correct.
To recap, we have now made three important
assumptions in Raulerson’s favor. We have assumed his
Atkins claim is exhausted. We have also assumed that it
was not adjudicated on the merits, so the rigorous

36a
standards of section 2254(d) do not apply. And we have
assumed that section 2254(e)(1) permits him to prove
that he is intellectually disabled—and ineligible for the
death penalty—by providing clear and convincing
evidence to a federal court in the first instance. In
practice, this amounts to the assumption that a state
prisoner may prove the factual predicate of an Atkins
claim in federal court with clear and convincing evidence
even when the state in which he was convicted and
sentenced imposes a more demanding burden of proof
for precisely the same factual issue—a particularly
generous assumption in the light of the Atkins Court’s
express decision to “leave to the States the task of
developing appropriate ways to enforce [Atkins’s]
constitutional restriction.” Atkins, 536 U.S. at 317, 122 S.
Ct. 2242 (alteration adopted) (quoting Ford, 477 U.S. at
416, 106 S. Ct. 2595).
Even with these assumptions in his favor, Raulerson
is not entitled to relief based on his Atkins claim because
the record does not clearly and convincingly prove that
he is intellectually disabled. The clear-and-convincingevidence standard, although not “insatiable,” is still
“demanding.” Miller-El v. Dretke, 545 U.S. 231, 240, 125
S. Ct. 2317, 162 L. Ed. 2d 196 (2005). We have explained
that it “calls for proof that a claim is ‘highly probable.’”
Fults, 764 F.3d at 1314 (alterations adopted) (quoting
United States v. Owens, 854 F.2d 432, 436 (11th Cir.
1988)). To succeed on his claim, Raulerson must provide
clear and convincing evidence of the three components
of Georgia’s definition of “intellectual disability”:
“significantly
subaverage
general
intellectual
functioning”; “resulting in or associated with

37a
impairments in adaptive behavior”; “which manifested
during the developmental period.” O.C.G.A. § 17-7131(a)(2); see also Moore v. Texas, ––– U.S. ––––, 137 S.
Ct. 1039, 1045, 197 L. Ed. 2d 416 (2017) (explaining the
“generally accepted, uncontroversial intellectualdisability diagnostic definition,” which Georgia’s
definition matches). Considering the evidence presented
at trial and in the habeas proceedings, Raulerson failed
to prove that it is “highly probable” that he is
intellectually disabled.
Raulerson’s IQ scores that he received as a child
undermine that he had “significantly subaverage
general intellectual functioning,” which is generally
defined as an IQ between 70 and 75 or below. Ledford v.
Warden, Ga. Diagnostic & Classification Prison, 818 F.3d
600, 633 (11th Cir. 2016). At trial, the evidence proved
that Raulerson had received two IQ scores as a child that
were above the range of intellectual disability. When
Raulerson was eleven years old, he received an IQ score
of 78. And when he was fourteen years old, he received
an IQ score of 83. Both scores refute that Raulerson had
subaverage intellectual functioning.
By applying two adjustments, the Flynn effect and
the standard error of measurement, Dr. Grant testified
that Raulerson’s IQ scores could be as low as 70 and 74.
But neither adjustment provides clear and convincing
evidence of his subaverage intellectual functioning. No
adjustment for the Flynn effect is required in this
Circuit. Id. at 635–37. Because “IQ tests are scored on a
scale that is relative to the population” when the test is
developed, the Flynn effect adjusts for the empirical
observation that IQ scores are rising over time.

38a
McManus v. Neal, 779 F.3d 634, 652 (7th Cir. 2015). But
as we have acknowledged, there is no consensus about
the Flynn effect among experts or among the courts.
Ledford, 818 F.3d at 635–37 (explaining the divergent
approaches to the Flynn effect taken by our sister
circuits); Thomas v. Allen, 607 F.3d 749, 758 (11th Cir.
2010) (“[T]here is no uniform consensus regarding the
application of the Flynn effect in determining a capital
offender’s intellectual functioning ....”). Although Dr.
Grant testified that the Flynn effect should be applied to
lower Raulerson’s IQ scores, the two psychologists who
had administered Raulerson’s IQ tests disagreed and
testified that they would not apply the Flynn effect to
the scores.
Adjusting Raulerson’s scores for the standard error
of measurement puts him closer to the range of
intellectual disability, but that standard is a “bidirectional concept.” Ledford, 818 F.3d at 641. “The
standard error of measurement accounts for a margin of
error both below and above the IQ test-taker’s score.”
Id. at 640 (emphasis added). While Dr. Grant applied a
standard error of measurement of five or six points to
lower Raulerson’s IQ scores, the standard also raises his
range of scores. For example, while a six-point standard
error of measurement might mean Raulerson’s score of
83 could reflect an IQ as low as 77, it could also reflect
one as high as 89. With Dr. Grant’s standard error of
measurement, Raulerson had IQ ranges of 77–89 and 73–
83, which both fall above and dip into the threshold of
intellectual disability. And the standard error of
measurement “does not carry with it a presumption that
an individual’s IQ falls to the bottom of his IQ range.” Id.

39a
at 641. Even adjusting Raulerson’s scores both for the
Flynn effect and the standard error of measurement
does not make it highly probable that he had subaverage
intellectual functioning. As Dr. Lower testified in state
habeas proceedings, although Raulerson’s adjusted
scores could put him in the intellectually disabled range,
it “is a very small likelihood” because his scores are
“pretty, pretty well above the range.”
To be sure, Raulerson received an IQ score within
the range of intellectual disability when he was tested
after committing the murders. Both Dr. Grant and Dr.
Lower tested him and scored him at an IQ of 69. But Dr.
Lower also explained several reasons why he felt that
Raulerson “was not probably motivated to do his best on
[the tests],” including that “it was not to his advantage
to do too well” because he stood charged of three capital
offenses. In the light of two IQ scores comfortably above
the range of intellectual disability that Raulerson
received as a child, his later IQ score below the range
does not clearly and convincingly prove he has
“significantly
subaverage
general
intellectual
functioning.”
Raulerson also has not established that it is highly
probable he had an intellectual disability “which
manifested during the developmental period.” The
“developmental period” refers to a disability that
originated before the age of 18. Ledford, 818 F.3d at 635.
Raulerson’s claim of intellectual disability rests on Dr.
Lower reevaluating his testimony about whether
Raulerson was intellectually disabled, but Lower never
changed his mind as to whether Raulerson had an
intellectual disability that onset during the

40a
developmental period. At trial, when asked whether
there was any “convincing demonstration” that
Raulerson was diagnosed with an intellectual disability
before age 18, Lower answered, “Absolutely none
whatever.” At the hearing before the superior court on
collateral review, Lower still questioned whether
Raulerson had an intellectual disability onset before age
18, stating that the evidence of onset was “not real
strong.” And Lower explained that there was “no way to
determine” when Raulerson “sunk” into the range for
intellectual disability. Considering the IQ scores that
Raulerson received as a child, Lower also testified that
Raulerson’s scores were “pretty well above the range”
for intellectual disability. Ultimately, Lower still could
not conclude that Raulerson was intellectually disabled.
In the light of Lower’s testimony, Raulerson has not
established by clear and convincing evidence that he had
an intellectual disability that onset during the
developmental period.
The record does not prove that Raulerson’s claim of
intellectual disability is “highly probable.” So he has not
rebutted the presumption that the state courts’ contrary
determination was correct, and he is not entitled to
federal habeas relief based on Atkins.
IV. CONCLUSION
We AFFIRM the denial of Raulerson’s petition for a
writ of habeas corpus.

41a
JORDAN, Circuit Judge, concurring in part and
dissenting in part:
“[B]urdens of proof can be outcome-determinative in
the face of ignorance[.]”*
The Eighth Amendment prohibits a state from
executing a defendant who is intellectually disabled. See
Atkins v. Virginia, 536 U.S. 304, 321, 122 S. Ct. 2242, 153
L. Ed. 2d 335 (2002). In my view, the Georgia statute
requiring capital defendants to prove intellectual
disability beyond a reasonable doubt, see O.C.G.A. § 177-131(c)(3), violates the Due Process Clause of the
Fourteenth Amendment. That burden of proof creates
an intolerable risk that intellectually disabled
defendants will be put to death. Indeed, in the last 30
years not a single capital defendant in Georgia has been
able to establish intellectual disability when the matter
has been disputed. With respect, I dissent from the
majority’s contrary holding.1
I
Where a criminal proceeding does not implicate an
underlying constitutional right, the Due Process Clause
generally allows a state to decide the appropriate
allocation and burden of proof. Take, for example, the
* Ronald J. Allen, How Presumptions Should Be Allocated—

Burdens of Proof, Uncertainty, and Ambiguity in Modern Legal
Discourse, 17 Harv. J. L. & Pub. Pol’y 627, 639 (1994).
1 I concur in Parts I, II, and III.A. of the majority opinion. Because
I believe that Georgia’s beyond-a-reasonable-doubt standard is
unconstitutional, I would remand Mr. Raulerson’s substantive
intellectual disability claim to the district court for an evidentiary
hearing under the preponderance-of-the-evidence standard.

42a
affirmative defense of insanity. When a defendant
invokes insanity as a defense to criminal liability, a state
may require him to prove that he was insane beyond a
reasonable doubt. See Leland v. Oregon, 343 U.S. 790,
799–800, 72 S. Ct. 1002, 96 L. Ed. 1302 (1952). But that is
because insanity is not a defense born of the
Constitution. Indeed, the Supreme Court has never held
that the Constitution requires states “to recognize the
insanity defense.” Medina v. California, 505 U.S. 437,
449, 112 S. Ct. 2572, 120 L. Ed. 2d 353 (1992). See also
Alex Stein, Constitutional Evidence Law, 61 Vand. L.
Rev. 65, 80 (2008) (“Because states and Congress may
choose not to recognize [certain affirmative] defenses,
they are allowed to condition the availability of any such
defense on its proof by the defendant. Consequently,
lawmakers can require defendants to establish any
affirmative defense by preponderance of the evidence,
by clear and convincing proof, or even beyond a
reasonable doubt.”).
Constitutionally-based rights stand on a different
footing. Competency, for example, provides a good
contrast to the affirmative defense of insanity. A state
cannot constitutionally try and convict a defendant who
is incompetent. See, e.g., Drope v. Missouri, 420 U.S. 162,
171–72, 95 S. Ct. 896, 43 L. Ed. 2d 103 (1975); Pate v.
Robinson, 383 U.S. 375, 378, 86 S. Ct. 836, 15 L. Ed. 2d
815 (1966). Accordingly, the Supreme Court has held
that although a state can require a defendant to prove
lack of competency by preponderance of the evidence, it
cannot, based on “traditional and modern practice and
the importance of the constitutional interest at stake,”
demand clear and convincing evidence. Compare

43a
Medina, 505 U.S. at 453, 112 S. Ct. 2572 (allowing the use
of the preponderance-of-the-evidence standard), with
Cooper v. Oklahoma, 517 U.S. 348, 356, 369, 116 S. Ct.
1373, 134 L. Ed. 2d 498 (1996) (prohibiting the use of the
clear-and-convincing standard).
Intellectual disability, as noted, presents a
constitutionally-based restriction on a state’s ability to
carry out the death penalty. See Atkins, 536 U.S. at 321,
122 S. Ct. 2242. Georgia’s placing of a beyond-areasonable-doubt burden on capital defendants
asserting intellectual disability therefore violates the
Due Process Clause, and the decisions of the state
superior court and the Georgia Supreme Court holding
otherwise are contrary to Cooper, which constitutes
clearly established Supreme Court precedent. See 28
U.S.C. § 2254(d)(1).
A
In Hill v. Humphrey, 662 F.3d 1335, 1338 (11th Cir.
2011) (en banc), a habeas corpus case decided under the
deferential AEDPA framework, we held by a 7-4 vote
that a Georgia Supreme Court decision upholding § 177-131(c)(3)’s
beyond-a-reasonable-doubt
standard
against an Eighth Amendment challenge was not
contrary to, or an unreasonable application of, clearly
established Supreme Court precedent. Hill is not
controlling here because Mr. Raulerson is challenging
the beyond-a-reasonable-doubt standard under the Due
Process Clause, and not the Eighth Amendment. See id.
at 1363–64 (Tjoflat, J., concurring in the judgment)
(explaining that the petitioner in Hill should have, but
did not, assert a due process claim).

44a
Prior to our decision in Hill, the Georgia Supreme
Court held, by a 4-3 vote, in Head v. Hill, 277 Ga. 255, 587
S.E.2d 613, 620–22 (2003), that Georgia’s beyond-areasonable-doubt standard did not violate the Due
Process Clause. In this case, the state superior court
relied on the opinion in Head to reject Mr. Raulerson’s
due process claim. See R31-423.
In Head, the Georgia Supreme Court identified
Leland, 343 U.S. at 799–800, 72 S. Ct. 1002 (concerning
the non-constitutional affirmative defense of insanity),
as the governing Supreme Court precedent, and
expressly declined to apply the standard set forth in
Cooper, 517 U.S. at 356, 369, 116 S. Ct. 1373 (concerning
the constitutional matter of competency). See Head, 587
S.E.2d at 621 (“[W]e again find the comparison between
claims of insanity and of mental retardation to warrant a
conclusion that the beyond-a-reasonable-doubt standard
may be applied constitutionally to mental retardation
claims.”). This ruling, followed by the state superior
court here, is “contrary to” established Supreme Court
precedent—i.e., Cooper—under § 2254(d)(1) and is
therefore not entitled to AEDPA deference.
A state court decision comes within the “contrary to”
clause of § 2254(d)(1) if it applies a “rule that contradicts
the governing law set forth in [Supreme Court] cases.”
Williams v. Taylor, 529 U.S. 362, 405, 120 S. Ct. 1495, 146
L. Ed. 2d 389 (2000). See also id. at 406, 120 S. Ct. 1495
(explaining that if a state court, in a case involving a
claim of ineffective assistance of counsel, applies a
standard different than the one set forth in Strickland v.
Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d
674 (1984), the “contrary to” standard is satisfied); id. at

45a
397–98, 120 S. Ct. 1495 (holding that a state court’s
decision was “contrary to” clearly established precedent
because it did not correctly apply the prejudice standard
of Strickland). If, on the other hand, a state court
correctly identifies the governing Supreme Court cases
in the relevant area of law and applies the standard from
those cases, its decision will not be “contrary to” clearly
established Supreme Court law. See Bell v. Cone, 535
U.S. 685, 694, 122 S. Ct. 1843, 152 L. Ed. 2d 914 (2002).
The Supreme Court has consistently confirmed this
interpretation of the “contrary to” clause, and so have
we. See White v. Woodall, 572 U.S. 415, 420, 134 S. Ct.
1697, 188 L. Ed. 2d 698 (2014); Lafler v. Cooper, 566 U.S.
156, 173, 132 S. Ct. 1376, 182 L. Ed. 2d 398 (2012); Trepal
v. Sec’y, Fla. Dep’t of Corr., 684 F.3d 1088, 1109 (11th
Cir. 2012). Accord Randy Hertz & James S. Liebman,
Federal Habeas Corpus Practice and Procedure § 32.3 at
1908–10 (7th ed. 2018).
Contrary to what Head concluded, Leland is not the
governing Supreme Court precedent for addressing the
limits on determining and allocating the burden of proof
when a constitutional right is at stake. Insanity, the
affirmative defense at issue in Leland, is not and has
never been constitutionally based. See Medina, 505 U.S.
at 449, 112 S. Ct. 2572. So the deference given to the
states in Leland to determine and allocate the burden of
proof for an insanity defense to criminal liability is not
appropriate in a case involving a constitutionallyprotected right. Indeed, the Supreme Court noted in
Leland that the defendant there did not “s[eek] to
enforce against the states a right which we have held to
be secured to defendants in federal courts by the Bill of

46a
Rights.” Leland, 343 U.S. at 798, 72 S. Ct. 1002. See also
Hill, 662 F.3d at 1383 (Martin, J., dissenting) (“There is
a critical distinction between the Due Process required
to protect substantive rights derived from the United
States Constitution on the one hand [in Cooper] and
state created rights on the other [in Leland.]”) (citation
omitted).
Where a fundamental constitutional right is
involved—and the Eighth Amendment right of an
intellectually-disabled defendant not to be executed is
such a right—Cooper provides the governing precedent
under the Due Process Clause. The Supreme Court in
Cooper in fact distinguished cases, like Patterson v. New
York, 432 U.S. 197, 201–02, 97 S. Ct. 2319, 53 L. Ed. 2d
281 (1977), involving the determination and allocation of
the burden of proof for state-created defenses. See
Cooper, 517 U.S. at 367–68, 116 S. Ct. 1373 (“[U]nlike
Patterson, which concerned procedures for proving a
statutory defense [i.e., extreme emotional disturbance],
we consider here whether a State’s procedures for
guaranteeing a fundamental constitutional right are
sufficiently protective of that right.”).
To answer the due process question presented here,
Cooper requires a court to examine the relevant
common-law traditions of England and the United
States, contemporary practices, and the risks inherent
in Georgia’s practice of requiring capital defendants to
prove intellectual disability beyond a reasonable doubt.
See id. at 356–69, 116 S. Ct. 1373. This is why several
states have relied on Cooper to analyze their states’
procedures for determining intellectual disability. See,
e.g., Pennsylvania v. Sanchez, 614 Pa. 1, 36 A.3d 24, 70

47a
(2011); Pruitt v. State, 834 N.E.2d 90, 103 (Ind. 2005);
State v. Williams, 831 So. 2d 835, 859 (La. 2002); Murphy
v. State, 54 P.3d 556, 573 (Okla. Crim. App. 2002);
Morrow v. State, 928 So. 2d 315, 324 n.10 (Ala. Crim.
App. 2004). The Indiana Supreme Court, for example,
overturned its precedent requiring defendants to prove
intellectual disability by clear and convincing evidence.
See Pruitt, 834 N.E.2d at 103. That precedent had
disregarded Cooper because “execution of the
[intellectually disabled] had not yet been held to violate
the Federal Constitution.” Id. at 101. Once Atkins
established the constitutional nature of the right,
however, Cooper applied and barred the state from
requiring the defendant to prove his disability by clear
and convincing evidence. Id. at 101–03 (“The reasoning
of Cooper in finding a clear and convincing standard
unconstitutional as to incompetency is directly
applicable to the issue of mental retardation .... [T]he
implication of Atkins and Cooper is that the defendant’s
right not to be executed if mentally retarded outweighs
the state’s interest as a matter of federal constitutional
law.”).
Because the Georgia Supreme Court in Head did not
conduct the due process analysis required by Cooper, its
decision in that case (followed by the superior court
here) is not entitled to AEDPA deference. See Williams,
529 U.S. at 406, 120 S. Ct. 1495 (explaining that if a state
court applies an incorrect legal standard, “a federal court
will be unconstrained by § 2254(d)(1) because the state
court decision falls within that provision’s ‘contrary to’
clause”).

48a
B
Atkins tasked the states with “developing
appropriate ways to enforce the constitutional
restriction” on executing the intellectually disabled. See
Atkins, 536 U.S. at 317, 122 S. Ct. 2242. That task
includes establishing a standard of proof and
determining who bears the burden. But states do not
have unfettered authority to establish such procedures.
As in other areas of the law, “the state procedures must
be adequate to protect” the Eighth Amendment
prohibition against the execution of the intellectually
disabled. See Pate, 383 U.S. at 378, 86 S. Ct. 836. See also
Twining v. New Jersey, 211 U.S. 78, 102, 29 S. Ct. 14, 53
L. Ed. 97 (1908) (“The limit of the full control which the
state has in the proceedings of its courts, both in civil and
criminal cases, is subject only to the qualification that
such procedure must not work a denial of fundamental
rights.”); Bailey v. Alabama, 219 U.S. 219, 239, 31 S. Ct.
145, 55 L. Ed. 191 (1911) (“It is apparent that a
constitutional prohibition cannot be transgressed
indirectly by the creation of a [procedural rule] any more
than it can be violated by direct enactment.”).
The burden of proof plays a critical role in our
adversarial system because it often drives the result. “In
all kinds of litigation it is plain that where the burden of
proof lies may be decisive of the outcome .... There is
always in litigation a margin of error, representing error
in factfinding, which both parties must take into
account.” Speiser v. Randall, 357 U.S. 513, 525, 78 S. Ct.
1332, 2 L. Ed. 2d 1460 (1958). The burden of proof
“allocate[s] the risk of error between the litigants” and,
in so doing, “indicate[s] the relative importance attached

49a
to the ultimate decision.” Addington v. Texas, 441 U.S.
418, 423, 99 S. Ct. 1804, 60 L. Ed. 2d 323 (1979). This is
why we generally use the preponderance-of-theevidence standard in civil disputes, but demand that the
state prove the guilt of an accused defendant beyond a
reasonable doubt. See Grogan v. Garner, 498 U.S. 279,
286, 111 S. Ct. 654, 112 L. Ed. 2d 755 (1991) (“Because
the preponderance-of-the-evidence standard results in a
roughly equal allocation of the risk of error between
litigants, we presume that this standard is applicable in
civil actions between private litigants unless
‘particularly important individual interests or rights are
at stake.’”). Our society recognizes the “magnitude” of
the defendant’s interests in a criminal case and places a
high burden of proving guilt on the government “to
exclude as nearly as possible the likelihood of an
erroneous judgment.” Id. at 423–24, 99 S. Ct. 1804. See
also Cruzan v. Dir., Mo. Dep’t. of Health, 497 U.S. 261,
283, 110 S. Ct. 2841, 111 L. Ed. 2d 224 (1990) (noting that
the “more stringent the burden of proof a party must
bear, the more that party bears the risk of an erroneous
decision”).
In Cooper, 517 U.S. at 363, 116 S. Ct. 1373, the
Supreme Court reiterated that where a constitutional
right is at issue, a state may not place a heightened
burden on the defendant if doing so “imposes a
significant risk of an erroneous determination.” See also
Lockett v. Ohio, 438 U.S. 586, 604–05, 98 S. Ct. 2954, 57
L. Ed. 2d 973 (1978) (plurality opinion) (“[The]
qualitative difference between death and other penalties
calls for a greater degree of reliability when the death
sentence is imposed .... When the choice is between life

50a
and death, [a heightened risk of wrongful execution
created by a state statute] is unacceptable and
incompatible with the commands of the Eighth and
Fourteenth Amendments.”). The Court in Cooper
reversed the conviction of a capital defendant because
Oklahoma required him to prove his lack of competency
to stand trial by clear and convincing evidence. See id. at
350, 116 S. Ct. 1373. This burden “allocat[ed] to the
criminal defendant the large share of the risk which
accompanies a clear and convincing evidence standard”
and thus created an unconstitutional risk that the state
would “put to trial a defendant who is more likely than
not incompetent.” Id. at 365, 369, 116 S. Ct. 1373.
Oklahoma used this burden even though “the vast
majority of jurisdictions” thought the heightened
standard was “not necessary to vindicate the[ir] interest
in prompt and orderly disposition of criminal cases.” Id.
at 362, 116 S. Ct. 1373. Because the “consequences of an
erroneous determination of competence are dire,” the
Court held Oklahoma’s procedural rule to be
“incompatible with the dictates of due process.” Id. at
364, 369, 116 S. Ct. 1373.
Here the stakes are just as high, and the burden
Georgia places on capital defendants to prove
intellectual disability is even higher than the clear-andconvincing standard found unconstitutional in Cooper.
Georgia, I note, is also the only state to impose such a
burden of proof. See Head, 587 S.E.2d at 630 (Sears, J.,
dissenting) (“[Georgia] is now the only state that
requires condemned defendants to prove their
retardation beyond a reasonable doubt.”). Of the 25
states that retain and currently enforce the death

51a
penalty, 19 apply a preponderance-of-the-evidence
standard and only two apply a clear-and-convincing
standard. See generally Lauren S. Lucas, An Empirical
Assessment of Georgia’s Beyond a Reasonable Doubt
Standard to Determine Intellectual Disability in Capital
Cases, 33 Ga. St. U. L. Rev. 553, 560–61 (2017).2 “Not one
state has followed Georgia’s statutory scheme in
implementing the Atkins decision.” Id.
Moreover, several states have rejected a clear and
convincing standard because no state interest justified
the higher burden. See, e.g., Sanchez, 36 A.3d at 70
(“[W]e are persuaded that a different allocation or
standard of proof [than preponderance] are not
necessary to vindicate the constitutional right of
mentally retarded capital defendants recognized in
Atkins, or to secure Pennsylvania’s ‘interest in prompt
and orderly disposition of criminal cases.’”); Pruitt, 834
N.E.2d at 103 (“We do not deny that the state has an
important interest in seeking justice, but we think the
implication of Atkins and Cooper is that the defendant’s
right not to be executed if mentally retarded outweighs
the state’s interest as a matter of federal constitutional
2 Arizona and Florida currently apply a clear and convincing
standard. See Ariz. Rev. Stat. § 13-753 (2011); Fla. Stat. § 921.137
(2013). Although Colorado, Delaware, and Indiana passed statutes
requiring clear and convincing evidence for Atkins claims,
Delaware’s death penalty statute was struck down, Colorado no
longer enforces the death penalty, and the Indiana Supreme Court
has held that a clear-and-convincing standard was unconstitutional
under Atkins and Cooper. See Pruitt, 834 N.E.2d at 103. The
remaining states that retain and enforce the death penalty (Kansas,
Montana, and Wyoming) have not adopted a specific standard of
proof for Atkins claims.

52a
law. We therefore hold that the state may not require
proof of mental retardation by clear and convincing
evidence.”); Howell v. State, 151 S.W.3d 450, 465 (Tenn.
2004) (“[W]ere we to apply the statute’s ‘clear and
convincing’ standard in light of the newly declared
constitutional right against the execution of the mentally
retarded, the statute would be unconstitutional. ...
[Because] the risk to the petitioner of an erroneous
outcome is dire, as he would face the death penalty, while
the risk to the State is comparatively modest. ... The
balance, under these circumstances, weighs in favor of
the petitioner and justifies applying a preponderance of
evidence standard at the hearing.”); Williams, 831 So. 2d
at 859–60 (“Clearly, in the Atkins context, the State may
bear the consequences of an erroneous determination
that the defendant is mentally retarded (life
imprisonment at hard labor) far more readily than the
defendant of an erroneous determination that he is not
mentally retarded.”). Despite being the only state to
apply the beyond-a-reasonable-doubt standard, Georgia
has never explained how its uniquely high standard
furthers a legitimate state interest.3

3 In Head, the Georgia Supreme Court stated that the “higher
standard of proof serves to enforce the General Assembly’s chosen
definition of what degree of impairment qualifies as mentally
retarded under Georgia law for the purpose of fixing the
appropriate criminal penalty that persons of varying mental
impairment should bear for their capital crimes, in light of their
individual diminished personal culpabilities and the varying degrees
of deterrence possible.” 587 S.E.2d at 622 (quotations omitted and
alterations adopted). Georgia has not asserted such an interest in its
briefs, but even if it had, the explanation amounts to no justification
at all. The Georgia Supreme Court’s reasoning—that the standard

53a
C
Mr. Raulerson asserts that Georgia’s beyond-areasonable-doubt standard effectively permits the state
to do what the Eighth Amendment forbids—execute a
prisoner who is intellectually disabled. Concurring in the
judgment in Hill, Judge Tjoflat summarized the due
process argument against imposing the beyond-areasonable-doubt standard. I think he was prescient, and
got it exactly right:
Claims of mental retardation are incredibly factintensive and could devolve into a swearing
match between conflicting, and equally qualified,
experts. This swearing match could easily—if not
always—create reasonable doubt that the
defendant is not mentally retarded. By erecting
this higher burden, the State effectively put its
thumb on the scale against a defendant’s mentalretardation defense .... [T]he State’s unfair
thumb—the
beyond-a-reasonable-doubt
standard—deprive[s a defendant] of full and fair
post-conviction hearing, and he would be entitled
to an evidentiary hearing in federal court.
Hill, 662 F.3d at 1364 (Tjoflat, J., concurring in the
judgment).
Intellectual disability is an inherently imprecise and
partially subjective diagnosis. The generally accepted
definition of intellectual disability, which Georgia
of proof is high because the General Assembly defined intellectual
disability to require a high standard of proof—is tautological and
fails to identify a state interest that the burden of proof actually
serves.

54a
follows, requires three core elements: (1) an intellectualfunctioning deficit; (2) an impairment of adaptive
behavior (the “inability to learn basic skills and adjust
behavior to changing circumstances,” Hall v. Florida,
572 U.S. 701, 710, 134 S. Ct. 1986, 188 L. Ed. 2d 1007
(2014)); and (3) the onset of these deficits at an early age.
See O.C.G.A. § 17-7-131(a)(2). See also Moore v. Texas, –
–– U.S. ––––, 137 S. Ct. 1039, 1045, 197 L. Ed. 2d 416
(2017). Experts must therefore sift through a lifetime’s
worth of data and draw impressions about whether
certain facts or data points satisfy several subjective
elements.
Each element presents its own challenges. Experts
may measure intellectual functioning through IQ tests,
but a person’s score can only provide a possible range.
As the Supreme Court explained in Hall, where it struck
down Florida’s use of a strict 70-or-below IQ
requirement for Atkins claims, “[a]n individual’s IQ test
score on any given exam may fluctuate for a variety of
reasons” including “a test-taker’s health; practice from
earlier tests; the environment or location of the test; the
examiner’s demeanor; the subjective judgment involved
in scoring certain questions on the exam; and simple
lucky guessing.” Hall, 572 U.S. at 713, 134 S. Ct. 1986.
And “the test itself may be flawed, or administered in a
consistently flawed manner,” so that “even a consistent
score is not conclusive evidence of intellectual
functioning.” Id. at 714, 134 S. Ct. 1986. And the age-ofonset element requires an expert to conduct a
retrospective analysis to piece together the prisoner’s
intellectual capacity as a child—often without the
benefit of childhood IQ tests, trained child psychologists,

55a
or witnesses of the prisoner’s childhood behavior. The
difficulty of drawing a clear-cut conclusion is
compounded by the always-existing phenomenon of
dueling experts, who often differ only in terms of
degrees.
The intellectual disability analysis, with its inherent
difficulties, renders Atkins claims highly susceptible to
uncertainty. That uncertainty is magnified by the way
Georgia defines the concept of reasonable doubt. In
Georgia, the “true question in criminal cases” is
“whether there is sufficient evidence to satisfy the mind
and conscience beyond a reasonable doubt.” O.C.G.A.
§ 24-14-15. The Georgia pattern jury instructions state
that a reasonable doubt can arise from “consideration of
the evidence, a lack of evidence, or a conflict in the
evidence.”
Georgia
Suggested
Pattern
Jury
Instruction—Criminal 1.20.10 (2019) (emphasis added).
See also Ward v. State, 271 Ga. 62, 515 S.E.2d 392, 393
(1999) (approving this portion of the pattern jury
instruction). Given that intellectual disability disputes
will always involve conflicting expert testimony, there
will always be a basis for rejecting an intellectual
disability claim. Placing a beyond-a-reasonable-doubt
burden on a defendant therefore creates an unacceptable
risk of error that those with intellectual disabilities will
be put to death. If Cooper held that a clear-andconvincing burden cannot be placed on defendants
asserting incompetency, I do not see how Georgia can
place a beyond-a-reasonable-doubt burden on capital
defendants asserting intellectual disability.
The majority says that Georgia’s burden of proof
cannot transgress the Due Process Clause because

56a
Atkins left to the states the ability to craft procedures
for intellectual disability claims. But this reasoning
disregards how the Supreme Court has interpreted its
mandate for the states to create “appropriate”
procedures to enforce the constitutional restriction. See
Atkins, 536 U.S. at 317, 122 S. Ct. 2242 (emphasis added).
See also Moore, 137 S. Ct. at 1053 (“‘If the States were
to have complete autonomy to define intellectual
disability as they wished,’ we have observed, ‘Atkins
could become a nullity, and the Eighth Amendment’s
protection of human dignity would not become a
reality.’”) (quoting Hall, 572 U.S. at 1999, 134 S. Ct.
1986). Would it be permissible for a state to require a
capital defendant asserting an Atkins claim to prove
intellectual disability “beyond all doubt whatsoever” or
with “100% certainty” just because Atkins tasked the
states with establishing procedures? The question
answers itself—of course not.
In Hall, the Supreme Court recognized that “Atkins
did not provide definitive procedural or substantive
guides for determining when a person who claims mental
retardation falls within the protection of the Eighth
Amendment,” but it also reiterated that “Atkins did not
give the States unfettered discretion to define the full
scope of the constitutional protection.” 572 U.S. at 718–
19, 134 S. Ct. 1986 (quotations omitted). Florida
exceeded its permissible discretion by using a strict IQ
score because it “ignore[d] the inherent imprecision of
these tests [and] risk[ed] executing a person who suffers
from intellectual disability.” Id. at 723, 134 S. Ct. 1986.
So too in Moore, 137 S. Ct. at 1052–53. There, the
Supreme Court repeated that “[s]tates have some

57a
flexibility, but not unfettered discretion in enforcing
Atkins’ holding.” Id. (quotations omitted). The Court
then held that Texas had overstepped its Atkins
authority by disregarding the consensus of the medical
community and applying an outdated set of factors to
determine intellectual disability—a practice that
“create[d] an unacceptable risk that persons with
intellectual disability will be executed.” Id. at 1044.
Georgia’s beyond-a-reasonable-doubt standard is one
more manifestation of the same problem. Hall and
Moore teach that states violate their discretion under
Atkins by establishing procedures that create an
unacceptable risk that intellectually disabled prisoners
will be executed. Not only has Georgia failed to
recognize the practical impediments to proving an
intellectual disability claim, but has imposed on capital
defendants the heaviest burden in our legal system.
Doing so effectively denies those defendants a “fair
opportunity to show that the Constitution prohibits
their execution.” Hall, 572 U.S. at 724, 134 S. Ct. 1986.
II
Sometimes “a page of history is worth a volume of
logic.” N.Y. Trust Co. v. Eisner, 256 U.S. 345, 349, 41 S.
Ct. 506, 65 L. Ed. 963 (1921) (Holmes, J.). Should any
proof be needed that Georgia’s beyond-a-reasonabledoubt standard imposes an insurmountable and
unconstitutional demand on capital defendants, we need
look no further than how that burden has operated in
practice. In the 30 years since § 17-7-131(c)(3) was
enacted, not a single capital defendant has succeeded in
proving to a factfinder that he or she is intellectually
disabled beyond a reasonable doubt.

58a
In Hill, 662 F.3d at 1380—where we rejected, under
AEDPA deference, an Eighth Amendment challenge to
Georgia’s beyond-a-reasonable-doubt standard—the
majority asserted that there was no data “to support the
proposition that the reasonable doubt standard triggers
an unacceptably high error rate for mental retardation
claims.” See also id. at 1356 (“There is no data on this
question in this record.”) (emphasis in original). That is
no longer the case.
Here, the district court held an evidentiary hearing
to consider, among other things, whether any Georgia
capital defendants had successfully proven their
intellectual disability to a judge or jury beyond a
reasonable doubt. Prior to that hearing, the district
court allowed discovery and required Georgia to respond
to interrogatories concerning whether, since 1988, any
capital defendants had established intellectual disability
beyond a reasonable doubt. Georgia, tellingly, did not
provide any cases where a defendant met that standard.
See D.E. 38; R1123–33.4
The record shows that since 1988 at least 27 Georgia
defendants have asserted intellectually disability in
4 Some of this evidence was not available in 2005, when the Georgia
Supreme Court denied Mr. Raulerson’s appeal. Under AEDPA, our
review is normally constrained to the record as established before
the state habeas court. See Cullen v. Pinholster, 563 U.S. 170, 181–
82, 131 S. Ct. 1388, 179 L. Ed. 2d 557 (2011). But because the state
habeas court’s decision here was contrary to established Supreme
Court precedent under § 2254(d)(1), de novo review is appropriate.
See Daniel v. Comm’r, 822 F.3d 1248, 1280 (11th Cir. 2016). We
therefore can, and should, consider the evidence developed in the
district court. See Landers v. Warden, 776 F.3d 1288, 1295 (11th Cir.
2015); Madison v. Comm’r, 761 F.3d 1240, 1249–50 (11th Cir. 2014).

59a
cases where the death penalty was sought. See D.E. 38
at 6–8; D.E. 52 at 29–32. In 13 of those cases, the
intellectual disability issue went to a factfinder. And not
a single one of those 13 defendants was able to satisfy
the beyond-a-reasonable-doubt standard. In this
context, 13 defendants is a reasonable sample size and a
success rate of zero is constitutionally unacceptable.5
Other Georgia cases and recent scholarship on this
issue confirm this reality. “From an empirical
perspective, we can now say with confidence that not
one defendant in Georgia has proven successfully to a
jury post-Atkins that he is exempt from the death
penalty due to intellectual disability.” Lucas, Empirical
Assessment, at 605. See also id. at 582 (“The final results
of the study [reviewing records from 379 capital cases
tried after § 17-7-131(c)(3) was enacted] confirmed what
was thought anecdotally to be true about the impact of
Georgia’s beyond a reasonable doubt standard ...: not one
capital defendant in Georgia has successfully obtained a
jury verdict of [intellectual disability] in a case of
intentional murder.”).6
5 The intellectual disability claims of 13 defendants are still pending,
and one defendant passed away before the state court could
determine his intellectual disability claim.
6 In my own research, I have been able to find one Georgia noncapital defendant who proved to a jury that she was intellectually
disabled beyond a reasonable doubt. In 2003—prior to the Supreme
Court’s decision in Atkins—a jury found Vanessa Marshall guilty
but intellectually disabled of felony murder for the unintentional
death of her son. See Marshall v. State, 276 Ga. 854, 583 S.E.2d 884,
886 (2003). In 2009, a state court found that Christopher Lewis—a
capital defendant—was intellectually disabled beyond a reasonable
doubt on habeas review. See Hall v. Lewis, 286 Ga. 767, 692 S.E.2d

60a
By comparison, a national study found that, from
2002 to 2013, 55% of capital defendants succeeded in
proving their Atkins intellectual disability claims. See
John H. Blume, Sheri L. Johnson, Paul Marcus, & Emily
C. Paavola, A Tale of Two (and Possibly Three) Atkins:
Intellectual Disability and Capital Punishment Twelve
Years After the Supreme Court’s Creation of a
Categorical Bar, 23 Wm. & Mary Bill Rts. J. 393, 397
(2014) (reviewing cases from 29 states). Not
surprisingly, this disparity has raised the attention of
experts in the areas of capital punishment and disability
policy. See id.; Lucas, Empirical Assessment, at 553;
Lauren A. Ricciardelli & Kristina Jaskyte, A ValueCritical Policy Analysis of Georgia’s Beyond a
Reasonable Doubt Standard of Proof of Intellectual
Disability, 30 J. Disability Pol’y Stud. 56, 58–59 (2019).
Part of the problem is that Georgia’s beyond-areasonable-doubt standard requires a level of certainty
that mental health experts simply cannot provide. Mr.
Raulerson’s expert witness—a distinguished professor
specializing in intellectual disabilities—analyzed cases
where Georgia defendants attempted to prove
intellectual disability and testified at the district court
evidentiary hearing. When asked about the burden
imposed by Georgia, she said the following:
[W]hat I know is that the burden in the state of
Georgia is beyond a reasonable doubt[,] and what
I can say is that it would be very rare for a
580, 584, 592 (2010). In that case, however, Georgia did not credibly
challenge Mr. Lewis’ claim that he was intellectually disabled and
did not appeal the habeas court’s determination. So, there was no
real dispute. See Hill, 662 F.3d at 1376 n.19 (Barkett, J., dissenting).

61a
clinician, especially in the so-called mild mental
retardation range, to testify to that high level, to
be able to testify to that high level.
D.E. 51 at 71–72. See also Lauren A. Ricciardelli & Kevin
M. Ayres, The Standard of Proof of Intellectual
Disability in Georgia: The Execution of Warren Lee
Hill, 27 J. Disability Pol’y Stud. 158, 165 (2016)
(criticizing Georgia’s procedures because the “standard
of proof for diagnosis requires something other than
what a qualified expert in that field can provide”).
We now have solid data confirming that Georgia’s
standard does not afford capital defendants a meaningful
opportunity to prove intellectual disability. Must we
continue to bury our heads in the sand?
III
“Rules about presumptions and burdens of proof
reflect one’s views about where the risk of loss ought to
be placed .... It is not a novel proposition that judgments
inflicting the penalty of death should be hedged about
with greater safeguards.” Stanley v. Zant, 697 F.2d 955,
974 (11th Cir. 1983) (Arnold, J., dissenting). In my view,
§ 17-7-131(c)(3) violates the Due Process Clause because
a state cannot constitutionally place on a defendant the
burden of proving intellectual disability beyond a
reasonable doubt. That standard creates an intolerable
risk that intellectually disabled defendants will be put to
death, and the evidence from the last three decades in
Georgia conclusively demonstrates that the standard is
in fact insurmountable in litigated capital cases.
“[T]he procedures by which the facts of a case are
determined assume an importance fully as great as the

62a
validity of the substantive rule of law to be applied. And
the more important the rights at stake the more
important must be the procedural safeguards
surrounding the rights.” Speiser, 357 U.S. at 520–21, 78
S. Ct. 1332. Mr. Raulerson should be allowed to prove to
the district court, by a preponderance of the evidence,
that he is intellectually disabled.

63a
Appendix B
IN THE SUPERIOR COURT OF BUTTS
COUNTY
STATE OF GEORGIA
BILLY DANIEL
RAULERSON,
Petitioner.
v.
FREDRICK J. HEAD,
WARDEN
Georgia Diagnostic and
Classification Prison,
Respondent.

)
)
)
)
)
)
)
)
)
)
)

CIVIL
ACTION NO.
98-V-706
HABEAS
CORPUS

ORDER
STATEMENT OF THE CASE
Petitioner, Billy Daniel Raulerson, Jr., was indicted
on February 2, 1994 by the Ware County grand jury for
two counts of malice murder, burglary, felony murder,
kidnapping, aggravated sodomy, necrophilia, two counts
of possession of a firearm during the commission of a
felony, and possession of a firearm by a convicted felon.
(R.18-22). Pursuant to a change of venue, Petitioner was
tried before a jury in Chatham County from February
20 to March 7, 1996. The jury found Petitioner not guilty
on the aggravated sodomy count, and found him guilty
on the other remaining counts (R. 1683-1685). The State
nol prossed the count of possession of a firearm by a

64a
convicted felon (R. 1693). The jury recommended a
sentence of death for each count of murder, (R. 16861691), and Petitioner was sentenced to death on March
15, 1996 (R. 1697-1699). Petitioner filed a motion for new
trial on April 1, 1996 (R. 1697-1699). The motion, as
amended, was denied, after hearing, on March 12, 1997.
(R. 1710-1721, 1724). ·
The Georgia Supreme Court affirmed Petitioner’s
convictions and sentences on direct appeal on
October 10, 1997. Raulerson v. State, 268 Ga. 623 (1997).
Petitioner’s motion for reconsideration was denied.
Petitioner then filed a Petition for Writ of Certiorari in
the United States Supreme Court which was denied on
May 18, 1998. Raulerson v. Georgia, 523 U.S. 1127, 118
S.Ct. 1815 (1998). Petitioner’s Petition for rehearing was
denied on July 28, 1998. Raulerson v. Georgia, 545 U.S.
969, 119 S.Ct. 9 (1998).
Petitioner filed his petition for writ of habeas corpus
in this Court on November 30, 1998, and an amended
petition on July 31, 2000. An evidentiary hearing was
held in this case on February 20-21, 2001.
STATEMENT OF FACTS
On May 31, 1993, the bodies of Jason Hampton,
Charlye Dixon and Gail Taylor were found in separate
locations in Ware County. Each victim had been shot
multiple times by a .22 caliber rifle, and Ms. Taylor
suffered a potentially fatal knife wound to her wrist.
Semen and spermatozoa were found in Ms. Dixon’s
rectum.
Seven months later, Petitioner was arrested on
unrelated aggravated assault and weapons charges and

65a
gave police a blood sample. Analysis of the DNA from
the blood sample and from the semen recovered from
Ms. Dixon led an expert to conclude that both samples of
body fluid originated from the same person. After
receiving the DNA test results, law enforcement officers
questioned Petitioner about the three murders, and he
admitted killing the three victims. When officers
executed a search warrant at Petitioner’s residence,
they located a fishing rod and reel identified as having
been taken from Hampton’s pickup truck the night he
was killed. Officers also located parts of a .22 caliber
rifle. A ballistics expert testified that the shell casings
found near Hampton’s body and in Ms. Taylor’s home
were probably fired from the rifle found in the
Petitioner’s home.
In statements to investigating officers after the
DNA test results were known, Petitioner admitted
parking his car the evening of May 30, 1993 at a Ware
County Lakeside “lover’s lane” near the pickup truck
occupied by Hampton and Dixon. Petitioner stated that
he stood on the bed of the pickup truck and shot
Hampton several times, and then shot Dixon as she
attempted to flee. Appellant dragged Hampton’s body
from the truck and shot him several more times; he then
placed Dixon and two fishing rods from Hampton’s
pickup truck in his vehicle and drove to a wooded area
several miles away where he shot Dixon again and
sodomized her. Petitioner chose this secluded location
so that he would be able to return to the body at a later
time in order to perform more sexual acts on the corpse.
Petitioner’s attempt to return to Dixon’s body the next
day was thwarted by the presence of people at the site,

66a
so he drove to a rural section of Ware County looking for
a house to burglarize. He stopped at a home with no
vehicle in the carport and, when no one responded to his
knock at the door, Petitioner broke into a utility shed
and stole some meat from the freezer. As he was loading
the meat into his car, he heard someone inside the house.
He entered the home, struggled with Ms. Taylor who
was armed with a kitchen knife and shot her multiple
times. Petitioner then stole Taylor’s purse. Petitioner
informed officers that the he had stolen the .22 caliber
rifle in a burglary of a home in Pierce County three
weeks before the murders.
In response to expert testimony presented by
Petitioner that tests administered after the crime
established that Petitioner was mentally retarded with
an IQ of 69, the State presented expert testimony that
Petitioner’s IQ at age 15 (9 years earlier) was 83. The
State’s psychologist opined that there was no indication
that Petitioner was severely mentally ill. Raulerson,
268 Ga. 623-624.
FINDINGS OF FACT AND CONCLUSIONS OF
LAW CLAIMS THAT ARE NON-COGNIZABLE
This Court finds that the following claims raised by
Petitioner in this proceeding are not cognizable in this
habeas action brought pursuant to O.C.G.A. § 9-14-41 et
seq. By its very terms, as set forth in O.C.G.A. § 9-1442 (a), this statute applies only to an action filed by “any
person imprisoned by virtue of a sentence imposed by a
state court of record who asserts that in the proceedings
which resulted in his conviction there was a substantial
denial of his rights under the Constitution of the United
States or of this State.” Habeas corpus is available to

67a
review constitutional deprivations only. Valenzuela v.
Newsome, 253 Ga. 793 (1985).
Claim I, ¶¶ 12-21 of the amended petition, wherein
Petitioner alleged that he was deprived of a full and fair
evidentiary hearing because this Court denied his
request for funds.
Claim IV, ¶¶ 33-37 of the amended petition,
wherein Petitioner alleged that he was denied access to
competent mental health assistance in violation of Ake v.
Oklahoma and the Fifth, Sixth, Eighth and Fourteenth
Amendments of the United States Constitution and the
analogous provisions of the Georgia Constitution.
Petitioner has no constitutional right to the effective
assistance of a mental health expert. Turpin v. Bennett,
270 Ga. 584 (1999). See also Clisby v. Jones, 907 F. 2d.
1047 (11th Cir. 1990).
Claim V of the post-hearing brief, wherein
Petitioner alleged for the first time that the execution of
the severely mentally ill violates the Eighth
Amendment and Georgia law. Contrary to Petitioner’s
argument, there is no constitutional prohibition against
executing the mentally ill. Colwell v. State, 273 Ga. 634
(2001). To the extent that Petitioner alleged that trial
counsel were ineffective for failing to raise this claim, the
Court denies the relief as counsel were not deficient for
declining to raise a claim that was without merit or
justification based upon the case law as existed at the
time of trial and as exists at present.
Claim XIII, ¶¶ 71-80 of the amended petition,
wherein Petitioner alleges that his trial was fraught
with procedural and substantive errors, which cannot be

68a
harmless when viewed as a whole since the combination
of errors deprived him of the fundamentally fair trial
guaranteed under the Fifth, Sixth, Eighth and
Fourteenth Amendments to the United States
Constitution and the analogous provisions of the Georgia
Constitution. The Georgia Courts to not recognize the
cumulative error rule. Head v. Taylor, 273 Ga. 69 (2000).
Accordingly this claim, as well as Petitioner’s allegations
that counsel were ineffective for declining to assert the
claim in the courts below is non-cognizable.
CLAIMS THAT ARE RES JUDICATA
This Court finds that the following claims are res
judicata and not properly before this Court for review
pursuant to the holdings of Elrod v. Ault, 231, Ga. 750
(1974), Gunter v. Hickman, 256 Ga. 315 (1986, Hance v.
Kemp, 258 Ga. 649 (1988), and Roulain v. Martin, 266
Ga. 353 (1996).
Claim III, ¶¶ 29, 30, 32 of the amended petition,
wherein Petitioner alleged that he is mentally retarded
and therefore ineligible for the death penalty. The Court
finds that the Petitioner failed to present evidence to
satisfy the extremely stringent miscarriage of justice
standard in view of the entire body of evidence on this
issue presented at trial and in habeas to warrant the
eradication of the jury’s verdict on this exact issue.
Sawyer v. Whitley, 505 U.S. 333 (1992); Valenzuela v.
Newsome, 253 Ga. 793 (1985). At the·trial of Petitioner,
the jury rejected Petitioner’s claim of mental
retardation. This finding was affirmed by the Georgia
Supreme Court. Raulerson, 268 Ga. at 623-624.

69a
Claim III, ¶ 31 of the amended petition, wherein
Petitioner alleged that the death penalty is an excessive
and disproportionate penalty as he is mentally retarded.
As stated above, this Court finds that Petitioner failed
to satisfy by sufficient new and reliable evidence the
stringent miscarriage of justice standard as to warrant
the eradication of the jury’s verdict on the issue of
Petitioner’s alleged mental retardation.
Claim V, ¶ 41 of the amended petition, wherein
Petitioner alleges that the prosecution made improper
and prejudicial remarks during its opening statement in
violation of Petitioner’s constitutional rights to due
process and a fair trial and that the trial court
improperly failed to correct these errors on its own
motion. The Court finds that the Petitioner has
procedurally defaulted this issue by his failure to raise
the issue in the courts below. This Court finds that
Petitioner failed to satisfy by sufficient new and reliable
evidence the stringent miscarriage of justice standard.
Claim VI, ¶¶ 43-46 of the amended petition,
wherein Petitioner alleged that the trial court conducted
Petitioner’s trial in a manner that violated Petitioner’s
rights under the Fourth, Fifth, Sixth and Fourteenth
Amendments of the United States Constitution and the
analogous provisions of the Georgia Constitution by the
following:
(a)

(b)

the trial court admitted illegally obtained
confessions and evidence despite proper
motions to suppress. Raulerson, 268 Ga. at
625-631;
the trial court erred in refusing to strike
prospective jurors who demonstrated bias

70a

(c)

(d)

(e)

(f)

against the defense. Raulerson, 268 Ga. at
629-630;
the trial court unfairly restricted Petitioner’s
right to voir dire prospective jurors.
Raulerson, 268 Ga. at 630;
the trial court improperly denied Petitioner’s
motions for mistrial. Tr. T. Vol. 10, p.3
(denying Petitioner’s motion for a mistrial
based on a bomb threat that occurred during
the course of the trial). Raulerson, 268 Ga. at
630-631(denying Petitioner’s motions for
mistrials for the “prosecutor’s reference to
inadmissible evidence in his opening
statement and for Petitioner’s character
having been places in issue allegedly in
violation of O.C.G.A. § 24-9-20(b));
the trial court admitted improper evidence
despite proper objections. Raulerson, 268 Ga.
at 630-631;
the trial court gave improper and
unconstitutional jury instructions during the
guilt-innocence phase of the case and refused
to give proper instructions requested by
Petitioner. Raulerson, 268 at 632.

Claim IX, ¶ 56 of the amended petition, wherein
Petitioner alleged that he was denied due process of law
by requiring him to bear the burden of proving his
mental retardation beyond a reasonable doubt.
Raulerson, 268 Ga. at 632 (“There is no merit to
Raulerson’s challenge to the constitutionality of
O.C.G.A. § 17-7-131(3), which requires that the defense
of mental retardation be proven beyond a reasonable

71a
doubt in order for a jury to return a verdict of ‘guilty but
mentally retarded.’”).
This Court denies Petitioner’s claim that the United
States Supreme Court’s decision in Atkins v. Virginia,
536 U.S. 304, 122 S.Ct. 2242 (2002), declared this burden
of proof of mental retardation unconstitutional. The
Georgia Supreme Court’s recent decision in Head v.
Hill, S03A0559 (2003) held that a defendant’s burden in
proving mental retardation “beyond a reasonable doubt”
is controlling.
Claim XI, ¶¶ 60-61 (a-g) of the petition, wherein
Petitioner alleged that the death penalty in Georgia is
imposed arbitrarily, capriciously and discriminatorily
and was imposed in Petitioner’s case, as well.
Raulerson, 268 Ga. 633-634.
CLAIMS THAT ARE PROCEDURALLY
DEFAULTED
This Court finds that the following claims were not
raised at trial, the motion for new trial or on direct
appeal, and are therefore procedurally defaulted as
Petitioner failed to establish cause and prejudice or a
miscarriage of justice to overcome the procedural bar to
the litigation of these claims on their merits in this
habeas corpus proceeding. O.C.G.A. § 9-14-48(d); Black
v. Hardin, 255 Ga. 239 (1985); Valenzuela v. Newsome,
253 Ga. 793 (1985); Hance v. Kemp, 258 Ga. 649; White v.
Kelso, 261 Ga. 32 (1991).
Claim V, ¶¶ 38 and 39 or the amended petition,
wherein Petitioner alleged that the State suppressed
information allegedly favorable to the defense at both
phases of trial in violation of Brady v. Maryland and its

72a
progeny, argued that which it knew or should have
known to be false and/or misleading, and knowingly or
negligently presented evidence that it knew or should
have known to be false and/or misleading.
Claim V, ¶ 40 of the amended petition, wherein
Petitioner alleged that the prosecution improperly used
its peremptory strikes to systematically exclude jurors
on the basis of race and/or gender.
Claim V, ¶ 42 of the amended petition, wherein
Petitioner alleged that his rights to due process and a
fair trial were violated by improper and prejudicial
remarks by the prosecution in its closing statement at
the guilt-innocence phase or trial and that the trial court
improperly failed to correct these errors on its own
motion.
Claim VI, ¶ 44 (f) of the amended petition, wherein
Petitioner asserted that the trial court erred by
allegedly refusing to allow an expert to testify as to facts
he learned from other sources that were the bases for his
opinions and by allegedly refusing to allow the defense
to show that at the time Petitioner was questioned, he
had a lawyer in connection with another charge, without
allowing the prosecutor to elaborate on the nature of the
charges for which the lawyer was involved.
Claim VII, ¶¶ 47-48 of the amended petition,
wherein the Petitioner alleged that the jurors
committed misconduct by discussing the case after being
admonished not to do so. The Petitioner also claimed
that the jury, improperly considered matters extraneous
to the trial, held improper racial attitudes which infected
the deliberations of the jury, made false or misleading

73a
responses on voir dire, held improper biases which
infected their deliberations, were exposed to the
prejudicial opinions of third parties, made improper
communications with third parties, made improper
communication with jury bailiffs, made improper ex
parte communications with the trial judge, and
prejudged the guilt-innocence and penalty phases of
Petitioner’s trial and wherein Petitioner alleged
improprieties on behalf of the trial court and the State in
relation to these claims.
Claim VIII, ¶¶ 55-56 of the amended petition,
wherein Petitioner alleged that he was denied due
process of law when the same jury that convicted him
was responsible for determining his sentence at the
penalty phase in violation of the Fourth, Fifth, Sixth,
Eighth and Fourteenth Amendments to the United
States Constitution and the analogous provisions of the
Georgia Constitution.
Claim IX, ¶¶ 55-56 of the amended petition,
wherein Petitioner alleged that he was denied due
process of law by the instructions given to the jury at the
guilt innocence phase of trial, specifically on the burden
of proof, the ability of the jury to convict Petitioner upon
less that “utmost certainty” of guilt, on the impeachment
of witnesses, by statutory terms, and by improperly
charging the jury on the offenses charged in the
indictment in violation of the Fifth, Sixth, Eighth and
Fourteenth Amendments to the United States
Constitution and the analogous provisions of the Georgia
Constitution.
Claim XII, ¶¶ 62-70 of the amended petition,
wherein Petitioner alleged that the Unified Appeal

74a
Procedure violated Petitioner’s rights under the Fifth,
Sixth, Eighth and Fourteenth Amendments to the
United States Constitution and the analogous provisions
of the Georgia Constitution.
Accordingly, these claims are denied.
PETITIONER’S INEFFECTIVE ASSISTANCE
OF COUNSEL CLAIMS
In Strickland, the United States Supreme Court
adopted a two-pronged approach to reviewing
ineffective assistance of counsel claims:
First, the defendant must show that counsel’s
performance was deficient.
This requires
showing that counsel made errors so serious that
counsel was not functioning as the “counsel”
guaranteed the defendant by the Sixth
Amendment. Second, the defendant must show
that the deficient performance prejudiced the
defense. This requires showing that counsel’s
errors were so serious as to deprive the
defendant of a fair trial, a trial whose result is
reliable.
Unless a defendant makes both
showings, it cannot be said that the conviction or
death sentence resulted from a breakdown in the
adversary process that renders the result
unreliable.
Strickland v. Washington, 466 U.S. 668, 687 (1984).
As to claims of ineffective assistance of counsel, the
United States Supreme Court has directed that “a court
must indulge a strong presumption that counsel’s
conduct falls within the wide range of reasonable

75a
professional assistance; that is, the defendant must
overcome the presumption that, under the
circumstances, the challenged action ‘might be
considered sound trial strategy.’” Strickland, 466 U.S.
at 689. See also Zant v.Moon, 264 Ga. 93 (1994).
In considering the reasonableness or Petitioner’s
appellate attorney’s performance, his representation of
Petitioner must be considered in light of the “particular
facts of the case, viewed as of the time of counsel’s
conduct.” Strickland, 466 U.S. at 690. As the Georgia
Supreme Court recognized in Zant v. Moon, the
parameters set forth by the United States Supreme
Court for considering ineffective assistance claims are to
“address not what is prudent or appropriate, but only
what is constitutionally compelled.” Zant v. Moon, 264
Ga. at 95-94.
Considering Petitioner’s claims in light of this
presumption and in light of the Strickland standard, this
Court finds that Petitioner failed to meet his burden of
proof with regard to any of his ineffective assistance of
counsel claims.
Summary of trial counsel’s experience and the
defense team
Shortly after Petitioner’s arrest for these crimes,
Leon Wilson and Mark Hatfield were appointed to
represent the Petitioner. The record showed that Mr.
Wilson served as lead counsel throughout the trial of this
case. The record showed that at the time he was
appointed to represent Petitioner, Mr. Wilson had
nearly fifty (50) years of experience as a criminal
attorney and had tried hundreds of jury cases in south

76a
Georgia, where Petitioner’s case was ultimately tried.
(T. Tr. Vol 13, p. 114). Mr. Wilson had tried several death
penalty cases, and had never before had a client receive
a sentence of death. H.T. 116. Although Petitioner
alleged that Mr. Wilson had health problems at the time
of his representation of Petitioner that prevented him
from adequately preparing for and trying this case, the
Court finds this suggestion to be without merit following
a review of the evidence. H.T. 272.
Co counsel, Mark Hatfield graduated from the
University of Georgia School of Law, cum laude, in May
1993. Id. at 238. After his graduation, Mr. Hatfield
served as an assistant District Attorney at the Athens
District Attorney’s Office where he acquired
“significant” felony trial experience. Id. at 238. He
joined Mr. Wilson’s firm in Waycross in April 1994,
which handled an equal amount of criminal and civil
cases. Id. at 105, 108. Prior to Petitioner’s trial, Mr.
Hatfield tried several cases on behalf of Mr. Wilson’s
firm. Id. at 238.
In terms of the division of labor in this case, the
evidence showed that Mr. Wilson was generally
responsible for most of the investigation, while Mr.
Hatfield’s responsibilities consisted of conducting
research, preparing and filing motions, assisting at the
pretrial hearings, interviewing witnesses, preparing Dr.
Grant for his trial testimony, and generally assisting in
the presentation of evidence and argument at trial.
Gene Hatfield, co-counsel’s father and Mr. Wilson’s
paralegal, also assisted in the investigation of this case.
The evidence showed that Gene Hatfield completed law
school and formerly served as a police officer prior to his

77a
employment with Mr. Wilson. Co­counsel Mark Hatfield
testified that, apart from his own investigations, Mr.
Wilson and his father conducted substantial
investigation in this case.
The record showed that counsel also obtained motion
practice and research assistance from the Multi-County
Public Defender’s Office and consulted with them
regarding certain aspects of the preparation of this case.
Summary of trial counsels’ investigation in
preparation for trial
This Court finds that trial counsels’ investigation of
the case was reasonable. The evidence showed that trial
counsel retained “consulting criminalist and firearms
identification technician” Rees Smith, to examine the
State’s physical evidence as well as DNA experts Dr.
Jung Choi and Dr. Linda Adkinson to examine the
State’s findings regarding the DNA evidence. This
Court finds that trial counsel reasonably declined to
present the testimony of these experts at trial as the
evidence showed that they would not have testified
favorably for the defense.
Although the evidence showed that trial counsel
continued to investigate the State’s guilt phase case in
hopes of establishing reasonable doubt at trial, given the
strong evidence of Petitioner’s guilt, including
Petitioner’s ultimate confession to these crimes and the
lack of favorable DNA and ballistics testimony, this
Court finds that counsel made a reasonable strategic
decision to focus their limited time and resources in an
attempt to save Petitioner’s life through the

78a
investigation and presentation of evidence designed to
avoid a death sentence.
Investigation of Petitioner’s Mental and Emotional
Status
In furtherance of counsels’ strategy, trial counsel
arranged for Petitioner to be evaluated by licensed
psychologist Dr. Daniel Grant to determine whether
Petitioner had a mental disorder that affected his
competency to stand trial, to determine whether he had
the ability to discern right from wrong, to determine
whether he was mentally retarded, and to examine his
general mental status in hopes of gathering evidence in
mitigation. The evidence showed that Dr. Grant worked
with Mr. Wilson in previous cases. At the time of his
retention in this case, Dr. Grant had board certifications
in neuropsychology and forensic psychology and had
extensive experience in conducting mental retardation
evaluations.
Over the course of his evaluation, Dr. Grant met with
Petitioner approximately seven times for a total of
approximately fifteen (15) hours, interviewed him on
several occasions, and administered to him
approximately twenty-five (25) different psychological
tests. This Court finds that in the course of his
evaluation of Petitioner, trial counsel arranged for Dr.
Grant to conduct clinical interviews with both of
Petitioner’s parents and to administer them a test
designed to aid in the determination of the issue of
mental retardation.
This Court finds that trial counsel also arranged for
Petitioner to be evaluated by Dr. John Savino, a local

79a
psychiatrist. Dr. Savino met with and evaluated
Petitioner on eight separate occasions.
This Court finds that trial counsel arranged for
licensed clinical social worker Audrey Sumner who was
employed by Dr. Savino to compile a social history of
Petitioner’s life, through interviews with the Petitioner,
Petitioner’s mother, and Petitioner’s uncles, Edgar and
Donald Pittman. The Court finds that trial counsel
provided Ms. Sumner’s report to Dr. Grant and Dr.
Savino along with Petitioner’s criminal records,
extensive records from the Ware County Hospital
regarding Petitioner’s stay there, the discharge
summary from Petitioner’s stat at Georgia Regional
Hospital immediately following an attempted suicide, a
letter summarizing Petitioner’s treatment at the Satilla
Community Mental Health Center, and extensive
educational and school records on Petitioner from the
Ware County School System and the Harrell
Psychoeducational Center. There is no record of either
Dr. Grant or Dr. Savino requesting additional materials
from counsel.
The evidence showed that in the course of his
evaluation of Petitioner, Dr. Savino suggested to trial
counsel that he saw some indications that Petitioner
might have organic brain damage. The evidence showed
trial counsel responded to this suggestion by Dr. Savino
by hiring a neurologist, Dr. Michael Baker, and a
neuropsychologist, Dr. Manuel Chaknis, to evaluate
Petitioner. The evidence showed that Mr. Wilson
provided to Dr. Chaknis Petitioner’s indictment, school
records, newborn hospital records and later hospital
records, and informed Dr. Chaknis that if he needed

80a
further information to inform Wilson and he would
attempt to provide that information. As with Dr. Grant
and Dr. Savino, this Court finds that there is no record
of Dr. Chaknis requesting additional materials from trial
counsel. As neither Dr. Baker nor Dr. Chaknis found
evidence to substantiate a claim of brain damage, this
Court finds that trial counsel reasonably declined to call
these witnesses to testify at trial.
At the conclusion of their evaluations, the evidence
showed that trial counsel arranged for Dr. Grant and Dr.
Savino to meet to discuss their impressions of Petitioner.
Dr. Grant ultimately diagnosed Petitioner with chronic
alcoholism, polysubstance dependence, cannabis abuse,
major depressive disorder, close head injury by history,
mild mental retardation, and mixed personality disorder
with features of passive/aggressive, oppositional,
borderline and antisocial. The evidence showed that Dr.
Savino declined to make any formal psychological
diagnosis of Petitioner. Accordingly, this Court finds
that trial counsel reasonably declined to call Dr. Savino
to testify at trial.
Additional Investigation of Petitioner’s Background
The evidence showed that trial counsel interviewed
Petitioner’s mother and father to gather information
regarding Petitioner’s background as well as
Petitioner’s brother and uncle Donald Pittman. Trial
Counsel also had Petitioner write out his “life history”
for counsel to provide further insight into Petitioner’s
childhood and family life.

81a
Presentation of Mitigating Evidence at Trial
Based on the information that counsel amassed, This
Court finds that trial counsel presented the following
evidence in mitigation at trial in addition to the evidence
of Petitioner’s alleged mental retardation:
1.)
2.)
3.)
4.)
5.)

6.)
7.)
8.)
9.)

10.)
11.)
12.)

that Petitioner was physically abused by his
parents;
that Petitioner was verbally abused by his
parents;
that Petitioner grew up in an extremely
dysfunctional environment;
that Petitioner’s family had a history of
substance abuse;
that Petitioner began abusing both alcohol
and drugs at a very young age as a result of
his environment and the history of abuse in
the family;
that Petitioner showed signs of brain damage;
that Petitioner had a lifelong history of
depression;
that Petitioner had difficulty controlling his
impulses;
that Petitioner’s alleged mental retardation
resulted in increased aggressive behavior due
to Petitioner’s increased level of frustration;
that Petitioner had previously attempted
suicide and was hospitalized, thereafter;
that
Petitioner
experienced
marital
difficulties that resulted in a divorce;
that Petitioner often experienced blackouts
following his use of alcohol and drugs;

82a
13.)

that Petitioner engaged in a binge of alcohol
and drug consumption in the days preceding
the commission of the crimes.

Although counsel did not offer additional mitigating
evidence in the sentencing phase of trial, this Court finds
that trial counsels’ investigation and presentation of
mitigating evidence at trial was reasonable.
SPECIFIC ALLEGATIONS OF INEFFECTIVE
ASSISTANCE OF COUNSEL
This Court denies Petitioner’s Claim II, ¶ 23 (a) of
his amended petition wherein Petitioner alleged that
counsel failed to conduct adequate negotiations for a plea
agreement resulting in a sentence less than death as
Petitioner failed to present any evidence to show that
the District Attorney would have even considered a
pleas offer or that Petitioner would have accepted one.
Petitioner has failed to show deficient performance by
counsel or prejudice flowing from such alleged deficient
performance, thus, this ineffective assistance of counsel
claim is denied.
The Court denies Petitioner’s Claim II, ¶ 23 (c) of
his amended petition wherein Petitioner alleged that
counsel failed to conduct an adequate pretrial
investigation into the voluntariness of Petitioner’s
statements to law enforcement personnel, and
specifically failed to investigate the effect of Petitioner’s
mental capacity and his medical and psychological
history on Petitioner’s mental state at the time he
provided his incriminating statements. The Court finds
that Petitioner bas failed to show deficient performance

83a
by counsel or prejudice flowing from such alleged
deficient performance; accordingly this claim is denied.
The Court denies Petitioner’ s Claim II, ¶ 23 (d) of
his amended petition wherein Petitioner alleged that
counsel failed to adequately present information and
evidence in pretrial motions and at trial relating to
Petitioner’s alleged voluntary waiver of constitutional
rights during interrogation by the police. The Court
finds that Petitioner has failed to show deficient
performance by counsel or prejudice flowing from such
alleged deficient performance, accordingly this claim is
denied.
The Court denies Petitioner’s Claim II, ¶ 23 (e) of
his amended petition wherein Petitioner alleged that
counsel failed to file several pretrial motions to protect
Petitioner’s right to a fair trial including discovery
motions which would have allegedly produced highly
relevant and critical information regarding the
circumstances surrounding the criminal charges against
Petitioner and which would have allegedly assisted his
lawyers to effectively represent their client. The Court
finds that Petitioner has failed to show deficient
performance by counsel or prejudice flowing from such
alleged deficient performance, accordingly this claim is
denied.
The Court denies Petitioner’s Claim II, ¶ 23 (h) of
his amended petition wherein Petitioner alleged that
trial counsel were ineffective in the preparation and
conducting of voir dire. The Court finds that Petitioner
has failed to show deficient performance by counsel or
prejudice flowing from such alleged deficient
performance, accordingly this claim is denied.

84a
The Court denies Petitioner’s Claim II, ¶ 23 (i) of his
amended petition wherein Petitioner alleged that
counsel failed to adequately examine potential jurors
during voir dire by failing to follow up on responses by
potential jurors, by failing to discover the verdicts
handed down by those jurors with prior jury service,
Brenda Collins, David Lockett, Patricia Burke, Shirley
Moussa and Joseph Hohnerlein, by failing to adequately
question potential jurors Moselle Irvin, Carole Rich and
Andrew Goldwire about their prior knowledge of the
case, by failing to investigate the statements of
prospective jurors April Reppert, Waltter Devereaux,
Jr. and Sharon Rozier who admitted that the case was
improperly discussed among venirepersons, by failing to
properly question juror Moselle Irvin who stated that he
was more prone to sentence Petitioner to death, by
failing to further question prospective jurors Thomas
Sanders and Jeanna Young who improperly placed the
evidentiary burden of proof on the defense, by failing to
question prospective jurors Mosell Irvin, Mary Fischer
and Kathy Mabry who showed a complete lack of
understanding regarding metal retardation, alcoholism
and other conditions, by failing to question prospective
jurors Elaine Ellison and Jeanna Young whose families
and friends had been murdered, by falling to adequately
question prospective jurors Cecil Mastison and Frank
Chappell who had backgrounds in law enforcement, and
by failing to examine prospective juror Susan DeFillipis
who said that she would not willingly consider
mitigating factors presented by the defense outside of
the court’s instructions. This Court finds that Petitioner
failed to establish the deficient performance prong or the
prejudice prong associated with this claim. Accordingly,

85a
this ineffective assistance of counsel claim is denied in its
entirety.
The Court denies Petitioner’s Claim II, ¶ 23 (j) of
his amended petition wherein Petitioner alleged that
counsel failed to move to strike unqualified and biased
jurors from the venire. This Court finds that Petitioner
failed to establish the deficient performance prong or the
prejudice prong associated with this claim, thus this
claim is denied.
The Court denies Petitioner’s Claim II, ¶ 23 (k) of
his amended petition wherein Petitioner alleged that
counsel were ineffective for declining to object to the
trial court’s alleged failure to admonish prospective
jurors Carole Rich and Andrew Goldwire not to discuss
the case or read, watch or listen to news accounts after
individual sequestered voir dire. This Court finds that
Petitioner failed to establish the deficient performance
prong or the prejudice prong associated with this claim,
thus this claim is denied.
The Court denies Petitioner’s Claim II, ¶ 23 (u) of
his amended petition wherein Petitioner alleged that
counsel were ineffective for declining to object to the
State’s witnesses testimony about matters allegedly
outside of their personal knowledge. This Court finds
that Petitioner failed to establish the deficient
performance prong or the prejudice prong associated
with this claim, thus this claim is denied.
The Court denies Petitioner’s Claim II, ¶ 23 (x) of
his amended petition wherein Petitioner alleged that
counsel were ineffective for declining to challenge the
constitutionality of Petitioner’s prior convictions. This

86a
Court finds that Petitioner failed to establish the
deficient performance prong or the prejudice prong
associated with this claim, thus this claim is denied.
The Court denies Petitioner’s Claim II, ¶ 23 (v) of
his amended petition wherein Petitioner alleged that
counsel were ineffective in the manner in which counsel
conducted bench conferences at trial. This Court finds
that Petitioner failed to establish the deficient
performance prong or the prejudice prong associated
with this claim, thus this claim is denied.
The Court denies Petitioner’s Claim II, ¶ 23 (z) of
his amended petition wherein Petitioner alleged that
counsel were ineffective in assuring Petitioner’s
presence at critical phases of trial. This Court finds that
Petitioner failed to establish the deficient performance
prong or the prejudice prong associated with this claim,
thus this claim is denied.
TRIAL COUNSEL WERE NOT INEFFECTIVE
IN THE INVESTIGATION AND
PRESENTATION OF POTENTIAL MITIGATING
EVIDENCE AT TRIAL
(Claim II, ¶ 23 (b), (f), (g), (l), (o), (p), (q), (r), (s), (t),
and (y) and Claim IV, ¶ 35-37 of amended petition)
Petitioner alleged that trial counsel were ineffective
for allegedly failing to investigate and present sufficient
potential mitigating evidence and defenses at trial,
including evidence and defenses based upon Petitioner’s
mental state at the time of the alleged offenses. This
Court finds that this claim is without merit.

87a
Trial counsel were not ineffective in the
investigation and presentation of evidence in
support of Petitioner’s mental retardation claim
This Court finds that the evidence showed that
psychologist Dr. Grant was retained by trial counsel, in
part, to evaluate Petitioner to determine whether he
was mentally retarded. To aid in this determination, the
evidence showed that trial counsel provided Dr. Grant
with extensive materials regarding Petitioner’s
background including Petitioner’s school records from
the Ware County School System and some of
Petitioner’s Harrell Psychoeducation Center records,
records of Petitioner’s psychological evaluations
conducted at the Harrell Center, Petitioner’s Ware
County Hospital records, Petitioner’s discharge
summary from his February 1998 admission into
Georgia Regional Hospital following his suicide attempt,
a letter summarizing Petitioner’s diagnoses and
treatment at the Satilla Community Mental Health
Center, the psycho-social history of Petitioner compiled
by social worker Audrey Sumner, Petitioner’s prior
criminal records, and reports of the Central State
Hospital Forensic Evaluative Team members who
evaluated Petitioner pursuant to the trial court’s order,
including the reports of Dr. Gibson and Dr. Tirath Gill
and neurologist Dr. Bhagwant Rai Verma. See H.T.
5315-5323, 5511-5515, 5572-5589 and 7623-7624.
To determine whether Petitioner had subaverage
intellectual functioning, the first prong of mental
retardation, the evidence showed that Dr. Grant
conducted several clinical interviews with Petitioner
and administered several intelligence tests to him

88a
including the Stanford-Binet Intelligence Scale, 4th
edition, the Kaufman Adolescent and Adult Intelligence
Test, the Slosson Intelligence Test, Revised, the
Peabody Intelligence Test, Revised, the Test of
Nonverbal Intelligence, and several achievement tests.
The evidence also showed that Dr. Grant reviewed
previous IQ tests administered to Petitioner during his
school years that were included in the records that trial
counsel provided to Dr. Grant, as listed above.
To determine whether Petitioner has adaptive
deficits, the second prong of mental retardation, the
evidence showed that Dr. Grant conducted several
clinical interviews with Petitioner, administered
“listening and expressive language tests,” reviewed
Petitioner’s school and medical records, provided by
counsel, conducted clinical interviews with both of
Petitioner’s parents, and administered the Vineland
Adaptive Skills Behavior Test to both of Petitioner’s
parents.
Dr. Grant testified in this habeas corpus proceeding
that he had “concerns” about the reliability on
Petitioner’s parents as sources for information
regarding Petitioner’s status and believed that they
were limited mentally and not ideal reporters of
Petitioner’s childhood and upbringing, and claimed that
he voiced these concerns to Mr. Wilson prior to
Petitioner’s trial. Dr. Grant also testified during these
proceedings that Mr. Wilson ignored these concerns.
This Court finds that Dr. Grant’s present testimony is in
conflict with his trial testimony, wherein he described
Petitioner’s parents as “helpful: and by his failure to
mention this alleged concern after being asked by the

89a
District Attorney on cross-examination whether he
tested Petitioner’s parents to determine whether they
were mentally retarded prior to administering the
Vineland test to them.
In order to determine whether Petitioner met the
third prong of mental retardation, onset before age 18,
the evidence showed that Dr. Grant referred to his
evaluations of Petitioner, his interviews with
Petitioner’s parents, the results of the Vineland test he
administered to Petitioner’s parents and to the records
provided to him by trial counsel.
At the completion of Dr, Grant’s evaluation, he
concluded that Petitioner clearly meets all three of these
criteria and in fact meets the classification for mild
mental retardation. H.T. 7630.
Contrary to Dr. Grant’s testimony in this habeas
proceeding, the evidence showed that Dr. Grant made no
indication that he felt incapable of basing his conclusions
on the information he obtained through his own testing
and examination of Petitioner, his interviews of
Petitioner’s parents, the Vineland test he administered
to Petitioner’s parents, his discussions with Dr. Savino,
and his review of Petitioner’s records as provided by
trial counsel. See. Card v. Dugger, 911 F2nd 1494, 1512
(11th Cir. 1990). Accordingly, this Court finds that trial
counsel were not deficient in the investigation of
Petitioner’s mental retardation claim and denies this
claim of ineffective assistance of counsel.

90a
Trial counsel were not deficient in the preparation
of Dr. Grant for his trial testimony or the
presentation of Dr. Grant’s trial testimony
regarding this issue
This Court credits co-counsel Mark Hatfield’s
testimony that he spent a significant amount of time
familiarizing himself with the aspects of the mental
retardation defense as well as a significant amount of
time talking with Dr. Grant about the defense and
reviewing Dr. Grant’s report and findings. H.T. 267.
Under these circumstances, this Court finds that counsel
were not deficient in preparing Dr. Grant for his trial
testimony regarding this or any other issue.
Accordingly, the Court denies this claim for ineffective
assistance of counsel.
This Court also finds that counsel was not ineffective
in the presentation of Dr. Grant’s trial testimony
regarding the issue of Petitioner’ s mental retardation.
Counsel elicited testimony from Dr. Grant regarding his
ultimate finding of Petitioner’s mental retardation as
well as Dr. Grant’s support for the satisfaction of each of
the three prongs of the test for mental retardation.
Trial counsel were not ineffective in their
provision of records to Dr. Grant regarding
Petitioner’s mental retardation claim
This Court rejects Petitioner’s claim that trial
counsel were ineffective for failing to provide Dr. Grant
with all of Petitioner’s educational, mental health,
criminal and hospital records. As addressed above, this
Court found as a matter of fact that Dr. Grant never
informed trial counsel of his desire for additional records

91a
of Petitioner. Notwithstanding this factual finding, this
Court further finds that the information contained in the
additional records presented in this habeas corpus
proceeding are cumulative of the information trial
counsel provided to Dr. Grant prior to Petitioner’s trial.
This Court finds that Petitioner failed to establish
deficient performance and prejudice flowing from such
deficient performance and hereby denies this ineffective
assistance of counsel claim.
This Court’s finding of the lack of actual prejudice to
the Petitioner is underscored by the fact that the
information contained in the additional documents
present in this proceeding are not wholly beneficial to
Petitioner as these additional records indicate that
Petitioner could have passed some subjects in school,
had he attended school and not refused to complete his
work. H.T. 1121. This information is in contravention of
Petitioner’s mental retardation claim.
This Court also denies Petitioner’s claim that trial
counsel were ineffective for declining to provide Dr.
Grant with Petitioner’s parents’ educational, mental
health, criminal and hospital records or for allegedly
refusing to allow Dr. Grant to conduct psychological and
intelligence testing on Petitioner’s parents as this Court
finds that Dr. Grant never requested that trial counsel
provide him with these materials or that counsel allow
Dr. Grant to perform additional testing. See Head v.
Carr, 273 Ga. 631 (2001). This Court notes that this
finding is supported by Dr. Grant’s letter to Mr. Wilson
dated March 3, 1996 in which Dr. Grant stated that he
enjoyed working with Mr. Wilson, indicating satisfaction
with Dr, Grant’s working relationship with counsel.

92a
H.T. 5534. Accordingly, as Petitioner failed to establish
deficient performance and prejudice flowing from such
deficient performance and this Court hereby denies this
ineffective assistance of counsel claim.
Trial counsel were not ineffective in declining to
obtain a more detailed social history regarding
Petitioner’s life·
This Court also denies Petitioners’ claim that trial
counsel were ineffective for declining to provide Dr.
Grant with a more detailed social history regarding
Petitioner’s life or for declining to arrange for Dr. Grant
to interview other family members, friends and teachers
of Petitioner, so that Dr. Grant could get “firsthand
descriptions” of Petitioner’s alleged adaptive
functioning in furtherance of Petitioner’s mental
retardation claim. The Court finds that Dr. Grant never
made a request of counsel to provide such information or
to conduct additional interviews. See Head v. Carr, 273
Ga. at 631. Accordingly, this Court finds as a matter of
law that Petitioner failed to establish deficient
performance and denies this ineffective assistance of
counsel claim.
This Court also finds that Petitioner failed to
establish actual prejudice with regard to this claim. The
additional information contained in the affidavits
submitted in this proceeding is generally cumulative of
the information that Dr. Grant possessed prior to trial.
The Court notes that Petitioner’s “friends” in this
proceeding are not the same as the friends listed by
Petitioner prior to trial, except for Shad Joyner, a
convicted felon. This Court rejects Mr. Joyner’s
testimony as being unreliable. The Court also finds that

93a
the affidavits provided in this proceeding by Petitioner’s
former teachers that would have been admissible at trial
is either refuted by Petitioner’s records or cumulative of
the other information provided to Dr. Grant prior to
trial. Accordingly, this claim is denied.
Trial counsel were not ineffective for declining to
provide Central State Hospital psychologist Dr.
Lower with additional materials to support
Petitioner’s mental retardation claim
This Court credits Dr. Lower’s live testimony at the
evidentiary hearings in this habeas corpus proceeding,
rather than Dr. Lower’s affidavit prepared in connection
with these proceedings. In live testimony, Dr. Lower
stated that he could not conclude that the Petitioner is
mentally retarded, upon review of the additional
materials provided to him by Petitioner’s habeas
counsel. Dr. Lower testified that a lack of persuasive
evidence exists to show that the deficiencies in
Petitioner’s measured intelligence occurred before age
18, as to satisfy the third prong required in a finding of
mental retardation. H.T. 365, 367. Instead, Dr. Lower
testified that after a review of additional materials he
could not rule out mental retardation or conclude that
petitioner was mentally retarded which is consistent
with his statement contained in his report following his
1995 evaluation of Petitioner as well as his trial
testimony. Tr. T. Vol. 11, P. 52 and H.T. 7229. As this
additional evidence did not change Dr. Lower’s ultimate
opinion on the issue of mental retardation, this Court
denies this ineffective assistance claim as Petitioner
failed to establish deficient performance or prejudice.

94a
While the Court finds that Dr. Gibson testified that
he found the Petitioner to be mentally retarded, his
conclusion was based upon Dr. Gibson’s mistaken belief
that Dr. Lower’s new conclusions were that Petitioner
was mentally retarded. As a result of Dr. Lower’s
apparent abridgment of his diagnosis, Dr. Gibson was
forced to abridge his diagnosis as well. See H.T. 522. In
light of the fact that Dr. Lower did not change his
diagnosis of the Petitioner, the Court disregards Dr.
Gibson’s adoption of the erroneous report of Dr. Lower’s
finding as sworn to in these proceedings.
Trial counsel were not ineffective for declining to
call Petitioner’s parents to testify in support of his
mental retardation claim
As stated above, the evidence showed that Dr. Grant
interviewed Petitioner’s parents at length prior to trial
in order to obtain more information regarding
Petitioner’s mental retardation claim. Accordingly, this
Court finds that trial counsel was not deficient for
declining to call Petitioner’s parents as witnesses in
support of this claim and therefore denies this
ineffective assistance of counsel claim.
The Court also finds that Petitioner failed to
establish the prejudice prong of this claim. The Court
finds that the evidence contained in the affidavits
offered in support of this claim is either cumulative of
Dr. Grant’s testimony or is refuted by other competent
evidence. See H.T. 243, 1124, 4870-4882, 7757-7760 and
Tr. T. Vol. 10, p. 66.

95a
Trial counsel were not ineffective for declining to
call Petitioner’s sister to testify in support of his
mental retardation claim
This Court denies Petitioner’s suggestion that trial
counsel were ineffective for declining to present the
testimony of Petitioner’s sister in support of his mental
retardation claim as Petitioner repeatedly stated that he
did not have a close relationship with his sister. See H.T.
4665 and 4407. Further, this Court finds that nothing
trial counsel learned from speaking with Petitioner’s
parents indicated that Petitioner’s sister knew more
about his developmental history than the parents did.
See Williams v. Head, 185 F3d 1223, 1237 (11th Cir.
1999). See also Holladay v. Haley, 209 F.3d 1243, 1252
(11th Cir. 2000). Accordingly, this Court finds that
counsel were not deficient for declining to call
Petitioner’s sister to testify in support of his mental
retardation claim or for any other matter and therefore
denies this claim.
This Court also finds that Petitioner failed to
establish prejudice with regard to this issue as the
information contained in Petitioner’ s sister’s affidavit is
cumulative of the evidence presented in support of this
claim at trial.
Trial counsel were not ineffective for declining to
call Petitioner’s uncle, Donald Pittman, Sr. to
testify in support of his mental retardation claim
This Court finds that trial counsel were not deficient
for declining to call Petitioner’s uncle, Donald Pittman,
Sr. to testify in support of Petitioner’s mental
retardation claim. Although Mr. Pittman was willing to

96a
testify on Petitioner’s behalf, this Court finds that trial
counsel strategically declined to call Mr. Pittman to the
stand. Mr. Hatfield testified at the evidentiary hearing
that Mr. Pittman “literally scared the daylights” out of
him.
“[H]e was way off the deep end. He came in
telling...me...something about [how] somebody
had given rat poison to his wife or something and
had driven her out of her mind. And then he came
back behind my desk and was looming over me
and was telling me something about that if
something wasn’t done about that, there was
going to be another killing or something like that.
And this guy was, he was a complete, you know,
he was out of it, he was out of it. I don’t know, I
don’t know why, what triggered that incident, or
why be came to see me about it or anything, but
that wasn’t the sort of guy you would want to put
in the stand in front of a jury.
H.T. 173-174.
Under these circumstances, this Court finds that
counsels’ decision not to call Mr. Pittman to testify in
support of this claim or for any other matter was
reasonable, and this claim of ineffectiveness is denied.
See Waters v. Thomas, 46 F.3d 1506, 1512 (11th Cir.
1995).
Trial counsel were not ineffective for declining to
call members of Petitioner’s extended family to
testify in support of his mental retardation claim
The other members of Petitioner’s extended family
that provided affidavits in this habeas corpus proceeding

97a
included Thoetis Batten, Petitioner’s surviving
grandmother, James Raulerson and Edgar “Buddy”
Pittman, Jr., Petitioner’s uncles, Linda Shaw and
Dorothy Waldron, Petitioner’s aunts and Robert
Pittman, Connie Richardson, Kenny Richardson and
Sherry Richardson, some of Petitioner’s cousins. As the
Eleventh Circuit has held, the “correct approach toward
investigation reflects the reality that lawyers do not
enjoy the benefit of endless time, energy or financial
resources. A lawyer is not required to pursue every
path until it bears fruit or until all hope withers. A
decision to limit investigation is accorded a strong
presumption of reasonableness. Williams v. Head, 185
F.3rd at 1237. A decision to limit investigation made by
counsel with considerable experience is criminal cases is
entitled to even more deference. Id.
This Court finds that the evidence showed that
Petitioner repeatedly represented to counsel that he did
not have close relationships with these family members.
H.T. 7204-7211, 7737-7738, 7661 and 7917. Further, the
evidence showed that Petitioner generally had limited
contact with these family members as well. Accordingly
this Court finds that trial counsel reasonably declined to
attempt to interview these witnesses and to call them to
testify at trial in support of this or any other matter. See
Holladay v. Haley, 209 F.3d 1243, 1252 (11th Cir. 2000).
This Court denies this claim of ineffective assistance of
counsel.
Even though this Court need not conduct a further
inquiry into this claim as Petitioner failed to establish
counsels’ deficient performance, this Court finds that
Petitioner also failed to establish prejudice with regard

98a
to his mental retardation claim as the affidavits are
largely cumulative of Dr. Grant’s trial testimony on the
issue of mental retardation.
The only evidence contained within these affidavits
that is not cumulative of the evidence presented in
support of this claim at trial is the testimony regarding
Petitioner’s father’s alleged mental retardation.
However, there is no evidence to show that Petitioner’s
father was ever diagnosed as being mentally retarded
and the Court finds that there exists no reasonable
probability that this additional testimony would have
changed the outcome of the trial on this issue.
Accordingly, this claim is denied.
Trial counsel were not ineffective for declining to
call Petitioner’s alleged friends to testify in
support of his mental retardation claim
Petitioner claimed that trial counsel were ineffective
for declining to present the testimony of Lisa Habicht,
Shad Joyner and Angela Taylor in support of
Petitioner’s mental retardation claim. However, when
asked at the time of trial to identify his friends to assist
in the investigation of this case, Petitioner did not
include Ms. Habicht and Ms. Taylor. Instead, Petitioner
listed Wayne Sweat, Sandy Sweat, Corey Strickland,
Fred Williams, Shad Joyner and Joe and Millie
Wainwright. H.T. 7737-7738. Only Shad Joyner was
named on Petitioner’s list of friends for these
proceedings and for the trial of this case.
Trial counsel are not required to find and interview
all potentially favorable witnesses.
This duty
particularly does not attach when Petitioner has not

99a
notified counsel of the names of such favorable
witnesses. Accordingly, the Court denies this claim of
ineffective assistance of counsel.
As noted above, Petitioner did identify Shad Joyner
as one of his friends. This Court finds that Mr. Joyner’s
testimony is unreliable. Accordingly, this Court finds
that trial counsel reasonably declined to present Mr.
Joyner’s testimony. Therefore, this claim for ineffective
assistance of counsel is denied.
Even addressing these affidavits on their face, this
Court finds that Petitioner failed to establish actual
prejudice in counsels’ failure to call these witnesses to
testify as the testimony of these witnesses would have
undermine Petitioner’s claim of mental retardation. Dr.
Grant relied in part on the evidence that Petitioner had
no friends in finding that the second prong of mental
retardation had been satisfied. Further, this Court finds
that the testimony contained within these affidavits is
generally cumulative of Dr. Grant’s trial testimony.
Trial counsel were not ineffective for declining to
call former teachers, social workers and
administrators of Petitioner to testify in support
of his mental retardation claim
Petitioner claimed trial counsel were ineffective for
declining to present the testimony of Virginia Anderson,
Hattie Cunningham, Susan Engram, Deborah Lance
Logan and Frank Sumner in support of his mental
retardation claim. This Court finds that this claim also
lacks merit. As the Eleventh Circuit has held, the mere
fact that other witnesses might have been available is
not a sufficient ground to prove ineffectiveness of

100a
counsel.” Williams v. Head, 185 F.3d at 1236 (1999).
This Court finds that Petitioner failed to establish that
trial counsel was deficient in declining to present this
testimony in support of this claim at trial and hereby
denies this ineffective assistance of counsel claim.
The Court also finds that the Petitioner has failed to
establish actual prejudice resulting from the alleged
deficiency of counsel.
The Court finds that the
information contained in the affidavits of these
witnesses is either refuted by Petitioner’s school records
or cumulative of other evidence presented at trial in
support of this claim.
Trial Counsel were not ineffective for declining to
call employees of Hickox Cabinets and Millwork
to testify in support of Petitioner’s mental
retardation claim
Petitioner alleges that counsel were ineffective for
declining to present the testimony of Ron Lynn and Ray
Dryden regarding Petitioner’s employment at Hickox
Cabinets and Millwork in support of his mental
retardation claim. (see Tr. T. Vol. 10, pgs. 10-189). The
Court finds that counsel were not deficient for declining
to present this testimony of these two additional
witnesses in support of this claim at trial and hereby
denies this ineffective assistance of counsel claim.
This Court also finds that Petitioner failed to
establish actual prejudice with regard to the
presentation of this evidence as the testimony of these
witnesses did not cast doubt on State’s witness Freddy
Hickox’s trial testimony, refuting Petitioner’s claim.

101a
Trial counsel were not ineffective in the
investigation and presentation of evidence
regarding the issue of mental illness
The record in this case clearly established that trial
counsels’ investigation and presentation of evidence
regarding the issue of mental illness was not deficient.
Trial counsel retained an experienced forensic
psychologist, Dr. Grant, and a psychiatrist, Dr. Savino to
evaluate Petitioner’s mental and emotional status.
Additionally, trial counsel provided Dr, Grant and Dr.
Savino with extensive materials regarding Petitioner’s
background as set forth above as well as the reports of
the Central State Hospital Evaluative Team members
who evaluated the Petitioner pursuant to the trial
court’s order including the reports of Dr. Gibson and Dr.
Lower, as well as the reports of psychiatrists Dr. Anita
Rae-Smith and Dr. Tirath Gill and neurologist Dr.
Bhagwant Rai Verma. The record also showed that trial
counsel had Petitioner evaluated by a neurologist, Dr.
Michael Baker, and a neuropsychologist, Dr. Manual
Chaknis, at Dr. Savino’s suggestion, although their
evaluations did not provide information helpful to
Petitioner’s case. The record further showed that trial
counsel arranged for Dr. Grant to interview Petitioner’s
parents and for Dr. Grant and Dr. Savino to meet to
discuss their findings following the conclusion of their
assessments of Petitioner. H.T. 7790-7792.
The evidence showed that in addition to the evidence
regarding Petitioner’s mental retardation claim, trial
counsel presented potential mitigation evidence of
Petitioner’s mental health. This evidence, which was
largely uncontested by the State at trial, is as following:

102a
1.
2.
3.

4.

5.

6.
7.

8.
9.

10.

11.

Petitioner began to abuse alcohol at a very
early age
Petitioner began to abuse drugs at a very
early age
Petitioner’s drug and alcohol abuse stemmed
from a family history of such abuse and the
dysfunctional
environment
in
which
Petitioner was raised.
Petitioner’s teachers described him as
experiencing frequent and intense mood
swings, being unable to control his temper,
and having difficulty controlling his impulses.
Petitioner’s lack of an understanding of reality
as highlighted by a test which was
administered to Petitioner in the second
grade.
Petitioner suffered several serious head
injuries in childhood and adolescence.
Petitioner’s aggressiveness was consisted
with a history of head injuries and was likely
exacerbated by his family and emotional
problems.
Petitioner had a history of chronic depression
Petitioner’s mother sought psychiatric
counseling and treatment for Petitioner, but
Petitioner’s father forbade it.
Petitioner was evaluated at the Satilla Mental
Health Center in December 1987, where
Petitioner was diagnosed with explosive
disorder with a history of borderline
intellectual functioning and marital problems.
Petitioner was late evaluated at the Satilla
Mental Health Center one year later after

103a

12.
13.

complaining of depression after which
Petitioner was diagnosed with attention
deficit disorder, hyperactive disorder,
residual, borderline intellectual functioning,
marital problems, cannabis abuse and
amended explosive disorder.
Petitioner attempted suicide when his wife
left him.
Petitioner was admitted to Georgia Regional
Hospital immediately following his suicide
attempt, and the admitting physician noted
that Petitioner had a history of mental health
problems.

The record showed that trial counsel also placed Dr.
Grant’s report into evidence which recorded Dr. Grant’s
findings that Petitioner suffered from chronic
alcoholism, polysubstance abuse, cannabis abuse, major
depressive disorder and mixed personality disorder with
features of passive/aggressive, oppositional, borderline
and antisocial in addition to mild mental retardation.
The Court finds as a matter of law that trial counsel’s
performance in investigating and presenting evidence
regarding the issue of mental illness was reasonable.
Accordingly, Petitioner’s claim that counsel were
ineffective in the investigation and presentation of
evidence regarding the issue of mental illness is denied.
Trial counsel was not ineffective for declining to
provide Dr. Grant with additional records
regarding the issue of mental illness
This Court rejects this claim for ineffective
assistance of counsel as there is no record of Dr. Grant

104a
requesting that trial counsel provide him with additional
materials regarding this issue despite Dr. Grant’s
present testimony to the contrary. This Court notes
that Dr. Grant’s present assertions regarding his alleged
pretrial request for additional materials is further
contradicted co-counsel’s testimony at the evidentiary
hearing in these habeas corpus proceedings. At the
evidentiary hearing co-counsel did not recall Dr. Grant
mentioning a need for additional materials regarding
this or any other issue. H.T. 247-50. Accordingly, this
Court finds that trial counsel were not deficient for
declining to provide Dr. Grant with additional records
regarding this issue, as alleged by Petitioner. This claim
of ineffective assistance of counsel is denied.
The Court finds that Petitioner failed to establish
prejudice with regard to this claim. The Court finds that
Petitioner’s mother had no mental records at the time of
Petitioner’s trial. Further, the Court finds that while
Petitioner’s mother was diagnosed with dysthymia or
chronic depression when she was evaluated in 1998
following the conclusion of Petitioner’s trial, this
depression was deemed to stem, in large part, by
Petitioner’s commission of the crimes at issue. H.T.
1725-1729.
Although Petitioner’s father bad been evaluated
twice in the years leading up to these crimes and
following one evaluation had received a diagnosis
“differentiated between psychoneurotic depressive
reaction and psychotic depressive reaction,” this Court
finds that Petitioner failed to show that his alleged
mental health problems stemmed from his father’s
alleged disorder. Even if Petitioner had made this

105a
showing, as the jury was aware of Petitioner’s history of
depression at the time the jurors rendered their
sentencing decision in this case, this Court finds that
these records would not have, in reasonable probability,
caused the jury to reach a different result. Accordingly,
this claim of ineffective assistance of counsel is denied.
Petitioner also claimed that counsel were ineffective
for failing to provide Dr. Grant with all of Petitioner’s
Satilla Community Health Center records, including a
letter written in May 1978, following psychiatrist Dr.
Speriosu’s evaluation of Petitioner. Dr. Speriosu’s letter
represented that Petitioner’s difficulty was more
complex than hyperactivity. H.T. 1170. Even if counsel
did not provide all of Petitioner’s Satilla Center records
to Dr. Grant, which is unclear from the record, this Court
finds that counsel’s alleged failure to provide the sum
total of these records to Dr. Grant did not establish
deficient performance. See Card v. Dugger, 911 F.2d
1494, 1512 (11th Cir. 1990). Accordingly this claim of
ineffective assistance of counsel is denied.
The Court also finds that Petitioner failed to satisfy
the prejudice prong of this claim as the Court finds that
the alleged new records are generally cumulative of the
evidence that Dr. Grant had in his possession prior to
trial. Although the letter representing Dr. Speriosu’s
feelings with respect to Petitioner’s mental health was
not presented to the jury, given that Dr. Speriosu never
made a diagnosis of Petitioner and declined to
recommend treatment after an evaluation, this Court
finds that there is no reasonable probability that the jury
would have reached a different verdict if they had been

106a
made aware of the contents of this letter. This claim of
ineffective assistance of counsel is denied.
Trial counsel did not limit Dr. Grant’s evaluation
to the issue of mental retardation.
Petitioner also claimed that counsel rendered
deficient performance by insisting that Dr. Grant limit
his evaluation to the issue of mental retardation. This
claim is contradicted by Mr. Hatfield’s testimony, as well
as by Dr. Grant’s report wherein he stated that he was
requested to evaluate Petitioner in part to determine if
he is mentally retarded. H.T. 7630. In that same report,
Dr. Grant diagnosed Petitioner with other mental
disorders including chronic alcoholism, polysubstance
abuse, cannabis abuse, major depressive disorder and
mixed personality disorder with features of
passive/aggressive, oppositional, borderline and
associational in addition to mild mental retardation. Id.
The Court denies this claim of ineffective assistance of
counsel.
Trial counsel were not ineffective for declining to
provide Central State Hospital psychiatrist Dr.
Gibson and psychologist Dr. Lower with
additional materials regarding the issue of mental
illness
Petitioner also claimed that counsel were ineffective
for declining to provide Dr. Lower and Dr. Gibson with
additional materials.
Petitioner argues that such
documents might have persuaded the doctors to reach a
different opinion on the issue of Petitioner’s mental
illness.
This claim is without merit.
The four
psychological experts that evaluated Petitioner at

107a
Central State Hospital prior to trial concluded that
Petitioner did not have a mental illness such that his
criminal responsibility for the commission of these
crimes would be negated. This Court finds that trial
counsel reasonably refraned from voluntarily providing
Dr. Gibson and Dr. Lower with additional materials in
the hopes that the doctors would reevaluate their
findings and conclude that Petitioner was mentally ill.
This claim for ineffective assistance of counsel is denied.
This conclusion is supported by the holding of Head
v. Carr, 273 Ga. 613 (2001). The Georgia Supreme Court
held that it “is simply not reasonable to put the onus on
trial counsel to know what additional information would
have triggered” the psychiatrist to take a different
course of action; “a reasonable lawyer is not expected to
have a background in psychiatry or neurology.” Id. at
631. No record exists of either Dr. Gibson or Dr. Lower
requesting any materials from trial counsel on the issue
of Petitioner’s alleged mental illness. This Court finds
that a reasonable lawyer would not have known what
additional information might have triggered Dr. Gibson
and Dr. Lower to reach different opinions regarding
Petitioner’s mental illness. Following the Carr holding,
this Court denies Petitioner’s claim on this issue.
Trial counsel were not ineffective for declining to
present the testimony contained in Dr. Atkerson’s
affidavit regarding the issue of mental illness
Petitioner claimed that trial counsel were ineffective
for failing to present the testimony contained in the
affidavit of psychologist Dr. Akerson, who was hired by
Petitioner’s habeas counsel to evaluate Petitioner for
these proceedings. Dr. Ackerson’s evaluation took place

108a
on August 8, 2000, several years after Petitioner was
tried and sentenced for these crimes. This Court finds
that Petitioner failed to show that trial counsel rendered
deficient performance by declining to obtain a mental
health expert to testify to these findings, as contained in
Dr. Ackerson’s affidavit, offered for these proceedings.
As the Eleventh Circuit has held, counsel are “not
required to ‘shop’” for a mental health expert “who will
testify in a particular way.” Card v. Dugger, 911 F2d.
1494 (1990). This claim of ineffective assistance of
counsel is denied.
This Court also finds that Petitioner failed to
establish prejudice with regard to this ineffectiveness
claim as Dr. Ackerson’s psychological diagnoses are
generally cumulative of the evidence presented at trial.
The Court finds, based upon the evidence, that the jury
would not have found, by a reasonably probability, that
Dr. Ackerson’s assertion that Petitioner showed signs of
reactive attachment disorder of infancy or early
childhood as compelling given the fact that Petitioner
was approximately twenty-four years of age at the time
of the commission of these crimes. The Court also finds
that the jury likely would have disregarded Dr.
Ackerson’s claim that Petitioner experienced a
dissociative episode at the time he began shooting at Mr.
Hampton and Ms. Dixon. The suggestion that Petitioner
was not fully cognizant of his actions is refuted by
Petitioner’s own ability to recall the events of the crimes
to investigators. The Court also finds that the Petitioner
was cognizant of his actions in his attempt to hide the
body of Ms. Dixon for Petitioner’s intended sexual
gratification at a later time. Additionally, this Court

109a
finds that no evidentiary support exists for Dr.
Ackerson’s assertion that Petitioner had no intention of
harming others on the day of these crimes, as statements
Petitioner made to the GBI in which Petitioner
intimated that if he had known the location of his ex-wife
he probably would’ve killed her, too. H.T. 4486-4488.
The Court also finds that Dr. Ackerson’s findings that he
did not mean to harm Gail Taylor and was unaware of
her presence prior to entering her house is in direct
contradiction with Petitioner’s own statement to the
GBI that he heard someone in the house prior to kicking
open Ms. Taylor’s door. Tr. T. Vol. 9, p. 16. The Court,
finding no actual prejudice to Petitioner, denies this
claim of ineffective assistance of counsel.
Trial Counsel were not ineffective for declining to
attempt to elicit the “new” testimony of Dr.
Gibson and Dr. Lower regarding the issue of
mental illness
This Court finds that counsel were not deficient for
declining to attempt to elicit the new findings of Dr.
Gibson and Dr. Lower adopting Dr. Ackerson’s present
findings of a serious mental disorder, which impaired
Petitioner’s actions and Petitioner’s ability to appreciate
the wrongfulness of his actions. The Court finds that Dr.
Gibson’s and Dr. Lower’s reports based upon their
evaluations of Petitioner in 1995 at the time of trial
reflect Dr. Gibson’s and Dr. Lower’s unambiguous
findings at the time of trial. Accordingly, this claim of
ineffective assistance of counsel is denied.
The Court also finds that there is no reasonable
probability that Dr. Gibson’s or Dr. Lower’s present
affidavit testimony adopting Dr. Ackerson’s findings

110a
would have changed the outcome of this case. The
record reflects that Dr. Gibson and Dr. Lower were
generally aware of the information on which they now
base their “new” findings at the time they evaluated
Petitioner in 1995 and yet did not conclude at that time
that Petitioner had a serious mental disorder of any
kind. H.T. 7213-7388. This Court finds that counsel was
not ineffective for declining to attempt to elicit this
“new” testimony at trial.
The lack of prejudice and the denial of this claim is
further supported by psychologist Dr. Schroeder’s
report following her evaluation of Petitioner in the
Georgia Diagnostic and Classification Prison shortly
after the completion of Petitioner’s trial where in she
noted that Petitioner showed signs of a major disorder
of thought and no signs of a major disorder of mood. See
H.T. 5158.
Accordingly this claim of ineffective
assistance of counsel is denied.
Trial counsel were not ineffective for declining to
present the testimony of Dr. Savino regarding the
issue of mental illness
The Court finds that counsel were not ineffective for
declining to call Dr. Savino to testify regarding the issue
of mental illness as there is no evidence to show that Dr.
Savino diagnosed the Petitioner with any specific mental
illness. See H.T. 7790-7792. Therefore, this Court finds
that trial counsel were not deficient in declining to
present Dr. Sovino’s testimony as potential mitigating
evidence.
This Court also finds that Petitioner failed to
establish prejudice regarding this claim as there is no

111a
reasonable probability that Dr. Savino’s testimony
would have changed the outcome of this case absent a
specific diagnosis.
Trial counsel were not ineffective for declining to
present evidence regarding Petitioner’s alleged
sexual abuse
This Court finds that counsel were not ineffective for
declining to present evidence regarding the allegation of
Petitioner’s alleged childhood sexual abuse addressed in
Dr. Ackerson’s and Angela Taylor’s affidavits. The
Court finds that the evidence showed that counsel
obtained some information about that allegation prior to
trial, Id. at 246, but declined to present it at trial because
it was a subject that Petitioner did not want to be
brought out in the case. Id. at 245. The Court finds that
Petitioner’s desire to keep this allegation of childhood
sexual abuse from being aired publicly was further
demonstrated by Petitioner’s actions at the evidentiary
hearing. As co-counsel Mark Hatfield explained at the
evidentiary hearings in these proceedings, “when we got
into that evidence,...from what I’ve seen [today], I think
he told his lawyers he didn’t want them to go into that
any further. I think I heard as much.” Id. at 245-246.
As Petitioner is ultimately in charge of his own
defense, this Court finds that counsel were not deficient
for declining to present evidence of this allegation at
trial. See Gilreath v. Head, 234 F.3d 547, 551 (11th Cir.
2000). Accordingly, this claim of ineffective assistance of
counsel is denied.
The Court finds that Petitioner failed to establish
prejudice with regard to this claim. Even assuming,

112a
arguendo, that Petitioner would have permitted the
introduction of this evidence at trial, as Petitioner failed
to even name the alleged perpetrator of this act and
specifically denied that he had been sexually abused as a
child during the course of his evaluation at Central State
Hospital, while awaiting trial for these crimes, H.T.
7274, there is no reasonable probability that this
testimony would have changed the outcome of this case.
Accordingly, this claim for ineffective assistance of
counsel is denied.
Trial counsel were not ineffective in the
investigation and presentation of mitigating
evidence regarding the circumstances under
which these crimes were committed
Following a review of the record, that trial counsel
presented evidence to attempt to mitigate against a
finding that Petitioner premeditated these crimes. This
evidence presented by counsel to the jury at the trial of
this case included the following:
1.
2.
3.

4.
5.
6.

That Petitioner was brain damaged;
That Petitioner was mentally retarded at the
time of commission of these crimes;
That Petitioner had very poor judgment
which predisposed him to acting in a impulsive
and aggressive manner as a result of his
alleged mental retardation;
That Petitioner had a history of poor impulse
control;
That Petitioner suffered from chronic
depression;
That Petitioner had attempted suicide;

113a
7.
8.
9.

10.

11.

12.

13.

That Petitioner abused drugs from an early
age;
That Petitioner abused alcohol from an early
age;
That Petitioner’s abuse of drugs and alcohol
stemmed from a history of such abuse in his
family;
That Petitioner’s abuse of drugs and alcohol
stemmed from the dysfunctional and abusive
household in which he was raised;
That Petitioner had a history of blackouts
caused by heavy use of alcohol and drugs that
would prevent him from recalling what he did
the night before;
That Petitioner consumed at least a case and
a half of beer, a half bag of marijuana and
various pills including Vistaril, Vicodin,
Percodan and Valium contemporaneously to
the commission of these crimes;
That Petitioner shouted out his wife’s name
prior to the shootings of Mr. Hampton and Ms.
Dixon, evidencing his alleged emotional
distress.

At the close of the sentencing phase, trial counsel
urged the jury to further consider Petitioner’s mental
condition at the time of these crimes as a reason to vote
for a sentence less than death, arguing that “you can’t
expect the same thing of him that you’d expect of
someone with a healthy,” “adult mind,” Id. at 121, and
that “[t]hese murders,” which were “entirely without
motive or reason,” “can only be understood as the
product of a mind” that, if not “legally retarded,” was

114a
nevertheless “sick,” and not
Petitioner’s own doing. Id. at 118.

entirely

through

The Court finds trial counsels investigation and
presentation of evidence and argument to attempt to
show that these crimes were impulsive and not
premeditated was reasonable. Accordingly, this claim of
ineffective assistance of counsel is denied.
The Court also denies Petitioner’s claim that counsel
were ineffective for failing to present the testimony of a
crime scene reconstructionist in support of this
allegation. Petitioner cites to the affidavit of R. Robert
Tressel that Petioner secured and submitted in this
habeas corpus proceeding. Mr. Tressel’s opinions, as set
out in the affidavit, describe the manner in which these
crimes were carried out, Petitioner’s mental, physical
and emotional state at the time of these crimes and the
manner in which the victims died. As the Eleventh
Circuit has held, the “mere fact that other witnesses
might have been available or that other testimony might
have been elicited...is not sufficient ground to prove
ineffectiveness of counsel.” Waters v. Thomas, 46 F.3d
at 1514. As this Court finds that counsel’s investigation,
presentation of evidence and argument to attempt to
show the lack of the premeditation of these crimes was
reasonable, this claim of ineffective assistance is denied.
The Court also finds that Petitioner failed to
establish prejudice with regard to Mr. Tressel’s
testimony given Mr. Tressel’s reliance on inaccurate and
unreliable information in reaching many of his
conclusions as well as his clear bias in Petitioner’s favor.
Therefore, this claim of ineffective assistance of counsel
is denied.

115a
Trial counsel were not ineffective for declining to
present the testimony of a toxicologist
This Court finds that counsel were not ineffective for
declining to present a toxicologist to testify that
Petitioner’s alleged drug and alcohol use around the time
of the murders of Mr. Hampton and Ms. Dixon caused
him to “experience a drug-induced dissociative episode
which significantly impaired his judgment, behavior,
capacity to recognize reality, and his ability to conform
his conduct to the requirements of law” and that “the
toxic amount of alcohol and drugs ...would have had a
continuing profound affect on Mr. Raulerson’s physical,
cognitive, and emotional abilities the following day” at
the time of Ms. Taylor’s murder.
As Mr. Hatfield testified, he did not believe that a
Chatham County jury would have “thought “very much”
of the claim that Petitioner was too “drunk or drugged”
to know what he was doing as he had learned from
experiences trying cases in south Georgia that people
are” very unforgiving” when it comes to “that sort of
drug and alcohol use.” H.T.. at 264-266 See also Id. at
298-300. Accordingly, this Court finds that counsel
reasonably refrained from securing and presenting the
testimony of a toxicologist.
The reasonableness of counsels’ strategic decision to
decline to present such testimony is additionally
demonstrated by the lack of credible evidence to support
Petitioner’s self-serving statements regarding the
amount of alcohol and the types of drugs Petitioner
allegedly consumed on the night and day in question and
the lack of evidence regarding the quantity of drugs
consumed. As a result, the possibility that a toxicologist

116a
could have reached a credible, trustworthy opinion
regarding the effects of drugs and alcohol on Petitioner
at the time of the crimes is eliminated.
As the Eleventh Circuit held in Tompkins v. Moore,
193 F.3d 1327, 1337 (11th Cir. 1999), the opinion of an
expert “that a defendant was intoxicated with alcohol or
drugs at the time of the capital offense is unreliable and
of little use as mitigating circumstances evidence when
it is predicated solely upon the defendant’s own
self­serving statements.” As a result of this holding, the
Court finds that counsel were not deficient for declining
to secure and present the testimony of a toxicologist and
this claim of ineffective assistance is denied.
This Court also finds that Petitioner failed to
establish prejudice with regard to this claim. As the
Eleventh Circuit as held, “[e]vidence of drug and alcohol
abuse is a two-edged sword.” Housel v. Head 238 F.3d
1289, 1296 (2001). See also Waldrop v. Jones, 77 F.3d
1308, 1313 (11th Cir. 1996). Accordingly, this Court finds
that there exists no reasonable probability that this
evidence would have persuaded the jury to vote for a
sentence less than death.
The Court finds that presentation of toxicology
testimony would not have changed the outcome at trial
in reasonable probability. Dr. Holbrook, the expert
whom Petitioner retained in this habeas proceeding had
no contact with Petitioner prior to rendering his
conclusions. Dr. Holbrook based his opinions entirely on
information provided by Petitioner’s habeas counsel.
H.T. 341-350. Additionally, the Court finds that the
testimony of Dr. Holbrook is generally cumulative of the

117a
evidence presented at trial. Accordingly, this Court
denies the Petitioner’s claim on this issue.
Trial counsel were not ineffective for declining to
object to the State’s guilt phase argument (Claim
V, ¶ 39, footnote 4 of amended petition)
Petitioner also claimed that trial counsel were
ineffective for declining to object to the State’s guilt
phase arguments that Petitioner saw Gail Taylor in the
house prior to kicking down the door, that Petitioner
“started out mean and grew up even meaner,” that Dr.
Grant was biased in favor of the defense given the
amount of money that he was paid by the defense to
work on this case and the prosecutor’s characterizations
of the victims as “good kids” who were neither under the
influence of drugs or alcohol so as to refute any
suggestion that they in some way provoked Petitioner’s
attack. This claim is without merit.
The Georgia Supreme Court has long held that “the
permissible range of argument during summation is
very wide.” Simmons v. State, 266 Ga. 223 (1996). “Each
party has the right to argue all reasonable inferences
drawn from the evidence presented at trial.” Id.
“[I]ncidental characterizations of a victim are not
improper in the guilt/innocence phase when they are
necessary to show something sufficiently relevant.”
Lucas v. State, 274 Ga. 640 (2001). As the prosecutor’s
aforementioned arguments fell within the wide range of
permissible argument as they were reasonable
inferences based on the evidence presented and these
arguments did not unfairly prejudice Petitioner, this
Court finds that counsel were not deficient for declining
to object to these arguments at trial or on direct appeal.

118a
See (Testimony of Weyland Yeomans, Tr. T. Vol. 9, p.
16)(Petitioner acknowledged that “he heard someone in
the house” and then “went to the door” and “kicked it
open and “fell in the door.”) and (Tr. R. 15241541)(photographs of the crime scene at Gail Taylor’s
home). See also (Tr. T. Vol. 10, p. 106).
Trial counsel were not ineffective for declining to
object to the trial court’s failure to charge the jury
to consider verdicts of not guilty by reason of
insanity and guilty but mentally ill in addition to
the verdict of guilty but mentally retarded (Claim
II, ¶ 23 (m) of amended petition as alleged as
Petitioner’s Brief)
According to O.C.G.A. § 17-7-131(b)(1), a trial court
is only required to instruct the jury that it shall consider
verdicts of not guilty by reason of insanity at the time of
the crimes and guilty but mentally ill at the time of the
crimes in addition to a verdict of guilty but mentally
retarded where ‘‘the defense of insanity is interposed.”
O.C.G.A. § 17-7-131(b)(1). According to O.C.G.A. § 17-7131(a)(1), insanity “means meeting the criteria of Code
Section 16-3-2 or 16-3-3.” O.C.G.A. § 16-3-2 defines
insanity as the lack of mental capacity to distinguish
between right and wrong” in relation to the crimes with
which the defendant is charged. O.C.G.A. § 16-3-3
provides that mental capacity is lacking where the
person “acted as he did because of a delusional
compulsion as to such act which overmastered his will to
resist committing the crime[s]” with which he is
charged. Following a review of the trial record in this
case, this Court finds that counsel did not interpose a
defense of insanity or mental incompetency. See Tr. T.

119a
Vol. 10, p. 85 (wherein defense expert testified that
Petitioner knows the difference between right and
wrong). Accordingly, this Court finds that trial counsel
were not deficient for declining to assert an objection to
the absence of charges on these additional verdicts.
Therefore, this claim is denied.
This Court also finds that counsel were not
ineffective for declining to specifically raise the defense
of guilty but mentally ill and request that the jury be
charged to consider the additional verdict of guilty but
mentally ill.
According to O.C.G.A. § 17-7-131,
defendants found guilty but mentally retarded or guilty
but mentally ill are entitled to psychological evaluation
and treatment, if necessary; however the explicit terms
of the 1988 amendment to this statute provide that the
death penalty is only prohibited for those persons found
guilty but mentally retarded. Although the record
showed that counsel presented evidence at the guilt
phase of trial that Petitioner had mental health issues in
addition to evidence of Petitioner’s alleged mental
retardation, this Court finds that counsel reasonably
refrained from requesting that the jury be instructed to
consider a guilty but mentally ill verdict in addition to
the guilty but retarded verdict due to counsels’ fear that
the jury might choose the guilty but mentally ill verdict
which would not have prohibited the imposition of the
death sentence in lieu of the guilty but mentally retarded
verdict. Therefore, this Court finds that counsel were
not deficient in declining to request that this verdict be
considered and denies the ineffectiveness claim.

120a
SENTENCING PHASE ISSUES
This Court denies Petitioner’s Claim II, ¶ 23 (n) of
the amended petition wherein he alleged that trial
counsel were ineffective for declining to object properly
to unspecified items of improper evidence offered by the
State in aggravation as Petitioner failed to establish
deficient performance or actual prejudice to warrant a
grant of relief on this claim.
Trial counsel were not ineffective for declining to
question Mr. Reeves regarding his prior criminal record
which consisted of burglaries and thefts given that the
State presented evidence of Petitioner’s commission of
burglaries and thefts as non-statutory aggravating
evidence. Tr. T. Vol. 13, pgs. 50-58. Accordingly, this
claim of ineffective assistance of counsel is denied.
This Court also finds that trial counsel reasonably
declined to cross-examine Mr. Reeves about his prior
statements to law enforcement regarding an incident
with Petitioner given the possibility that questioning
Mr. Reeves about such statements could have caused the
trial court to change his ruling and permit these
statements to be admitted in their entirety, including
Petitioner’s racist remarks. See Tr. T. Vol. 13, p. 87.
Given the fact that this Court finds that trial counsel
reasonably believed that the admission of these remarks
“in any...fashion” would have “sunk” their chances of
obtaining a sentence less than death, particularly with
“African-Americans on the jury,” H.T. 230-232, this
Court finds that counsel were not deficient for declining
to cross-examine Mr. Reeves regarding alleged
inconsistencies in his prior statements to police
regarding this incident. Accordingly, this claim of

121a
ineffectiveness is denied. The denial of this claim is
further supported by this Court’s finding that another
witness, Virginia Roberson, Petitioner’s first cousin,
was available to corroborate Mr. Reeves’ account. See
Tr. R. 263-265, 905-907, and 1418-1419 and H.T. 44974499.
The Court also finds that Petitioner failed to
establish prejudice regarding this claim as Ms.
Roberson, if called by the State to confirm Mr. Reeves’
account, could have testified to other damaging facts
that were not otherwise presented to the jury, including
that Petitioner had asked her to lie for him regarding his
whereabouts on the weekend of these crimes, that he
bragged to her that he could kill someone and get away
with it, and that he told her that the person who
committed these murders would never be caught. See
H.T. 4440, 4497-4499 and Tr. R., pgs. 1418-1419.
Trial counsel were not ineffective for declining to
further cross-examine Petitioner’s brother,
Christopher Raulerson (Claim II, ¶ 23 (w) of
amended Petition
This Court also denies Petitioner’s claim that counsel
were deficient in the cross-examination of Christopher
Raulerson. This Court finds that counsel conducted a
reasonable factual investigation into the Petitioner’s
November 27, 1993, aggravated assault on his brother
and violent conduct toward his mother and sister on that
same occasion. The evidence showed that counsel spoke
with Petitioner, his brother and his mother regarding
this incident prior to trial. The evidence showed that
counsel also reviews the police documentation and
Petitioner’s statements to the police regarding this

122a
incident. See H.T. 174, 206-209, and 5994-6039. The
Court finds that counsels’ investigation showed
Christopher Raulerson’s account of the incident with
Petitioner to be generally accurate. This Court finds
that counsel were not deficient in declining to crossexamine Christopher Raulerson regarding the veracity
of his testimony as further cross-examination of
Christopher Raulerson could have resulted in the
disclosure of additional damaging testimony that was
not otherwise before the jury including evidence that
Petitioner previously attacked him, that Petitioner
frequently hit his ex-wife Stacy and that Christopher
Raulerson walked in on Petitioner choking her on one
occasion, and that Petitioner also “often physically and
verbally” abused his mother and father. H.T. 4429-4430.
See Chandler v. U.S., 218 F.3d 1305, 1321 (11th Cir.
2000). For these reasons, this Court also denies the
Petitioner’s claim of prejudice. Accordingly, this claim
of ineffectiveness is denied.
The Court also denies Petitioner’s claim that counsel
were deficient for declining to call other witnesses who
were allegedly present during this incident in order to
impeach the testimony of Christopher Raulerson’s
account. This Court finds that Petitioner failed to show
that he did not threaten his brother with a gun, push his
mother to the ground and punch his sister on the
occasion to which Christopher Raulerson testified in the
sentencing phase of trial. Tr. T. Vol. 13, pgs. 61-65.
Additionally, this Court finds that counsel reasonably
declined to call Petitioner’s mother to testify regarding
this incident as her cross-examination would likely have
also revealed additional harmful testimony to Petitioner

123a
that would not have played out well “in front of a jury.”
H.T. 204, including testimony as reflected in Audrey
Sumner’s social history that by age 10, Petitioner was
“constantly picking fights” “with his younger brother,”
that he began beating her when he was 15 years old and
that he beat his wife when she was pregnant with their
child, Mandy. See H.T. 7204-7211.
This Court also rejects Petitioner’s suggestion that
counsel were deficient for declining to attempt to
interview and call Petitioner’s cousin, Tommy
Richardson, to testify regarding this incident to attempt
to impeach Christopher Raulerson’s account. This Court
finds that Petitioner did not indicate to counsel that Mr.
Richardson was present during this incident and as Mr.
Richardson’s name is not reflected in the police records
documenting this incident.. H.T. 5994-6018.
See
Mulligan v Kemp, 771 F.2d 1436.
This Court also finds that Petitioner failed to
establish prejudice as to counsel’s failure to call Mr.
Richardson to testify as Mr. Richardson did not dispute
that during this incident, Petitioner pulled a gun on his
brother, pushed his mother to the ground and punched
his sister in the face. The Court further finds that
Petitioner admitted in a post-Miranda statement that his
brother did not pull a knife on him until after Petitioner
punched him and that he did threaten his brother with a
gun. See H.T. 4406-4407. Therefore, this claim for
ineffective assistance of counsel is denied.

124a
Trial counsel were not ineffective for declining to
present mitigating evidence in the penalty phase
The United States Supreme Court has held that
“[t]he failure to present mitigating evidence during the
penalty phase of a capital trial is not ineffectiveness per
se.” Burger v. Kemp, 483 U.S. 776 (1987). Accordingly,
this Court denies Petitioner’s claim that counsel were
per se ineffective because they presented no evidence in
mitigation at the sentencing phase of Petitioner’s trial.
The Court also rejects Petitioner’s allegation that
counsel presented no mitigating evidence at trial. To the
contrary, as previously listed in this order, this Court’s
review of the trial transcript showed that trial counsel
presented substantial evidence in mitigation including
the following:
1.)
2.)
3.)
4.)
5.)

6.)
7.)
8.)

that Petitioner was physically abused by his
parents;
that Petitioner was verbally abused by his
parents;
that Petitioner grew up in an extremely
dysfunctional environment;
that Petitioner’s family had a history of
substance abuse;
that Petitioner began abusing both alcohol
and drugs at a very young age as a result of
his environment and the history of abuse in
the family;
that Petitioner showed signs of brain damage;
that Petitioner had a lifelong history of
depression;
that Petitioner was diagnosed by Dr. Grant as
having major depressive disorder;

125a
9.)

10.)
11.)

12.)
13.)
14.)
15.)

that Petitioner had been diagnosed with
attention deficit disorder and explosive
disorder;
that Petitioner had difficulty controlling his
impulses;
that Petitioner’s alleged mental retardation
resulted in increased aggressive behavior due
to Petitioner’s increased level of frustration;
that Petitioner had previously attempted
suicide and was hospitalized, thereafter;
that
Petitioner
experienced
marital
difficulties that resulted in a divorce;
that Petitioner often experienced blackouts
following his use of alcohol and drugs;
that Petitioner Petitioner engaged in a binge
of alcohol and drug consumption in the days
preceding the commission of the crimes

see generally, Tr. T. Vol. 10, pgs. 1-189).
At the conclusion of the sentencing phase, the trial
court instructed the jury in accordance with Georgia
law, that in arriving at the sentencing determination,
they were “authorized to consider all of the evidence
received” in court “in both stages of this proceeding,
presented by the State and the defendant throughout
the trial.” See Tr. T. Vol. 13, p. 125.
This Court finds that under these circumstances, the
presentation of evidence in mitigation in this case was
reasonable. Although trial counsel did not present all
arguably available evidence, this Court finds, in
accordance with the directives of the United States
Supreme Court, the Eleventh Circuit, and the Georgia
Supreme Court, that Counsel were not constitutionally

126a
deficient for declining to present additional mitigating
evidence in the sentencing phase. See Waters v.
Thomas, 46 F.3d 1506 (11th Cir. 1995). Accordingly, this
claim of ineffective assistance of counsel is denied.
Trial counsel were not ineffective for declining to
present the testimony of Petitioner’s immediate
family members as mitigating evidence
Although trial counsel did not present the testimony
of Petitioner’s immediate family members as evidence in
mitigation given that trial counsel reasonably believed,
base on their investigation, that the testimony of these
family members could have adduced additional harmful
evidence that was not otherwise before the jury. H.T.
200, 261. The evidence in this case further showed that
Petitioner’s parents and other members of Petitioner’s
family were present in the courtroom throughout the
course of Petitioner’s trial to demonstrate their support
for him. H.T. 200. See Chandler v. U.S., 218 F.3d 1305,
1321 (11th Cir. 2000). Under these circumstances the
Court denies Petitioner’s claim that counsel were
deficient for declining to call his immediate family
members to testify as potential mitigating witnesses and
denies this claim of ineffective assistance of counsel.
The Court also finds that there is no reasonable
probability that the testimony of Petitioner’s immediate
family members would have influenced the jury more
than their presence in court during the course of the
trial. This fact is highlighted by the fact that most of the
information contained in their affidavits for these
proceedings are generally cumulative of the evidence
presented at Petitioner’s trial.

127a
Trial counsel did not elicit testimony contained in the
family member’s affidavits regarding Petitioner’s
daughter, Mandy, because the prosecution could have
responded to the presentation of such evidence by
calling Petitioner’s ex-wife, Stacy Cox. Ms. Cox made
statements to GBI agents at the time of these crimes
regarding the beatings she suffered from Petitioner
during the course of their marriage. These beatings
occurred even after the birth of Mandy. Ms. Cox’s
statement also included a recounting of Petitioner’s
threats to take her life as well as the lives of her family
members. H.T. 4554-4556 and R. 927. This Court finds
that there is no reasonable probability that this evidence
would have changed the outcome of this case. Absent a
showing of prejudice, this Court denies Petitioner’s
ineffective assistance of counsel claim.
Trial counsel were not ineffective for declining to
present the testimony of Petitioner’s extended family
members as mitigating evidence
This Court also finds that counsel were not deficient
for declining to interview all of Petitioner’s extended
family members and to call members of Petitioner’s
extended family and “friends” as potential mitigation
witnesses. See Holladay v. Haley, 209 F.3d 1243, 1252
(11th Cir. 2000) and Stanley v. Zant, 697 F.2d 955 (11th
Cir. 1983).
Accordingly this claim of ineffective
assistance of counsel is denied.
This Court also finds that Petitioner failed to
establish prejudice with regard to the affidavits of these
extended family members and friends. The testimony
contained in the affidavits was generally cumulative of
the evidence presented at trial including the abuse that

128a
Petitioner was subjected to as a child, his dysfunctional
family life, his family history of substance abuse, his own
long-standing problems with drugs and alcohol and his
alleged mental retardation.
This Court finds that the only evidence contained in
these affidavits which is not cumulative of the evidence
presented at trial is the testimony regarding Petitioner’s
attempt to perform CPR on his aunt in 1990, the
testimony of that Petitioner picked up a young boy on
the side of the road to take him to the police station to
find his parents and the alleged mental problems that
Petitioner’s father, great-grandfather and grandmother
experienced.
This Court finds that there is no
reasonable probability that the presentation of this
evidence regarding Petitioner’s isolated good deeds
would have changed the outcome of this case in light of
his extensive, prior criminal history and the horrific
circumstances of these crimes.
Even assuming, arguendo, that the evidence
regarding the alleged mental problems of Petitioner’s
father, great-grandfather and grandmother would have
been admitted by the trial court despite its being highly
speculative lay testimony on a subject-matter restricted
to experts, see O.C.G.A. § 24-9-67, this Court finds that
there is no reasonable probability that this evidence
would have resulted in a sentence less than death as the
Petitioner has failed to establish a link between the
alleged undiagnosed mental problems of his ancestors
bears upon his own claims of mental retardation and/or
mental illness.

129a
Trial counsel were not ineffective for declining to
object to the prosecutor’s sentencing phase
argument.
(Claim II, ¶ 23 (aa) of amended
petition)
Petitioner also claimed that counsel were ineffective
for declining to object to the prosecutor’s argument on
the issue of mercy. The prosecutor’s argument is as
follows:
He may say that the defendant is worth saving, that
this jury should give him a chance at life, but he gave no
chance to life for three people on May 30th and May 31st,
1993. He may argue this jury should show mercy to this
defendant, although he showed no compassion or mercy
to Jason and to Charlye and to Gail.
The Bible tells us that we should have mercy and
compassion for people. It does. However, the
Bible also tells us that God gave man authority to
make laws so that man could live amongst man
until we all go to the point that we lived as Jesus
lived. God gave us the authority to set up laws
and to punish those people who violate our laws.
In order to be a free society, in order to be safe,
we must have laws that hold people accountable
for their actions, and sometimes those laws must
be applied in a way that give the ultimate
punishment in a case such as this. The defendant
showed no mercy or compassion to three people
in May, 1993.
Tr. T. Vol. 13, p. 108.
Contrary to Petitioner’s assertion, it is not improper
for the State to vigorously urge that mercy is not

130a
appropriate in the case at hand. Johnson v. State, 271
Ga. 375 (1999), see also Hicks v. State, 256 Ga. 715 (1987).
In fact, the State is entitled to ask the jury not to be
sympathetic to the defendant. Hicks, 256 Ga. 715, 730
(1987), and to urge vigorously that a death sentence is
appropriate punishment in the case at hand. Ford v.
State, 255 Ga. 81, 93 (1985).
The Court finds that the prosecutor in this case did
not argue that the jury must exclude any consideration
of mercy in violation of Presnell v. Zant, 959 F.2d 1524,
1530 (11th Cir. 1992), but rather argued that mercy was
no appropriate in this case as Petitioner showed no
mercy to his victims. As the argument was proper, this
Court finds that counsel were not deficient for declining
to object to it and accordingly denies this ineffectiveness
claim.
Petitioner also claimed that counsel were ineffective
for declining to object to the aforementioned reference
to the Bible. This reference did not constitute an
inflammatory appeal to the jurors’ private religious
beliefs to convince the jury to sentence Petitioner to
death. Hammond v. State, 264 Ga. 879, 886 (1995). The
Petitioner argues that Carruthers v. State, 272 Ga. 306,
310 (2000) is controlling in that its holding prevents
language of command and obligation from a source other
than Georgia law from being presented to a jury. The
Court finds that the Petitioner’s convictions and
sentences were final at the time that Carruthers was
decided, but the Court also notes that nothing in the
prosecutor’s arguments at Petitioner’s sentencing phase
cited the Bible in a way as to suggest language of
command or obligation. As the Biblical reference

131a
neither changed the result of the sentencing trial nor
rendered it fundamentally unfair, this claim of
ineffectiveness is denied.
Petitioner also claimed that counsel were ineffective
for declining to object to the prosecutor’s argument that
death is the proper punishment in this case. However,
this Court finds that the argument was proper. Ford v.
State, 255 Ga. at 93. As a result, this Court denies
Petitioner’s claim that counsel were deficient for not
objecting to this argument, and denies this claim for
ineffective assistance of counsel.
Petitioner further claimed that counsel were
ineffective for failing to object to the prosecutor’s
statement that “I submit to you that this is one of the
worst cases that one can imagine.” Tr. T. Vol. 13. p. 109.
This Court finds that this statement did not suggest to
the jury that the prosecutor had canvassed all murder
cases and selected this one as particularly deserving of
the death penalty, thus infringing on the jury’s decisionmaking discretion and improperly invoking the
prosecutorial mantle of authority. Conklin v. State, 254
Ga. 558 (1985), see also Brooks v. Kemp, 762 F.2d 1383,
1413 (11th Cir. 1985). Rather, this Court finds that this
statement was a reasonable inference by the prosecutor
based on the nature of these crimes and the evidence
presented. Simmons, 266 Ga. at 228. Accordingly, this
Court finds that counsel were not deficient for declining
to object to this statement and denies this
ineffectiveness claim. Additionally, this Court finds that
there is no reasonable probability that prosecutorial
experience or expertise played a discernible role in the
jury’s evaluation of the vileness and brutality of

132a
Petitioner’s crimes in view of the evidence. Conklin, 254
Ga. at 573.
Petitioner additionally alleged that counsel were
ineffective for declining to object to the prosecutor’s
insertion of alleged improper victim-impact evidence
into his closing argument. However, as the prosecutor’s
brief arguments regarding the emotional impact of the
crime on the victim, the victim’s family and the
community, O.C.G.A. § 17-10-1.2(a)(1), were based on
evidence presented in this case and reasonable
inferences from the evidence presented and did not
serve to inflame or unduly prejudice the jury, Pickren v.
State, 269 Ga. 453, 454 (1998), this Court finds that
counsel were not deficient for declining to object to these
statements by the prosecutor. This Court denies the
Petitioner’s ineffective assistance of counsel claim on
this issue.
Petitioner also claimed that counsel were ineffective
for declining to object to the prosecutor’s
characterizations of Petitioner as being “mean from an
early age,’ “ a cold-blooded killer” and an “enemy,” as
well as the prosecutor’s statement that these crimes
“exhibit what kind of creature we’re dealing with.” This
Court finds that this claim is also without merit as the
Georgia Supreme Court has held that a prosecutor is
allowed considerable latitude in illustration and imagery
in closing argument, Philmore v. State, 263 Ga. 67, 69
(1993), and that his “illustrations may be as various as
are the resources of his genius; his argumentation as full
and profound as his learning can make it; if he will, give
play to his wit, or wing to his imagination.” Conner v.
State, 251 Ga. 113, 122 (1983). In Miller v. State, 226 Ga.

133a
730, the Georgia Supreme Court held that it was not
error for the prosecutor to characterize the defendant as
a “brute, beast, an animal and a mad dog who did not
deserve to live” in light of all of the evidence presented.
Given the wide latitude extended to the prosecutor in his
closing arguments and considering all of the evidence
presented at trial, the aforementioned characterizations
were clearly permissible. Accordingly, this Court finds
that counsel were not deficient for declining to object to
these characterizations at trial or on direct appeal. This
Court denies the Petitioner’s claim of ineffective
assistance of counsel on this issue.
Trial counsel were not ineffective in the
presentation of their sentencing phase argument
(Claim II, ¶ 23 (bb) of amended petition)
This Court finds that trial counsel were not deficient
in their presentation of the sentencing phase argument.
Additionally, this Court finds that the Petitioner did not
suffer legally cognizable prejudice as a result of counsel’s
argument at the Petitioner’s sentencing phase.
Accordingly, this Court denies this claim.
Trial counsel were not ineffective for declining to
present these issues during the Motion for New
Trial or on Direct Appeal (Claim II, ¶23 (dd) and
¶¶ 25-27(a-c) of amended petition)
As Petitioner failed to establish deficient
performance or prejudice with regard to any of the
claims he raised, this claim is denied.

134a
Trial counsel were not ineffective for declining to
assert Brady Violations (Claim V, ¶ 39, footnote 4
of amended petition)
Petitioner alleged that counsel were ineffective for
declining to assert a Brady violation for the State’s
alleged suppression of material information favorable to
the defense at both phases of trial and for declining to
assert a Brady violation regarding the State’s alleged
presentation of evidence that it allegedly knew or should
have known to be false and/or misleading. The Court
finds that Petitioner failed to show that counsel were
deficient in declining to raise such a claim at trial or on
direct appeal. Additionally, this Court finds that
Petitioner failed to establish that there is a reasonable
probability that the assertion of such a claim would have
changed the outcome of this case. Therefore, this claim
of ineffective assistance of counsel is denied.
Trial counsel were not ineffective for declining to
object to the manner in which the prosecutor
excised his peremptory strikes (Claim V, ¶ 40,
footnote 5 of amended petition)
Petitioner also alleged that counsel were ineffective
for declining to object to the prosecutor’s alleged use of
peremptory strikes in a manner to systematically
exclude jurors on the basis of race and gender.
Petitioner bears the burden of proof of establishing this
claim. However, Petitioner has failed to provide support
for this claim. Accordingly, this Court denies this claim
of ineffective assistance of counsel as Petitioner failed to
establish deficient performance or prejudice with regard
to this claim.

135a
Trial counsel were no ineffective for failing to
object further to the State’s opening statement at
the guilt phase of trial (Claim V, ¶ 41, footnote 6
of amended petition)
Petitioner also alleged that counsel were ineffective
for declining to raise additional objections to the State’s
opening statement at the guilt phase. However, this
Court finds that Petitioner failed to show that counsel
were deficient in declining to object to the portion of the
prosecutor’s opening statement that he asserts is
improper. Further this Court finds that Petitioner failed
to show that there is a reasonable probability that the
outcome of this case would have been different had
counsel objected to this portion of the State’s opening
statement. Instead, the Petitioner simply argued in his
brief that “Petitioner’s rights to due process and fair
trial were violate by improper and prejudicial remarks
in its opening to the jury,” without specifying the alleged
improper remarks, and that “[t]o the extent that
Petitioner’s counsel failed to object to these comments
and seek a mistrial or other appropriate relief or to
otherwise preserve objections,” “counsel is ineffective
and Petitioner was prejudiced thereby.” Petitioner’s
Brief at 292-293. As Petitioner bears the burden of
establishing this claim and has failed to do so, this claim
is denied.
Trial counsel were not ineffective for declining to
raise juror misconduct claims (Claim VII, ¶ 48,
footnotes 8 and 9 of amended petition)
Petitioner alleged that counsel were ineffective for
declining to allege that Petitioner’s trial jurors:
discussed the case after being admonish not to do so,

136a
improperly considered extrajudicial matters, held
improper racial attitudes which infected their
deliberations, made false and misleading responses on
voir dire, had improper biases which infected their
deliberations, were improperly exposed to the
prejudicial opinions of third parties, had improper
communications with third parties including bailiffs and
the trial judge and improperly prejudged the guilt and
penalty phases of Petitioner’s trial. Although Petitioner
sought to admit the affidavits of several jurors in
support of these claims, this Court excluded this
evidence in its entirety upon reviewing these affidavits
upon determining that the testimony contained therein
violated the rule against the impeachment of a verdict.
Turpin v. Todd, 268 Ga. 820 (1997). Petitioner presented
no other evidence in support of these broad claims. This
Court finds that Petitioner failed to carry his burden to
prove that counsel were deficient for declining to raise
these allegations or that Petitioner was suffered
prejudice as a result of such deficiency. This Court
denies this claim of ineffective assistance of counsel.
Trial counsel were not ineffective for declining to
request that the issue of Petitioner’s sentence be
decided by a new jury (Claim VIII, ¶¶ 49-54,
footnote 9 of amended petition)
Petitioner alleged that counsel were ineffective for
declining to raise these claims. However, as the Georgia
Supreme Court has repeatedly rejected the claim that a
defendant is entitled to a different sentencing jury,
Ward v. State, 262 Ga. 293, 200 (1992)(citing Miller v.
State, 237 Ga. 557, 559 (1976)), this claim of ineffective
assistance of counsel is denied.

137a
SENTENCING PHASE JURY CHARGES
“Claims regarding sentencing phase jury charges in
a death penalty case are never barred by procedural
default.” Head v. Ferrell, 274 Ga. at 403. Accordingly,
this Court will address this claim regarding Petitioner’s
sentencing phase jury charge on its merits.
In Claim VI, ¶ 44 (g) and in Claim X, ¶¶ 57-59 or
Petitioner’s amended petition. Petitioner generally
alleged that the instructions given to the jury at the
sentencing phase of his trial violated the fifth, sixth,
eighth and fourteenth Amendments to the United States
Constitution and the analogous provisions of the Georgia
Constitution. Petitioner specifically alleged that the
jury was mislead by the instructions of the trial court to
believe that the beyond a reasonable doubt standard
applicable to a finding of mental retardation in the guiltinnocence phase applied to the sentencing phase and
thereby was precluded from considering the evidence of
mental retardation as a mitigating factor in the
sentencing phase and that the trial court failed to
adequately define mitigating circumstances. This Court
finds that this claim is without merit.
A review of the record showed that the trial judge
charged the jury on their consideration of circumstances
in mitigation of punishment as follows:
In arriving at this determination, you are
authorized to consider all of the evidence received
here in court in both stages of this proceeding,
presented by the State and the defendant
throughout the trial before you.
*

*

*

138a
[Y]ou shall also consider the facts and
circumstances, if any, in extenuation, mitigation,
and aggravation of punishment. Mitigating or
extenuating facts or circumstances are those
which you the jury find do not constitute a
justification or excuse for the offense in question,
but which, in fairness and mercy, may be
considered as extenuating or reducing the degree
of moral culpability or blame.
*

*

*

Members of the jury, under the laws of this state,
a person found guilty of murder shall be punished
by death, or life imprisonment without parole or
life imprisonment. Under our law, a sentence of
death or life imprisonment without parole shall
not be imposed unless the jury finds, in writing,
at least one or more statutory aggravating
circumstances, and next sixes the sentence of
death or life without parole in its verdict.
*

*

*

It s not required and it is not necessary that you
find any extenuating or mitigating facts or
circumstances in order for you to return a verdict
setting the penalty to be imposed at life
imprisonment...Whether or not you find any
extenuating or mitigating facts or circumstances,
you are authorized to fix the penalty at life
imprisonment.
If you find from the evidence, beyond a
reasonable doubt, the existence in this case of one
or more aggravation circumstances as given to

139a
you in charge by the Court, then you would be
authorized to recommend the imposition of a
sentence of death, but you would not be required
to do so. If you should find from the evidence in
this case, beyond a reasonable doubt, the
existence of one or more aggravating
circumstances as given to you in charge by the
Court, you would also be authorized to sentence
the defendant to life in prison. You may fix the
penalty at life imprisonment, if you see fit to do
so, for any reason satisfactory to you, or without
any reason.
Tr. T. Vol. 13, pgs. 125-132.
In viewing this charge as a whole, this Court finds
that the trial court properly “charged the jury that it
was not necessary to find any mitigating circumstances
to impose a life sentence” in accordance with the
requirements of law. Palmer v. State, 271 Ga. 234, 238
(1999). This Court finds that the jury was not misled into
believing that the beyond a reasonable doubt standard
applicable to a finding of mental retardation in the guilt
phase applied to its consideration of alleged mental
retardation as evidence in mitigating circumstances was
sufficient. Accordingly, the claim is denied. Additionally
the Court denies Claim II, ¶ 23 (cc) wherein the
Petitioner alleged that trial counsel were ineffective for
failing to object to this charge. The Petitioner has
neither proved deficient performance by counsel or
prejudice flowing from such deficiency. As a result the
Court will deny this claim, as well.
The Court also denies Petitioner’s suggestion that he
was entitled to a charge that his allegation of mental

140a
retardation was subject to a lower standard of proof in
the sentencing phase. Burgess v. State, 264 Ga. 277, 291292 (1994). In Burgess, the Georgia Supreme Court
rejected the defendant’s argument that he was entitled
to have the jury charged that it could not impose a death
sentence if it found by a preponderance of the evidence
that he was mentally retarded, holding that “the giving
of such a charge is entirely inconsistent with the General
Assembly’s establishment of a specific procedure for
determining whether a defendant who claims to be
mentally retarded should be sentenced automatically to
life imprisonment, rather that be subject to the
possibility that the jury would impose the death penalty
at the sentencing phase.” Accordingly, this claim is
denied.
CHALLENGE TO SENTENCE OF DEATH BY
ELECTROCUTION
In light of the holding of Dawson v. State, 274 Ga. 327
(2001), this Court finds that this claim is moot as the
Georgia Supreme Court has held that a sentence of
death by electrocution is unconstitutional.
CONCLUSION
After a review of the evidence, the parties’ filings
and the arguments presented in these proceedings, this
Court hereby respectfully DENIES Petitioner’s
petition for habeas corpus relief, as amended.

141a
SO ORDERED.
This 22nd day of March, 2004.
/s/ Robert W. Adamson
ROBERT W. ADAMSON, JUDGE
SUPERIOR COURT
BUTTS COUNTY
BY DESIGNATION

142a
Appendix C
SUPREME COURT OF GEORGIA
Case No. S04E1707

Atlanta, January 11, 2005

The Honorable Supreme Court met pursuant to
adjournment. The following order was passed:
BILLY DANIEL RAULERSON v. FREDRICK
HEAD, WARDEN
From the Superior Court of Butts County.
Upon consideration of the Application for Certificate
of Probable Cause to appeal the denial of habeas corpus,
it is ordered that it be hereby denied.
All the Justices concur, except Fletcher, C.J., who
dissents.
1998V706
SUPREME COURT OF THE
STATE OF GEORGIA
Clerk’s Office, Atlanta
I hereby certify that the above is
a true extract from the minutes of
the Supreme Court of Georgia.
Witness my signature and the
seal of said court hereto affixed
the day and year last above
written.

143a
Appendix D
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 14-14038-P
August 27, 2019
BILLY DANIEL RAULERSON, JR.,
Petitioner - Appellant,
versus
WARDEN,
Respondent - Appellee.
Appeal from the United States District Court
for the Southern District of Georgia
ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN BANC
BEFORE: WILLIAM PRYOR, JORDAN, and
HULL, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no
judge in regular active service on the Court having
requested that the Court be polled on rehearing en banc.

144a
(FRAP 35) The Petition for Panel Rehearing is also
denied. (FRAP 40)
ENTERED FOR THE COURT:
/s/ William H. Pryor
UNITED STATES CIRCUIT JUDGE
ORD-46

